<html>
<title> - PREPAREDNESS FOR THE 2007 WILDFIRE SEASON</title>
<body><pre>[Senate Hearing 110-139]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-139
 
               PREPAREDNESS FOR THE 2007 WILDFIRE SEASON 
=======================================================================
                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE PREPAREDNESS OF FEDERAL LAND MANAGEMENT AGENCIES FOR THE 
 2007 WILDFIRE SEASON AND TO CONSIDER RECENT REPORTS ON THE AGENCIES' 
     EFFORTS TO CONTAIN THE COSTS OF WILDFIRE MANAGEMENT ACTIVITIES

                               __________

                             JUNE 26, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

37-727 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming *
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel

----------
* Senator Thomas passed away on June 4, 2007.



















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allred, C. Stephen, Assistant Secretary for Land and Minerals 
  Management, Department of the Interior.........................     5
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     3
Nazzaro, Robin, National Resources and the Environment, 
  Government Accountability Office...............................    17
Rey, Mark, Under Secretary for Natural Resources and the 
  Environment, Department of Agriculture.........................    15
Salazar, Hon. Ken, U.S. Senator from Colorado....................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    53


                       PREPAREDNESS FOR THE 2007 
                            WILDFIRE SEASON

                              ----------                              


                         TUESDAY, JUNE 26, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. All right, why don't we go ahead with the 
hearing.
    This is the second hearing of the year on the subject of 
wildfire management. In January, we had a hearing, I believe it 
was the committee's first hearing ever, dedicated to the issue 
of wildfire cost containment. Today's hearing is focused on the 
preparedness of Federal agencies for the current wildfire 
season, but also, again, we want to focus on the issue of cost 
containment, specifically in the context of two new reports, 
and a recently released administrative document on the subject.
    Wildfire potential is forecast to be higher than normal in 
a number of regions. Of course, we see on the news, and the 
front page of the newspapers, the devastation that's being 
caused in some parts of the country, as we speak.
    To date, we've had 116 percent of the average number of 
fires. They've burned 136 percent of the average number of 
acres. That's the average over the last 10 years, as I 
understand it. The Forest Service's expenditures have already 
approached $400 million. The administration's budgets indicate 
that it believes that containing wildfire costs must come at 
the expense of preparedness. That's been an issue of contention 
for a very long time.
    In fact, we heard repeatedly from an array of experts that 
spending more money on preparedness and local first response 
capacity would reduce the overall cost of fighting fires in the 
long term. They've also pointed to the gross inefficiencies and 
disruptions that result in borrowing funds from other agency 
accounts to cover under-funded emergency wildfire suppression 
operations.
    It appears to me the Forest Service and Interior have done 
more in the last year to begin to address the escalating costs 
of wildfire management than has been done in a long time, and 
they deserve credit for undertaking some significant cost 
containment initiatives.
    However, as both of the reports that we are considering 
today will confirm, there's much more that agencies could be 
doing, and should be doing, the two reports reiterate large 
deficiencies in the agency efforts, the failure to 
institutionalize cost containment is a major issue that's 
cited.
    I also want to briefly mention the issue of our fire 
fighters. Obviously we're extremely appreciative of the 
dedicated service that many individuals commit to fighting 
fires. Senator Cantwell, Senator Domenici and I have introduced 
a bill, S. 1635 to help cover their liability insurance costs.
    This is a project we worked closely with the administration 
on, and through Senator Craig and Senator Feinstein's 
leadership, we have inserted that into the Interior bill. 
Through this authority, agencies will be better positioned to 
manage their wild land fire programs for safety, effectiveness 
and efficiency, and firefighters will be better positioned to 
protect their personal interests while serving the public 
interests.
    Let me turn to Senator Domenici for any opening comments he 
has.
    [The prepared statements of Senators Bingaman and Salazar 
follow:]
 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico
    This is the committee's second hearing of the year on the subject 
of wildfire management. At the end of January, this committee held what 
I believe was the first-ever hearing dedicated to wildfire cost-
containment.
    This hearing is focused on the preparedness of the Federal agencies 
for the current wildfire season, but we also will again focus on the 
issue of cost-containment, specifically in the context of two new 
reports and a recently released administrative document on the subject.
    The Federal agencies have forecasted wildfire potential to be 
higher than normal across much of the country. The forecasts have thus 
far proven pretty accurate: to date, we have had 112 percent of the 
average number of fires and they have burned about 142 percent of the 
average number of acres.
    The administration seems to believe that containing wildfire costs 
must come at the expense of preparedness. But I don't believe that 
starving the preparedness, wildfire suppression, and other Forest 
Service programs is an effective or efficient strategy to contain those 
costs.
    In fact, we have heard repeatedly from an array of experts that 
spending more money on preparedness and local first-response capacity 
would reduce overall costs in the long term. They also have pointed to 
the gross inefficiencies and disruptions that often result from 
borrowing funds from other agency accounts to cover under-funded 
emergency wildfire suppression operations.
    We have had to dig a long-way-out of the deep financial hole in 
which the agencies' wildfire accounts were left by the last Congress.
    The continuing resolution for this fiscal year provided an extra 
$70 million in wildland fire management funding for the Forest Service. 
The Iraq Supplemental provided another $465 million for emergency 
suppression, despite the administration's opposition; and the recently-
passed budget provides for an additional $500 million in funding for 
next year, if necessary.
    As a result, I think we are much better prepared than we would have 
been without that change in course, and better preparation should make 
for a more efficient and effective wildfire management program.
    So while starving the agencies' budgets is not the answer, there 
are many things the agencies can and should be doing to contain costs.
    It appears to me that the Forest Service and Interior Department 
have done more in the last year to begin to address the escalating 
costs of wildfire management than they have done in a long time.
    They deserve credit for undertaking a number of significant cost-
containment initiatives.
    However, as both of the reports we will consider today confirm, 
there still remains much that agencies ought to be doing. That includes 
many specific initiatives that have been recommended by these and many 
other reports.
    The two reports also reiterate larger deficiencies in the agencies' 
efforts. As the Independent Panel that Dr. Hyde will testify about 
reports, ``despite the numerous studies and reviews conducted of large 
wildfire costs since the National Fire Plan, cost-containment has not 
been institutionalized in the Forest Service.''
    And the failure to institutionalize cost-containment is in large 
part the result of enormous shortcomings in planning, providing 
effective incentives, and--as the titles of both reports indicate--
strategizing.
    I am afraid that I will have to step away from the hearing, and 
Senator Wyden, who chairs our Public Lands and Forests Subcommittee, 
will chair in my absence. First I'd like to turn to Senator Domenici 
for any opening remarks he'd like to make. Other members' statements 
will be made a part of the record.
                                 ______
                                 
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Mr. Chairman, thank you for holding this hearing. As Colorado can 
attest, fire season is upon us and I look forward to hearing from the 
administration on the steps they have taken to prepare for it.
    While fire danger ratings vary across the country from below 
average to above average it is important that we not let our guard down 
anywhere. This is especially true for a state like Colorado where fire 
danger is rated ``normal'' this season. Colorado's bark beetle 
infestation is increasing hazardous fuel loads in the forests. At the 
same time the increasing number of recreational users in our forests 
and Colorado's extensive wildland-urban interface demand that we remain 
vigilant in our preparation to appropriately respond to, contain, and 
suppress wildfires.
    In light of this, I am concerned about reports that fire positions 
in Colorado are being cut and will have some questions regarding 
resource levels as well as reports that certain assets are slated to be 
permanently re-located.
    I am concerned about increased fire fighting costs adversely 
affecting the Forest Service's ability to address other important 
funding needs such as preparedness, hazardous fuels mitigation, 
recreation management, and of course bark beetles.
    These are important issues and I believe it is a wise use of this 
Committee's time to continue to conduct vigorous oversight of the 
Federal land agencies and their actions to address them and to assure 
this committee that life, property, and other important resources are 
protected from wildfire to the maximum extent possible.
    Thank you again, Mr. Chairman. I look forward to hearing from the 
administration witnesses on these items.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thanks very much, Mr. Chairman. First, I 
want to thank you for holding the hearing. This last fire 
season we burned 9 million acres, and expended slightly more 
than $2 billion in that effort. Much of the expense was 
consumed in a couple of dozen fires.
    It seems like every year we ask the same questions--do we 
have enough firefighters? Do we have enough equipment? Will 
there be an aerial support when we need it? How can we reduce 
the cost of this activity?
    I think the committee and the Congress should be asking 
more important questions. First should be, ``how are we going 
to help change the on-the-ground dynamics in order to avoid 
these intense catastrophic fires?'' Second, we should be 
asking, ``what can be done to reduce the millions of tons of 
carbon dioxide and pollutants that get released into our air 
from these fires?''
    When the Haymon Fire burned in Colorado in 2002, the NASA 
scientists estimated that the fire was emitting more carbon 
dioxide in 1 day than all of the vehicles in the United States 
emitted in a week.
    Researchers in Canada recently found mercury levels in 
trout to be 5 times higher than the previous year in an area 
that they were studying after it was burned.
    Here is a picture of the Derby Fire near Big Timber, 
Montana that burned last summer. I was in Montana when the fire 
was going on, and it was one of the many that occurred in the 
State that summer. This lightning-caused fire consumed 207,000 
acres between August 22 and October 3 in 2006. Much of that 
area was heavily forested lands that burned with great 
intensity--millions of tons of timber, grass and brush were 
consumed in the fire.
    Science tells us that half of the carbon in these trees 
captured from the air is sequestered in the wood, and half is 
sequestered in the soil. When we get very intense fires, like 
the one that occurred in the Derby Fire, much of the carbon, 
both in the trees and in the soil, is released into the 
atmosphere. That's another real big source of carbon dioxide 
that we're not preventing by letting that much heat hit that 
much stored carbon that has been saved up.
    The smoke column in that picture was estimated to be 20,000 
to 30,000 feet tall. Other than a major volcanic eruption or 
the detonation of a thermo-nuclear bomb, there is no other 
event that pushes carbon dioxide as high into the upper 
atmosphere, as quickly as this does. Take a look at the 
picture. It's from Colorado and was taken at Frazier 
Experimental Forest last year. It is another Derby Fire waiting 
to happen. What happened here? Why did some of these trees 
survive the onslaught of insects? Those green areas were clear-
cut in an experiment designed to model water yields done 40 
years ago, and they are now young, vigorous forests that have 
the potential to fight off insects.
    Mr. Chairman, this Congress should be very concerned about 
the carbon dioxide released by our dead and dying trees, 
especially when they burn. Like many others here today, I'm 
worried about the Forest Service becoming an agency with no 
funds to manage anything other than fires. That would be a 
shame. We're moving in that direction.
    I really believe that an ounce of prevention would be worth 
more than a pound of cure when it comes to the forest. In 
closing, I would be remiss if I did not mention an insect 
problem that is ongoing near Cloudcroft, New Mexico, Senator 
Bingaman. I want to avoid, if possible, seeing the smoke plume 
like the one I showed today over our home State.
    Mr. Rey, my first question will be about this situation, so 
if you don't have it ready, you might as well ask somebody now.
    Thank you very much, Mr. Chairman.
    The Chairman. All right, thank you very much. We have three 
distinguished witnesses. The Honorable Mark Rey, who is the 
Under Secretary for Natural Resources and the Environment in 
the Department of Agriculture. The Honorable Steven Allred, who 
is the Assistant Secretary for Land and Minerals Management at 
the Department of Interior, and Robin Nazzaro, who is Director 
of Natural Resources and the Environment at the Government 
Accountability Office.
    I'm informed that Secretary Allred is prepared to be the 
first witness, and why don't we hear from you, and then from 
Mark Rey, and then from Ms. Nazzaro.

 STATEMENT OF C. STEPHEN ALLRED, ASSISTANT SECRETARY FOR LAND 
      AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Allred. Thank you, Mr. Chairman, Senator Domenici, and 
members of the committee, it's a pleasure to be here to visit 
with you, as always.
    It's my pleasure to appear here with Mark Rey as we discuss 
fire preparedness, fuels reduction, the upcoming fire season we 
need to be prepared for, and other important information about 
the close relationship the Department of the Interior and 
Department of Agriculture have with regard to fire operations.
    As you know, multiple factors contribute to wildland fire, 
including weather and fuel-type terrain, location proximity to 
the Wildlands Urban Interface, or WUI, as we refer to it, and 
obviously the management decisions that are made before and 
during fire incidents.
    Changing temperature, the prolonged drought, accumulation 
of fuels and substantial increase in highly flammable invasive 
species--what I'm particularly concerned about--are converging 
to increase the risk that we have for catastrophic fire.
    In combination, these trends can present continuing 
challenges in our effort to control wildland fires, and to 
manage the cost of fighting those fires.
    One challenge we face in addressing wildland fire is in the 
Wildland Urban Interface where suppression efforts are 
inherently more expensive. The rate of growth of new homes in 
the WUI is triple that outside of that area, with approximately 
8.4 million new homes constructed in the 1990s.
    The Departments have worked aggressively to reduce the 
amount of hazardous fuels on Federal lands, and to restore the 
heath by public ranges and forests.
    In carrying out this work, we have used both administrative 
tools and statutory authorities, such as the President's 
Healthy Forest Initiative, and the Healthy Forest Restoration 
Act, to expedite those actions.
    In 2006, more than half of the total acres treated were 
inside the WUI area. We'll maintain this emphasis, and our goal 
is to treat approximately 2 million acres in 2007. As you've 
said, 2006 was an above-normal year by almost any standard. In 
2006, we had 14 fires that topped 100,000 acres in size.
    Across all jurisdictions in 2006, wildland fires totaled 
more than 96,000 incidents, and burned almost 10 million acres 
of land. Despite the severity of the fire index, we were able 
to achieve a 97 percent initial attack success on all of the 
fires, which is comparable to less severe years that we've 
faced.
    Also significantly, fewer dwellings and other structures 
were destroyed in 2006, 750 homes lost, and compare that in 
2002 at 835, and in 2003, 4,500 homes.
    Looking at the 2007 season, we expect to be at higher than 
normal incidents across the Southwest, in California, across 
the Great Basin, and the Northern Rockies, and small portions 
of Northwest Alaska and the Southeast.
    Critical conditions continue because of drought, low snow 
pack, warmer temperatures and earlier melt of that snow pack. 
These conditions have already resulted in more than 1.3 million 
acres in the Southern area being burned, and about 160,000 in 
the Southeastern area. As of this morning, as you've read and 
seen in the news media--there are two large fires that are 
attracting a lot of attention, the fire in Caribou Hills, 
Alaska on the Kenai Peninsula, has consumed about 55,000 acres, 
and destroyed 88 cabins and about 109 outbuildings.
    In addition to that, the Angola Fire at South Lake Tahoe 
has consumed almost 2,500 acres as of last night, destroyed 200 
primary residences, and 75 outbuildings.
    Our resources are comparable to those in 2006. We have 
permanent and seasonal firefighters, hot shot fighting crews, 
some 18,000 total firefighters, smoke jumpers, incident 
management teams, ready to respond.
    Our aviation assets also include type 1 and type 2 
helicopters, single-engine air tankers, both on exclusive-use 
contracts, and on an as-needed basis, and two water scoopers 
for fires.
    As we have already demonstrated as we fought the fires 
early this season, we leverage our firefighting ability by 
shifting our firefighters' equipment as the fire season 
progresses.
    Assignments are made based upon anticipated fire starts, 
actual fire currents, the rate of fire spread and severity that 
we face with the help of our predicting services. Initial 
attack of the fires is handled by the closest available assets. 
In the event of multiple, simultaneous fires, we prioritize 
those efforts by using the National Multi-agency Coordinate 
Group that's part of NIFC.
    Prioritization of our efforts ensures firefighting 
resources are positioned where they are needed most, and are 
most efficient from a cost standpoint.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify, and I'll be most willing to answer any 
questions at the appropriate time.
    [The joint prepared statement of Mr. Allred and Mr. Rey 
follows:]
Joint Prepared Statement of C. Stephen Allred, Assistant Secretary for 
Land and Minerals Management, Department of the Interior, and Mark Rey, 
 Under Secretary for Natural Resources and the Environment, Department 
                             of Agriculture
                              introduction
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify on wildland fire preparedness for the 2007 fire 
season. Since the Department of the Interior and the Department of 
Agriculture work closely together in fire management, the two 
Departments are providing a joint statement.
              weather, wildland urban interface, and wood
    Multiple factors contribute to wildland fire. These factors include 
weather, fuel type, terrain, location with respect to the wildland 
urban interface (WUI), and other highly valued landscapes, and 
managerial decisions made before and during fire incidents. In 
addition, changing temperatures and prolonged drought across many 
portions of the West and Southeast, an expansion of the WUI and an 
increase in the number of people living in the WUI, continued 
accumulation of wood fiber, and substantial increases in highly 
flammable invasive species, such as cheatgrass, are converging to 
increase the risk of catastrophic loss from wildland fires. In 
combination, these trends present continuing challenges in our efforts 
to decrease the number and cost of fire incidents.
    Over the last few years, we have reported regularly to Congress on 
these challenges. The 2005 Quadrennial Fire and Fuels Review by DOI and 
USDA examined the growth of the WUI, the area where structures and 
other human developments meet or intermingle with undeveloped wildland. 
The review found that 8.4 million new homes were added to the WUI in 
the 1990s, representing 60 percent of the new homes constructed in the 
United States. The rate of growth is triple the rate of construction 
outside of the WUI. Also, the recent Audit Report by the Office of 
Inspector General ``Forest Service Large Fire Suppression Costs'' found 
that the majority of Forest Service large fire suppression costs are 
directly linked to protecting property in the WUI. These reviews 
illustrate the challenge of addressing wildland fire in land areas such 
as locations in the WUI where fire suppression is inherently more 
expensive.
    Another challenge is addressing the accumulation of flammable 
biomass on our public lands, a major cause of fire risk. The 
Departments have worked aggressively to reduce the amount of hazardous 
fuels on Federal lands and restore the health of our public forests and 
rangelands, utilizing the authorities provided under the President's 
Healthy Forests Initiative and the Healthy Forests Restoration Act to 
expedite action. In 2006, more than half of the total acres treated 
were inside the WUI. We will maintain this emphasis with a goal to 
treat approximately 2 million acres in high-risk wildland urban 
interface areas through the hazardous fuels reduction program in 2007.
                            2006 fire season
    Fire activity in 2006 was above normal by nearly every standard. 
The transition from the end of the 2005 fire season to the beginning of 
the 2006 fire season was uncharacteristic in that it lacked the typical 
slowdown during the winter months. Extremely low humidity, persistent 
drought conditions and winds contributed to fire ignitions and rapid 
spreads from November 2005 through April 2006 in Texas and Oklahoma as 
well as Colorado, Missouri and New Mexico.
    2006 included the second warmest summer on record nationally and 
the hottest on record from January through August. The summer saw an 
unprecedented quantity of acreage burned, with 14 fires topping 100,000 
acres in size, in Washington, Nevada, California, Montana, Oregon, 
Texas, Idaho and Alaska with five located on National Forests, seven in 
Bureau of Land Management Districts, and two in State jurisdictions. 
Across all jurisdictions, wildland fires totaled more than 96,000 
incidents burning nearly 10 million acres.
    Last year, the U.S. Forest Service spent over $1.5 billion on all 
fire suppression and over $400 million on 20 of the largest fires while 
DOI spent approximately $424 million on all fire suppression. We are 
pleased, that even in the face of such a long and severe fire year; we 
achieved nearly 97 percent initial attack success on all fires, a rate 
comparable to less severe years. We will strive to maintain that level. 
Although the 2006 fire season had an unprecedented number of fire 
starts in a single day (548), an extraordinary number of lightning 
caused fires (over 14,000), and the most number of large fires at one 
time (59 fires over 500 acres being managed in 9 geographic areas), it 
also resulted in significantly fewer dwellings and other structures 
destroyed--750 homes lost in 2006 (240 homes during the March fires in 
Texas and Oklahoma) compared with 835 homes lost in 2002 and over 4500 
homes lost in 2003.
                   2007 wildland fire season outlook
    Most of the eastern, central and northwestern U.S. has a normal 
outlook for significant wildland fire in potential 2007. A portion of 
the Southwest is predicted to have a below-normal wildland fire season. 
This area includes northeastern New Mexico, and small parts of 
southeastern Colorado, western Oklahoma, and northern Texas, where it 
borders New Mexico. Wildland fire potential is expected to be higher 
than normal across much of the Southwest, California, portions of the 
Great Basin, the Northern Rockies, a small portion of the Northwest, 
Alaska, and the Southeast. The amount of precipitation many areas 
receive in the early summer periods is an important factor in the 
severity of the fire season.
    The critical conditions influencing the 2007 wildland fire outlook 
are:

  <bullet> Drought conditions are expanding and intensifying across 
        large portions of the West and Southeast, and drought relief is 
        not expected in these areas through the season.
  <bullet> Low snow pack, warmer-than-normal forecast temperatures, and 
        early snow melt over most of the West will likely dry out 
        timber fuels and could cause an early onset of fire season in 
        some areas.
  <bullet> Abundant new and carry over fine fuels are expected to 
        green-up and cure early, leading to an active and prolonged 
        grassland fire season.
  <bullet> Another hotter than normal summer is projected for the West. 
        Depending on heat levels and timing of higher temperatures, 
        higher elevation fuels could dry quickly and be susceptible to 
        ignitions.

    The fire season is already producing incidents that are evidence of 
our concern about the 2007 fire season. Drought and high temperatures 
have resulted in the burning of over 1.1 million acres in the Southern 
Area, including the Big Turnaround, Sweat Farm Road, Bugaboo Scrub and 
Florida Bugaboo fire complex in Northern Florida and Southeastern 
Georgia. More than 161,000 acres have burned in the Eastern Area, 
including the Ham Lake fire in Northern Minnesota and in Canada which 
burned for over eighteen days, due to drought conditions and high 
winds.
                       wildland fire preparedness
    To prepare for these natural conditions anticipated in the 2007 
Fire Season, USDA and DOI are working to improve the efficiency and 
effectiveness of our firefighting resources. New management efforts are 
allowing for increased mobility of firefighting forces and aviation 
assets.
Firefighting Forces
    For the 2007 fire season, we have secured firefighting forces--
firefighters, equipment, and aircraft--comparable to those available in 
2006. As has already been demonstrated during the fires in the 
Southeast, we leverage our firefighting ability by shifting our 
firefighters and equipment as the fire season progresses. Fire managers 
assign local, regional, and national firefighting personnel and 
equipment based on anticipated fire starts, actual fire occurrence, 
fire spread, and severity with the help of information from Predictive 
Services.
    More than 18,000 firefighters will be available, including 
permanent and seasonal Federal and State employees, crews from Tribal 
and local governments, contract crews, and emergency/temporary hires. 
This figure includes 92 highly-trained Hotshot firefighting crews and 
about 400 smokejumpers nationwide. There are 17 Type 1 national 
interagency incident management teams (the most experienced and skilled 
teams) available for complex fires or incidents. Thirty-eight Type 2 
incident management teams are available for geographical or national 
incidents.
    Initial attack of a fire is handled by the closest available local 
resource regardless of agency jurisdiction. Generally this means that 
the agency with management jurisdiction and protection responsibility 
for the location of the fire, such as a national forest, Tribal lands, 
Bureau of Land Management unit, wildlife refuge, or national park, will 
handle initial attack. Often, our partners at the local community or 
county level are the first to respond.
    Two interagency National Incident Management Organization (NIMO) 
teams were staffed in 2006, and are operational with two seven-member 
full-time Type I Incident Management Teams that are ready to respond to 
wildland fire incidents. The teams are headquartered in Atlanta, 
Georgia and Boise, Idaho and will help wildland fire agencies improve 
future fire management programs. Currently, the Atlanta NIMO team is 
assisting the Florida State incident management team on the Florida 
Bugaboo fire. The Boise NIMO team recently concluded nearly 40 days of 
assisting FEMA in its tornado disaster response operation in 
Greensburg, Kansas. Both teams will be called to assist in wildland 
fire incidents this season, and when they are not on assignments, they 
will implement the NIMO Implementation Plan, which calls for 
improvements in wildland fire program management in the areas of 
training, fuels management, cost containment, and leadership 
development, among others.
    The National Interagency Coordination Center, located at the 
National Interagency Fire Center in Boise, coordinates critical 
firefighting needs throughout the nation. In the event of multiple, 
simultaneous fires, firefighting resources are prioritized and 
allocated by the National Multi-Agency Coordinating group, composed of 
national fire directors headquartered at NIFC. Prioritization ensures 
firefighting forces are positioned where they are needed most. Fire 
managers dispatch and track personnel, equipment, aircraft, vehicles, 
and supplies through an integrated national system. If conditions 
become extreme, assistance from the Department of Defense is available 
under our standing agreements, as well as firefighting forces from 
Canada, Mexico, Australia, and New Zealand using established agreements 
and protocols.
Aviation
    The wildland firefighting agencies continue to employ a mix of 
fixed and rotor wing aircraft. Key components of our 2007 aviation 
assets include 16 civilian large air tankers on federal contracts, 
along with 41 Type 1 and Type 2, or heavy and medium, helicopters on 
national use exclusive-use contracts; and 84 Type 2 and 3 helicopters 
on local or regional contracts. Additionally, there are nearly 300 
call-when-needed Type 1, 2 and 3 helicopters available for fire 
management support as conditions and activity dictate.
    Although both the large and single-engine air tanker programs have 
evolved in recent years, we are confident that we have appropriate and 
cost-effective assets in place or available to respond to the air 
support needs in the field. Twenty three Single Engine Air Tankers 
(SEATs) will be on exclusive-use contracts for the 2007 fire season and 
about 80 available on a call-when-needed basis. Some states and local 
areas also contract their own SEATs. In addition, there will be two 
water-scooper airtankers on exclusive-use contracts and an additional 
one available on a call-when-needed basis for the 2007 fire season. 
Additional water-scooper aircraft will be available through agreements 
with state and county firefighting agencies. As in the past, military 
C-130 aircraft equipped with Modular Airborne Fire Fighting Systems 
(MAFFS) will be available to supplement our large air tanker fleet as 
needed. Six MAFFS are available this year.
                          wildland fire safety
    The complexity of the wildland fire management environment places 
many expectations upon our wildland firefighters. Above all else, human 
safety is our first priority. The Forest Service has adopted a 
foundational doctrine--principles guiding operations of fire 
suppression activities and actions. Currently, the Forest Service and 
the DOI are reviewing guidance for dealing with the parts of fire 
suppression that rely on interpretation, judgment, and agility.
    DOI agencies and the Forest Service continue to require annual fire 
line safety refresher courses for all firefighting personnel. 
Additionally, the ``6 Minutes for Safety,'' an interagency safety 
initiative, is issued daily during fire season and alerts firefighters 
to high-risk situations. It is distributed throughout the fire 
community.
    Within the Incident Command System, the agency is reevaluating 
training and soliciting support from other wildland fire agencies to 
streamline training through a competency based system. This will 
provide the knowledge and skills necessary to continue to build 
capacity quickly while upholding a strong standard of accountability. 
Over the past few years the wildland fire agencies have redirected the 
focus of training to provide a series of fire leadership courses which 
has been incorporated in the standard training curriculum, as well as 
long-range development and planning for fire personnel within the 
agency.
 mitigating wildland fire risk to communities and the impacts of fire 
                           on the environment
    We have dangerous fire and fuels conditions in areas in the United 
States and the situation is becoming increasingly complex. However, we 
now treat more fuels than ever, and we collaborate with our local, 
state and tribal partners more than ever before. Our focused effort to 
remove accumulation of hazardous fuels in our forests and grasslands is 
having a positive effect on the land and is helping to reduce wildland 
fire risk to communities.
    Some of our specific accomplishments in reducing hazardous fuels 
include:

  <bullet> Despite an unprecedented wildfire suppression workload, the 
        Forest Service and DOI improved fuel conditions and ecosystem 
        health on more than 4 million acres of land in 2006, of which 
        2.6 million acres were treated through hazardous fuels 
        reduction programs and 1.4 million acres of land restoration 
        accomplished through other land management activities.
  <bullet> The Federal land management agencies project that they will 
        have treated nearly 25 million acres from FY 2000 through 2007, 
        including approximately 20 million acres treated through the 
        hazardous fuels reduction programs and about 5 million acres of 
        landscape restoration accomplished through other land 
        management activities.
  <bullet> In 2006, the Administration treated many overstocked Federal 
        forests. Hazardous fuels treatments resulted in qualitative 
        improvements of at least 994,000 acres in fire regimes classes 
        1, 2, or 3 that moved to a better condition class. In addition, 
        the Administration has begun measuring the percentage of total 
        National Forest System land for which fire risk is reduced 
        through movement to a better condition. The Administration is 
        continuing to work on metrics for forest health changes that 
        will help demonstrate the outcomes of projects that remove 
        fuels.
  <bullet> USDA and DOI, in collaboration with our non-federal 
        partners, continue to increase the community protection 
        emphasis of the hazardous fuels program. Community Wildfire 
        Protection Plans are essential for localities to reduce risk 
        and set priorities. Over 1,100 CWPPs covering 3,000 communities 
        have been completed nationally and an additional 450 plans are 
        progressing toward completion.
  <bullet> The LANDFIRE project has now been completed for the western 
        third of the mainland United States. The data are being used in 
        setting hazardous fuel treatment priorities by local field 
        units and regionally, and are used in managing large, long 
        duration wildfires burning across landscapes. USDA and DOI are 
        also testing methods of modeling fire risk with LANDFIRE data 
        to help better inform hazardous fuel treatment prioritization.
  <bullet> USDA and DOI are developing methods for effectively 
        allocating fuels reduction funds and measuring the 
        effectiveness of those treatments in terms of community risk 
        reduction. The agencies will identify national priorities 
        within the fuels program and focus funding on those priorities, 
        develop more effective measures of risk reduction through the 
        introduction of systematic risk analysis tools for fire hazard 
        analysis and fuels treatment implementation, and strengthen the 
        project criteria for WUI fuels treatments.
  <bullet> The ``Implementation Plan'' of the ``10 Year Comprehensive 
        Strategy'' was updated and released in December of 2006. The 
        goals and guiding principles from the 2001 document are 
        constant, but performance measures and implementation tasks 
        have been updated to reflect the progress made toward National 
        Fire Plan goals in the past five years and build upon our 
        success.

    Collaboration among communities and local Forest Service and DOI 
agencies' offices has resulted in highly effective and successful 
hazardous fuels reduction projects. One example is the New Harmony 
(Utah) Community Fire Plan that called for coordinated treatments on 
forested lands managed by the State of Utah, the Bureau of Land 
Management, Dixie National Forest and individual property owners. 
Between 2002 and 2004 the agencies and landowners completed fuel 
treatments that reduced fire intensity in the treated areas helping 
fire fighters to more safely protect the community during the 2005 Blue 
Spring Fire. In another example, the use of Healthy Forests Restoration 
Act (HFRA) authorities enabled federal agencies and local communities 
to quickly begin clean-up and fuels reduction in the wake of hurricanes 
that devastated Gulf Coast communities and surrounding forests in 2005. 
The Forest Service and DOI worked closely, using HFRA authorities, to 
facilitate the National Forests of Mississippi to successfully remove 
over 1.3 million tons of hazardous fuel from over 100,000 acres, 
salvaging over 240 million board feet of timber. Nearly 1000 miles of 
fuel breaks were constructed and another 500 miles will be completed 
this year to protect homes in the WUI.
    In this challenging fire season, citizens who live or vacation in 
fire-prone areas must take personal responsibility to protect their 
individual homes. Valuable information about how to increase their 
safety and protect their homes and property is available through the 
FIREWISE program. Homeowners can learn how to protect their homes with 
a survivable, cleared space and how to build their houses and landscape 
their yard with fire resistant materials. Information about the 
FIREWISE program can be found at www.firewise.org, sponsored by a 
consortium of wildland fire agencies that includes the Forest Service, 
the Department of the Interior, the National Fire Protection 
Association, and the National Association of State Foresters.
    The agencies are working to improve procedures for allocating 
hazardous fuels reduction funds by assessing the risks from wildland 
fires and determining the benefits of fuels treatment and restoration 
projects by priority. By using tools such as the Landfire Rapid 
Assessment, the Forest Service will address recommendations contained 
in relevant Government Accountability Office and Office of Inspector 
General to ensure that the most important and highest priority projects 
are funded first. The Forest Service will also undertake other such 
actions as necessary to implement the desired outcomes of this plan.
              managing the cost of fighting wildland fire
    Suppression costs have escalated in recent years, as wildfire 
seasons have generally lasted longer and the acreage figures have 
grown. The external factors noted earlier in this testimony influence 
the number and severity of incidents. While safety is our primary 
concern, our Departments do share concerns about the cost of fires and 
are committed to doing all we can to contain these costs.
    Over the last several years, various studies and assessments 
dedicated to fire suppression costs have been conducted by the National 
Academy of Public Administration, the Wildland Fire Leadership Council, 
the Brookings Institution, and the Government Accountability Office 
(GAO), including the report they are releasing today. As a result of 
the reviews, more than 300 recommendations have been documented to 
suggest approaches to trim the costs of wildland fire suppression. The 
agencies have taken these reviews seriously, and the overall awareness 
and personal responsibility for cost-containment among the federal fire 
agencies has never been more acute.
    In 2006, TriData, a Division of System Planning Corporation, under 
contract with the Forest Service, completed a review and analysis of 22 
past cost containment reports and made recommendations regarding those 
which would yield the greatest savings. The Tridata report determined 
there were 203 unique recommendations directed at improving wildfire 
suppression cost containment. Of those, the report identified 71 
recommendations that represented potentially high to extremely high 
cost savings if implemented. As of August 2006, we have taken or are in 
the process of taking action on 57 of these recommendations. We have 
not implemented corrective actions on the remaining recommendations for 
various reasons, including that the recommendation involves actions 
beyond agency authority, the action must be deferred due to pending 
court decisions, or that recommendations were directed at isolated 
events. Both the Forest Service and DOI are working on a comprehensive 
report on recommendations for large fire cost reviews. We expect that 
report to be available later this year.
Management Efficiencies
    On January 30, 2007 we testified before this Committee on a set of 
``management efficiencies.''* These cost control measures focus on 
leadership, operations, aviation and general management practices. Both 
agencies are moving forward to implement management efficiencies. As we 
stated then, some of these measures will be implemented in 2007, while 
others will be implemented over the long-term. An update on the key 
items reported in January includes:
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
            1. Policy Transition to Risk-Informed Management
    Appropriate Management Response (AMR) is an important approach for 
agencies to use to manage wildland fire. This approach provides a risk 
informed, performance-based system for fire protection by managing 
wildland fire in relationship to the risk that the incident poses. If a 
wildland fire has potential benefits to natural resources and poses a 
relatively low risk to impact other valued assets, the fire would 
receive a lower intensity suppression effort. Conversely, if a fire 
incident is determined to pose high risk to property or community, high 
suppression efforts would be applied. The use of this approach has 
grown over the last several years and we expect to continue expansion 
of this approach in the 2007 fire season. The Forest Service developed 
a draft guidebook that presents a coherent strategy to implement this 
approach. DOI has reviewed this guidebook, and will work with the 
Forest Service to ensure that the final product recognizes there are 
multiple strategies for wildland fire fighting, ranging from monitoring 
to full suppression, that can be used on a single fire depending on 
factors such as fire management and land-use plans in place, values at 
risk, cost-containment efforts, and resources available.
            2. Forest Service Chief's Principal Representative (CPR)
    The Chief's Principal Representative will provide risk sharing and 
decision support for Regional Foresters on large fires expected to 
exceed $10 million in cost. The Chief's Principal Representative will 
bring a national perspective when conferring with regional line 
officers. Regional Foresters will notify the chair of an inter-deputy 
group, a decision-making group that includes the Deputy Chief for State 
& Private Forestry (chair), Deputy Chief for National Forest System, 
the Chief Financial Officer, the Director of Budget, and the Director 
of Fire and Aviation Management, when the cost for an individual large 
fire is expected to exceed $10 million. The inter-deputy fire group 
will coordinate the appointment and preparation of the Chief's 
Principal Representative and support group. The Chief's Principal 
Representative will report to the chair of the inter-deputy group.
            3. Line Officer Certification
    All line officers will meet enhanced qualifications prior to being 
designated as the responsible official for an incident. The 
certification process has been developed and is designed to improve 
decision-making and risk management on large fires. Certification will 
be at three levels--Working; Journeyman; and Expert. In addition, a 
mentoring network has been established of experienced line officers to 
provide training and share experience to enhance performance and 
skills.
            4. National Shared Resources
    National resources such as smoke jumpers, hot shot crews, 
helicopters and heavy airtankers are now all being treated as national 
agency assets, are managed in a centralized fashion and are moved to 
areas and incidents based on Predictive Services and Planning Levels. 
The goals are to enhance responsiveness of the assignment of resources 
and to eliminate concentration of resources in a geographic area.
            5. Aviation Resource Cost Management
    A full-time National helicopter coordinator is in place to provide, 
in an interagency capacity during fire season, national oversight for 
the assignment and positioning of helicopters. Helicopter management is 
now centralized as a national resource. The Forest Service has shifted 
to more ``exclusive use'' versus ``call when needed'' contracts for 
helicopters. This will increase preparedness costs initially, but is 
expected to greatly reduce large fire suppression costs with potential 
savings of tens of millions of dollars per year. The agencies are 
pursuing longer term aviation contracts for all aviation resources with 
increased performance-based contracting. DOI also is pursuing 
strategies to reduce its aviation costs.
            6. Severity Authorization Limitations
    Efforts will be made to maintain our initial attack success while 
reducing the dependence on severity funding. The Forest Service has 
placed a cap ($35 million) and an individual limit on each Region for 
severity, and Interior has capped severity funding at $32 million. 
However, funding fire fighters is the first priority. The Forest 
Service and DOI agencies will continue to submit a coordinated severity 
request so as to not duplicate effort or expense.
            7. Fire Suppression Decision Support
    We are committed to continue the investment and expansion of system 
technologies such as Wildland Fire Decision Support System (WFDSS) and 
use of the Stratified Cost Index (SCI) to improve strategy selection in 
wildfire suppression. The SCI determines average suppression costs 
based on fire characteristics, such as fuel types, fire intensity, 
topography, region, and values at risk. In a given year, actual 
expenditures on each large fire (more than 300 acres) are compared to 
their anticipated costs as calculated by the SCI based on factors such 
as size, fuel type, or proximity to towns. Fires with high or low 
expenditures compared to the average suppression cost for fires with 
similar characteristics are then identified for review. Historical data 
were analyzed to determine the average cost/acre and cost/fire for 
categories of similar fires and an acceptable range of costs around the 
average. The actual expenditures are compared to their ``expected'' 
costs as calculated by the SCI. This metric is being applied this 
season and will be used in fire reviews, evaluations, planning and 
reporting.
    The Departments are taking the issue of large fire cost containment 
very seriously and are actively moving forward to implement these 
important changes. The comprehensive list of management efficiencies 
has been developed to guide action over the short, intermediate and 
long-term and to produce results. The Forest Service and DOI are 
working together in collaboration and our staff is committed to action.
Collaborative Efforts to Meet Community Expectations
    Both the Forest Service and the Department of the Interior realize 
the importance of collaboration with State and local fire managers. One 
recent example of such a successful collaboration is the approach used 
at the wildfire on the Okefenokee National Wildlife Refuge, which has 
burned over much of this 400,000-acre swamp. These fires are being 
driven by an unprecedented regional drought.
    Fire is a natural component of the Okefenokee ecosystem which for 
thousands of years has shaped the vegetation communities here. Over 300 
fires have been recorded since 1937, burning thousands of acres.
    The Refuge and the Greater Okefenokee Landowners Association (GOAL) 
have worked closely in recent years to improve coordination of wildfire 
response. These ongoing efforts include sharing of firefighting 
resources and prescribed burning to reduce hazardous fuels.
    Fire managers are coordinating suppression efforts with the Georgia 
Forestry Commission, Florida Division of Forestry, U.S. Forest Service 
and Greater Okefenokee Association of Landowners (GOAL) representing 
industry and private landowners. These partners support the chosen 
containment strategy of confining the fire to the swamp as the 
appropriate management response.
                             recent studies
Government Accountability Office Draft Report: Wildland Fire 
        Management: Lack of Clear Goals and Strategy Hinders Federal 
        Agencies' Efforts to Contain the Costs of Fighting Fires
    In May 2007, the Government Accountability Office (GAO) issued a 
draft report entitled, ``Wildland Fire Management: Lack of Clear Goals 
and Strategy Hinders Federal Agencies' Efforts to Contain the Costs of 
Fighting Fires.'' The findings indicated the agencies had not clearly 
defined objectives and policies as a means for reducing the costs of 
fighting wildland fires. In general, the agencies disagree with the 
characterization of many of the findings in the report and believe that 
GAO has not accurately portrayed some of the significant actions the 
agencies have taken to address large fire suppression costs and 
management efficiencies.
    In that response, we articulate our views to the opinions expressed 
by GAO and provide facts to clarify some areas where the report could 
be improved (our response is attached). As we continue to strive 
aggressively to contain the costs of wildland fire suppression, our 
primary goal will continue to be the protection of life, property and 
resources.
    We share the GAO's interest in increasing accountability for cost 
containment and have taken many steps forward. We are hopeful that GAO 
and this Committee are able to ascertain from the actions that have 
been taken and planned, that the agencies indeed have established 
strategies, goals and objectives for reducing costs of large wildfire 
suppression and improving hazardous fuels reduction. We believe that 
the 10-Year Strategy Implementation Plan, Office of Management and 
Budget PART Improvement Plan, Forest Service Strategic Plan, and new 
DOI Strategic Plan, along with the Management Efficiencies initiatives 
underway, demonstrate a commitment to constantly improve performance, 
efficiency and accountability.
Secretary of Agriculture's Independent Panel--Brookings Institution
    On May 22, 2007 the Brookings Institution released a report 
``Towards a Collaborative Cost Management Strategy--2006 U.S. Forest 
Service Large Wildfire Cost Review Recommendations.'' This report is by 
an independent panel that assessed agency performance on 20 large fires 
that burned 1.1 million acres across 17 national forests, five regions 
and six states that exceeded $10 million in cost. The Brookings 
Institution's Project Director acted as facilitator of the process and 
author of the report. The purpose was to determine if the agency 
exercised fiscal due diligence in managing specific incident 
suppression activities. The panel found that the Forest Service 
exercised appropriate and adequate fiscal diligence in suppressing 
wildfires in the record breaking 2006 season. The panel report also 
makes a series of recommendations for improvement that the agency will 
begin to act on immediately. The report is available at the USDA 
website http://www.usda.gov/wps/portal.*
---------------------------------------------------------------------------
    * Document has also been retained in committee files.
---------------------------------------------------------------------------
                               conclusion
    In conclusion, Mr. Chairman and members of the Committee, we are 
prepared for the 2007 fire season. Where local areas experience severe 
fire risk, firefighters, equipment and teams will be assigned. We have 
a long-term and complex fuels and fire situation that will continue to 
need to be addressed by communities, tribes, states, and federal 
agencies. We appreciate your continued support and work as we move 
forward on these challenges. We are happy to answer any questions you 
might have.
                               Attachment
                                 Department of Agriculture,
                                Department of the Interior,
                                      Washington, DC, May 24, 2007.
Robin M. Nazzaro,
Director, Natural Resources and Environment, Government Accountability 
        Office, 441 G Street, N.W., Washington, DC.
    Dear Ms. Nazzaro: We appreciate the opportunity to review and 
comment on the draft Government Accountability Office (GAO) report, 
GAO-07-655, ``Wildland Fire Management: Lack of Clear Goals and 
Strategy Hinders Federal Agencies' Efforts to Contain the Costs of 
Fighting Fires.'' As we discussed with you recently, the fire community 
has found GAO reports and recommendations to be constructive in 
addressing issues related to the fire program. However, the agencies 
generally disagree with the characterization of many of the findings in 
this report and believe that GAO has not accurately portrayed some of 
the significant actions the agencies have taken to address large fire 
suppression costs and management efficiencies.
    Our goal continues to be the protection of life; property and 
resources. While accomplishing our goal of protection, we continue to 
strive aggressively to contain the costs of fire suppression.
    GAO concludes the steps the Forest Service and Interior agencies 
have taken to contain costs are unknown because these steps are not 
complete, and recommends we establish clearly defined goals and 
objectives, a strategy to achieve them, and corresponding performance 
measures. We do have objectives and clearly defined goals that make up 
our strategy for better managing large fire suppression costs. The 
Federal Wildland Fire Policy, the Healthy Forests Initiative, Healthy 
Forests Restoration Act, and the 10-Year Strategy Implementation Plan 
provide overarching interagency goals and objectives.
    When we discussed our concerns with GAO regarding this report, we 
provided numerous, important clarifying comments on the draft. We did 
not see significant acknowledgment of these clarifications in the 
subsequent draft, and are concerned that important miscommunications 
remain. GAO presents an incomplete view on four key areas we discuss 
below that we believe will help us better manage and contain costs: 
Appropriate Management Response (AMR), Fire Program Analysis (WA), 
LANDFIRE and the stratified cost index (SCI).
    GAO failed to recognize, and include in their report, a major 
component of our cost containment management strategy which we believe 
to be a significant improvement over past suppression strategies. AMR 
moves the agencies from aggressively attacking wildfires of all sizes 
to a more risk-informed, performance-based strategy that will reduce 
costs by increasing flexibility in wildland firefighting decisions. The 
transition to AMR has been underway for some time, and improvements 
have been made in using Wildland Fire Use as a tool for achieving 
desirable environmental outcomes with reasonable cost expenditures. 
Further use of AMR is expected in 2007 and 2008 as the agencies 
aggressively apply AMR more widely.
    GAO takes exception to recent FPA design modifications that they 
say may compromise the agencies' ability to fully achieve key goals. 
GAO goes on to say it is unclear whether this method will identify the 
most cost-effective allocation of resources, and that it is also 
unclear how budgets for local units will be meaningfully aggregated on 
a national basis. We strongly disagree. Additional information was 
supplied by the FPA project manager, although-it was not incorporated 
or acknowledged. To restate:

          In December 2006, the Wildland Fire Leadership Council called 
        for development of a revised analytical system for FPA. The 
        revised system will be used to systematically evaluate 
        alternative investment strategies and identify options that 
        best reduce wildland fire losses, improve ecological 
        conditions, and minimize cost. The system is designed to 
        explicitly address uncertainty and risk in predicting future 
        wildland fires. A combination of simulation models, GIS 
        analyses, and sophisticated decision analysis tools array 
        alternatives using quantitative performance measures that 
        readily display inherent risks and trade-offs at both FPU and 
        national levels. This approach provides a more robust basis for 
        modeling real-world complexities than the linear optimization 
        approach used in Phase 1, while maintaining the ability to 
        compare the performance and effectiveness of alternative 
        funding decisions.

    GAO views LANDFIRE as an unproven work in progress and they 
question our ability to complete and maintain LANDFIRE but offer no 
explanation. We strongly disagree with this characterization. LANDFIRE 
is an important tool, to prioritize our fuels work through geospatial 
data and modeling that will help identify fuel accumulations and fire 
hazards across the nation, set nationwide priorities for fuel reduction 
projects, and assist in identifying the appropriate response when 
wildland fires do occur. Two of the four milestones are complete, the 
third milestone is 1/3 complete and work has begun on the fourth 
milestone. In addition, it was utilized during FY 2006 on more than 60 
wildland fire incidents to assist in maximizing firefighting safety, 
pre-position resources and evaluate wildland fire behavior under a 
variety of fire weather conditions. GAO also questions our ability to 
maintain the system but then acknowledges that the agencies are 
submitting a maintenance plan to the Wildland Fire Leadership Council 
in June 2007. Development of this plan has been underway for some time 
now and clearly indicates that we have planned for the necessity of 
routinely updating the data to reflect changing landscape conditions.
    Regarding the stratified cost index performance measure, GAO 
expresses concerns about cost data for fire complexes, the ability to 
precisely estimate suppression costs and that, to date, the data are 
based solely on Forest Service managed fires. The report also says that 
the agencies have not identified the goals we are trying to achieve 
with this measure. The agencies have openly, freely and frequently 
acknowledged that the SCI will continue to be refined and improved in 
the coming years as data is added to the model. However, in its current 
form; the SCI still provides very useful information that was not 
previously available and assists field managers in better managing 
their large fire suppression costs. Furthermore, the SCI is not meant, 
nor was it ever intended to, ``precisely'' estimate suppression 
expenditures. Instead, it was developed to provide managers with an 
acceptable expenditure range based on historic data. With the multitude 
of unknowns that occur daily on every large fire suppression incident, 
it is naive to believe that anything has the ability to ``precisely'' 
estimate expenditures.
    We disagree with GAO's conclusion that the agencies have not 
identified goals for this measure. SCI was adopted under Goal 1 of the 
10-Year Strategy Implementation Plan which is to improve fire 
prevention and suppression. In addition, specific targets have already 
been set for the Forest Service. We first stated our goals for future 
years for this measure in the OMB PART reassessment in July 2006. We 
established the baseline in 2005 and subsequently established future 
year targets. These targets are also in the revised Forest Service 
Strategic Plan. GAO also says Interior has not adopted any performance 
measures related to containing wildland fire costs in its strategic 
plan and that it will be several years at the earliest before enough 
data have been collected for DOI for the SCI model to be useful. This 
is inaccurate. DOI adopted the stratified cost index measure in its new 
Strategic Plan (2008-2012) and expects to have the research results 
this summer. We expect 2006 data to be reported as baseline data and 
plan to report on the SCI in FY 2007.
    Finally, GAO says that the agencies need to establish a framework 
to ensure that officials are held accountable for achieving cost 
containment goals and objectives. We have established a framework to 
hold officials accountable for achieving cost containment goals. The 
Forest Service has already adopted significant elements this year, and 
Interior is also addressing these on an interagency basis as 
appropriate. These include a line officer certification process, a 
competency in their annual performance appraisals, and oversight on 
significant incidents by a ``Chiefs Principle Representative''. Both 
agencies continue interagency large fire cost reviews that require 
regions to respond to and implement recommendations made by the review 
teams.
    If you have any additional questions or concerns, please contact 
Sandy T. Coleman, Forest Service Assistant Director for GAO/DIG Audit 
Liaison staff or Deborah Williams, DOI/GAO Liaison.

                                         Abigail R. Kimbel,
                  Chief, Forest Service, Department of Agriculture.
                                            James E. Cason,
            Associate Deputy Secretary, Department of the Interior.

    The Chairman. Thank you very much.
    Under Secretary Rey, go right ahead.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
         AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you.
    While Mr. Allred has talked about the 2006 season, the 
outlook for the 2007 season and our preparedness assets, I'm 
going to talk a little bit about our efforts in the fuels 
treatment area, and in cost containment of fire expenses.
    Today, we treat more fuels than ever, and we collaborate 
with our local, State and tribal partners now more than ever. 
Our focused efforts to remove accumulation of hazardous fuels 
in our forests and grasslands is having a positive effect on 
the land, and is helping to reduce wildland fire risk to 
communities.
    The Federal Land Management Agencies project that they will 
have treated nearly 25 million acres of land, from the period 
of fiscal year 2001 through the end of this fiscal year, 
including approximately 20 million acres treated through the 
hazardous fuels reductions programs, and about 5 million acres 
of landscape restoration, accomplished through other land 
management activities.
    The Federal land managing agencies, in cooperation with our 
non-Federal partners, continue to increase the community 
protection emphasis of the hazardous fuels program. Community 
wildfire protection plans are essential for localities to 
reduce risk and set priorities. Over 1,100 plans, covering 
3,000 communities have been completed nationally. An additional 
450 plans are progressing toward completion today.
    Also, the implementation plan of the 10-year comprehensive 
strategy, developed with the Western Governor's Association was 
updated and released in December 2006. The goals and guiding 
principles from the 2001 document are constant, but performance 
measures and implementation tasks have been updated to reflect 
the progress made toward National Fire Plan goals over the past 
5 years, and to build on those successes.
    Now, with regard to cost containment, suppression costs 
have escalated in recent years, as wildfire seasons have 
generally lasted longer, and the acreage figures have grown. 
Mr. Allred's spoken to some of the causes of that.
    Over the last several years, various studies and 
assessments dedicated to fire suppression costs have been 
conducted by a variety of institutions, including the National 
Academy of Public Administration, the Wildland Fire Leadership 
Council, the Brookings Institution, and the Government 
Accountability Office, including the report that they are 
releasing today.
    As a result of these reviews, more than 300 recommendations 
have been documented to suggest approaches to trim costs of 
wildland fire suppression. The agencies have taken these 
reviews seriously, and the overall awareness and personal 
responsibility for cost containment among Federal firefighting 
agencies has never been more acute.
    On January 30 of this year, in the aforementioned hearing, 
we testified before this committee on a set of management 
efficiencies. These cost control measures focus on leadership, 
operations, aviation, and general management practices. An 
update of our progress on the key items reported in January is 
included in my statement for the record.
    In May 2007, the Government Accountability Office issued a 
draft report entitled, Wildland Fire Management, a Lack of 
Clear Goals and Strategy Hinders Federal Agencies' Efforts to 
Contain the Costs of Fighting Fires. This will be the report 
we'll be discussing at length today.
    The findings in this report indicated that agencies had not 
clearly defined objectives and policies as a means for reducing 
costs of wildland firefighting. In general, the agencies 
disagree with the characterization of many of the findings in 
the report, and believe that further discussion with GAO is 
necessary to more accurately portray some of the significant 
actions the agencies have taken to address large fire 
suppression costs, and management efficiencies.
    I want to assure the committee that we share GAO's interest 
in increasing accountability for cost containment, and have 
taken many step forwards. Indeed, since January 2003, GAO has 
issued 10 separate reports on fuels treatment, firefighting, or 
cost containment. Those 10 reports have spawned 18 groups of 
recommendations. Of those 18 groups of recommendations, the 
Federal Land Managing Agencies have completed actions in 
response to them on 16 of the groups. One of the groups still 
has actions underway, and one remains unaddressed because of a 
fundamental disagreement about the recommendation.
    I'll submit a summary of those recommendations for the 
record of this hearing.
    Additionally, on May 22, 2007, the Brookings Institution 
released a report entitled, Toward a Collaborative Cost 
Management Strategy, 2006 U.S. Forest Service Large Wildfire 
Cost Review Recommendations. This report was developed by an 
independent panel that assessed agency performance on 20 large 
fires during 2006 that burned 1.1 million acres across 17 
National Forests.
    That report was required by Appropriations Committee 
language enacted 3 years ago, which established a 
responsibility on the part of the Forest Service to have an 
independent review of every large fire that exceeded $10 
million in costs, to assess whether appropriate cost 
containment measures were undertaken. This would be the third 
such report.
    The Brookings Panel of independent experts--including one 
GAO analyst--concluded that the Forest Service exercised 
appropriate and adequate fiscal diligence in suppressing 
wildfires during the record-breaking 2006 wildfire season on 
each of the 20 large fires studied in the report.
    With that, Mr. Chairman, we would be happy to respond to 
your questions, and when it's Senator Domenici's round, I'd be 
happy to talk about Cloudcroft.
    The Chairman. Thank you very much.
    Ms. Nazzaro, go right ahead.

    STATEMENT OF ROBIN NAZZARO, NATIONAL RESOURCES AND THE 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you Mr. Chairman and members of the 
committee.
    I'm pleased to be here today to discuss Federal agencies' 
efforts to contain the rising costs of preparing for, and 
responding to, wildland fires. Over the past two decades, the 
number of acres burned by wildland fires has surged, often 
threatening human lives, property, and ecosystems. The cost of 
responding to the wildland fires has also grown. Mr. Allred 
mentioned a number of reasons for these increased costs and 
increased fires.
    In light of the Federal deficit, and the long-term fiscal 
challenges facing the Nation, attention has increasingly 
focused on ways to contain the growing expenditures, and to 
ensure that the Agency's wildland fire actions are appropriate 
and carried out in a cost-effective and efficient manner.
    My testimony today is based on our report, released today, 
that discusses key steps the Forest Service and Interior 
agencies have taken to address key operational areas that could 
help to contain the costs of preparing for and responding to 
wildland fires and improve the management of their cost 
containment efforts.
    In summary, the agencies have initiated a number of steps 
to address key operational areas that past studies identified 
as needing improvement to help them contain wildland fire 
costs, but the effects on containing costs are unknown, in part 
because many of these steps are not yet complete.
    For example, Federal firefighting agencies are developing a 
system to help them better identify and set priorities for 
lands needing treatment to reduce fuels, but they have yet to 
decide how they will keep the data in the system current.
    Second, Federal agencies have taken some steps to improve 
how they acquire and use personnel, equipment and other 
firefighting assets, such as implementing a computerized system 
to more efficiently dispatch and track available firefighting 
assets, but they have not yet completed the more fundamental 
step of determining the appropriate type and quantity of 
firefighting assets needed for the fire season.
    Third, the agencies have clarified certain policies and are 
improving analytical tools that assist officials in identifying 
and implementing an appropriate response to a given fire, but 
several other policies limit their use of less aggressive 
firefighting strategies which typically cost less.
    Fourth, the agencies are working with non-Federal entities 
and have recently taken steps to clarify their guidance to 
better ensure that firefighting costs are shared consistently 
for fires that threaten both Federal and non-Federal lands and 
resources, but it is unclear how the agencies will ensure that 
this guidance is followed in the field.
    The agencies have also taken steps to address previously 
identified weaknesses in their management of cost containment 
efforts, but they have not clearly defined their cost-
containment goals and objectives, nor developed a strategy for 
achieving them, performance measures to track their progress, 
or a framework for holding the appropriate agency officials 
accountable--all steps that we believe are fundamental to sound 
program management.
    Although the agencies have established a broad goal of 
suppressing wildland fires at minimum cost, considering 
firefighter and public safety and resources and structures to 
be protected, they have no defined criteria by which to weigh 
the relative importance of these often-competing priorities. As 
a result, officials in the field lack a clear understanding of 
the relative importance the agency's leadership places on 
containing costs, and are likely to select firefighting 
strategies without due consideration of the costs of 
suppression.
    The agencies have also yet to develop a vision of how the 
various cost containment steps they are taking relative to one 
another or to determine the extent to which these steps will be 
effective. They are working to develop a better cost-
containment performance measure, but it may take a number of 
years to fully refine.
    Finally, the agencies have taken, or are beginning to take, 
steps to improve their oversight, and increase accountability, 
such as requiring agency officials to evaluate firefighting 
teams on how well they contained costs, although the extent to 
which these steps will assist the agencies in containing costs 
is unknown.
    We recommend in our report that the Secretaries of 
Agriculture and the Interior take several steps to improve the 
management of their cost containment efforts. Because of the 
importance of these actions and the continuing concern about 
the agencies' response to the increasing cost to wildland 
fires, and so that the agencies can use the results of these 
actions to prepare for the 2008 fire season, the agencies 
should provide the Congress with this information, no later 
than November 2007.
    Mr. Chairman, this concludes my prepared statement. I would 
be pleased to answer any questions that you or other members of 
the Committee may have at this time.
    [The prepared statement of Ms. Nazzaro follows:]
    Statement of Robin M. Nazzaro, Director, Natural Resources and 
                              Environment
wildland fire: management improvements could enhance federal agencies' 
             efforts to contain the costs of fighting fires
                         why gao did this study
    Annual appropriations to prepare for and respond to wildland fires 
have increased substantially over the past decade, in recent years 
totaling about $3 billion. The Forest Service within the Department of 
Agriculture and four agencies within the Department of the Interior 
(Interior) are responsible for responding to wildland fires on federal 
lands. GAO determined what steps federal agencies have taken to (1) 
address key operational areas that could help contain the costs of 
preparing for and responding to wildland fires and (2) improve their 
management of their cost-containment efforts. This testimony is based 
on GAO's June 2007 report, Wildland Fire Management: Lack of Clear 
Goals or a Strategy Hinders Federal Agencies' Efforts to Contain the 
Costs of Fighting Fires (GAO-07-655).
                          what gao recommends
    In its report, GAO recommended that the Secretaries of Agriculture 
and the Interior take several steps to improve their management of 
cost-containment efforts in preparation for the 2008 fire season. The 
Forest Service and Interior generally disagreed with the report's 
findings, stating that GAO did not accurately portray some of the 
agencies' actions to contain wildland fire costs; they neither agreed 
nor disagreed with the report's recommendations.
                             what gao found
    The Forest Service and Interior agencies have initiated a number of 
steps to address key operational areas previously identified as needing 
improvement to help federal agencies contain wildland fire costs, but 
the effects on containing costs are unknown, in part because many of 
these steps are not yet complete. First, federal firefighting agencies 
are developing a system to help them better identify and set priorities 
for lands needing treatment to reduce fuels, but they have yet to 
decide how they will keep data in the system current. Second, federal 
agencies have taken some steps to improve how they acquire and use 
personnel, equipment, and other firefighting assets--such as 
implementing a computerized system to more efficiently dispatch and 
track available firefighting assets--but have not yet completed the 
more fundamental step of determining the appropriate type and quantity 
of firefighting assets needed for the fire season. Third, the agencies 
have clarified certain policies and are improving analytical tools that 
assist officials in identifying and implementing an appropriate 
response to a given fire, but several other policies limit the 
agencies' use of less aggressive firefighting strategies, which 
typically cost less. Fourth, federal agencies, working with nonfederal 
entities, have recently taken steps to clarify guidance to better 
ensure that firefighting costs are shared consistently for fires that 
threaten both federal and nonfederal lands and resources, but it is 
unclear how the agencies will ensure that this guidance is followed.
    The agencies have also taken steps to address previously identified 
weaknesses in their management of cost-containment efforts, but they 
have neither clearly defined their cost-containment goals and 
objectives nor developed a strategy for achieving them--steps that are 
fundamental to sound program management. Although the agencies have 
established a broad goal of suppressing wildland fires at minimum 
cost--considering firefighter and public safety and resources and 
structures to be protected--they have no defined criteria by which to 
weigh the relative importance of these often-competing priorities. As a 
result, according to agency officials and reports, officials in the 
field lack a clear understanding of the relative importance the 
agencies' leadership places on containing costs and, therefore, are 
likely to select firefighting strategies without due consideration of 
the costs of suppression. The agencies have also yet to develop a 
vision of how the various cost-containment steps they are taking relate 
to one another or to determine the extent to which these steps will be 
effective. The agencies are working to develop a better cost-
containment performance measure, but the measure may take a number of 
years to fully refine. Finally, the agencies have taken, or are 
beginning to take, steps to improve their oversight and increase 
accountability--such as requiring agency officials to evaluate 
firefighting teams according to how well they contained costs--although 
the extent to which these steps will assist the agencies in containing 
costs is unknown.
    Mr. Chairman and Members of the Committee:
    I am pleased to be here today to discuss federal firefighting 
agencies' efforts to contain the costs of preparing for and responding 
to wildland fires--costs that have increased substantially over the 
past decade. Wildland fire appropriations to prepare for and respond to 
wildland fires, including appropriations for reducing fuels, have 
increased from an average of $1.1 billion annually from fiscal years 
1996 through 2000 to an average of more than $2.9 billion annually from 
fiscal years 2001 through 2005; adjusted for inflation, these 
appropriations increased from $1.3 billion to $3.1 billion.\1\ 
Accumulations of fuels, due in part to past suppression policies; 
severe drought and weather in some areas of the country; and continued 
development in or near wildlands--an area commonly known as the 
wildland-urban interface--have contributed to increased costs. Five 
federal land management agencies--the Forest Service within the 
Department of Agriculture (Agriculture) and the Bureau of Land 
Management, Bureau of Indian Affairs, National Park Service, and Fish 
and Wildlife Service within the Department of the Interior (Interior)--
are responsible for managing wildland fires on federal lands. Congress, 
the Office of Management and Budget, federal agency officials, and 
others have expressed concerns about the mounting federal wildland fire 
expenditures. These concerns have led federal agencies (including the 
Forest Service, Interior, the Agriculture Office of Inspector General, 
and GAO) and others to conduct numerous reviews of the federal wildland 
fire program.
---------------------------------------------------------------------------
    \1\ Federal expenditures are a more direct measure of the federal 
government's investment in wildland fire activities, but the Forest 
Service and Interior agencies were unable to provide us with consistent 
data on these expenditures for the years we reviewed. As a result, we 
are instead reporting appropriations data. We adjusted the 
appropriations dollars for inflation, using the chain-weighted gross 
domestic product price index with fiscal year 2005 as the base year.
---------------------------------------------------------------------------
    My testimony is based on our report, released today*, that 
discusses steps the Forest Service and Interior agencies have taken to 
(1) address key operational areas that could help contain the costs of 
preparing for and responding to wildland fires and (2) improve their 
management of their cost-containment efforts.\2\ I presented the 
preliminary results of our work before this Committee in January 
2007.\3\
---------------------------------------------------------------------------
    * Documents have been retained in committee files.
    \2\ GAO, Wildland Fire Management: Lack of Clear Goals and a 
Strategy Hinders Federal Agencies' Efforts to Contain the Costs of 
Fighting Fires, GAO-07-655 (Washington, D.C.: June 1, 2007).
    \3\ GAO, Wildland Fire Management: Lack of a Cohesive Strategy 
Hinders Agencies' Cost-Containment Efforts, GAO-07-427T (Washington, 
D.C.: Jan. 30, 2007).
---------------------------------------------------------------------------
                                summary
    In summary, the Forest Service and Interior agencies have initiated 
a number of steps to address key operational areas that past studies 
identified as needing improvement to help federal agencies contain 
wildland fire costs, but the effects on containing costs are unknown, 
in part because many of these steps are not yet complete. For example,

  <bullet> Federal firefighting agencies are developing a system to 
        help them better identify and set priorities for lands needing 
        treatment to reduce fuels. The agencies are developing, but 
        have not yet finalized, a plan for keeping data in the system 
        current.
  <bullet> Federal agencies have also taken some steps to improve how 
        they acquire and use personnel, equipment, and other 
        firefighting assets, such as implementing a computerized system 
        to more efficiently dispatch and track available firefighting 
        assets. The agencies, however, have not completed the more 
        fundamental step of determining the appropriate type and 
        quantity of firefighting assets needed for the fire season. 
        Over the past several years, the agencies have been developing 
        a system for doing so, although we have concerns that recent 
        modifications to the system may not allow the agencies to fully 
        meet certain key goals.
  <bullet> The agencies have clarified certain policies and are 
        improving analytical tools that assist officials in identifying 
        and implementing an appropriate response to a given fire. Other 
        policies, however, limit the agencies' use of less aggressive 
        firefighting strategies, which typically cost less.
  <bullet> Federal agencies, working with nonfederal entities, have 
        recently taken steps to clarify guidance to better ensure that 
        firefighting costs are shared consistently for fires that 
        threaten both federal and nonfederal lands and resources, 
        although it is unclear how the agencies will provide oversight 
        to ensure that this guidance is followed in the field.

    Despite steps taken to strengthen the management of their cost-
containment efforts, the agencies have neither clearly defined their 
cost-containment goals and objectives nor developed a strategy for 
achieving them--steps that are fundamental to sound program management. 
Although the agencies have established a broad goal of suppressing 
wildland fires at minimum cost--considering firefighter and public 
safety, and resources and structures to be protected--they have no 
defined criteria by which to weigh the relative importance of these 
often-competing priorities. As a result, according to agency officials 
and reports, officials in the field lack a clear understanding of the 
relative importance the agencies' leadership places on containing costs 
and, therefore, are likely to select firefighting strategies without 
due consideration of the costs of suppression. The agencies have also 
yet to develop a vision of how the various cost-containment steps they 
are taking relate to one another or to determine the extent to which 
these steps will be effective. The agencies are working to develop a 
better cost-containment performance measure, but the measure may take a 
number of years to fully refine. Finally, the agencies have taken, or 
are beginning to take, steps to improve their oversight and increase 
accountability--such as requiring agency officials to evaluate 
firefighting teams on how well they contain costs--although the extent 
to which these steps will assist the agencies in containing costs is 
unknown.
    We recommended in our report that the Secretaries of Agriculture 
and the Interior take several steps to improve their management of 
their cost-containment efforts. The Forest Service and Interior 
generally disagreed with our findings, stating that we had not 
accurately portrayed some of the agencies' actions to contain costs; 
they neither agreed nor disagreed with our recommendations. We continue 
to believe that our recommendations, if effectively implemented, would 
help the agencies better manage their cost-containment efforts and 
improve their ability to contain wildland fire costs.
                               background
    Over the past decade, the number of acres burned annually by 
wildland fires in the United States has substantially increased. 
Federal appropriations to prepare for and respond to wildland fires, 
including appropriations for fuel treatments, have almost tripled. 
Increases in the size and severity of wildland fires, and in the cost 
of preparing for and responding to them, have led federal agencies to 
fundamentally reexamine their approach to wildland fire management. For 
decades, federal agencies aggressively suppressed wildland fires and 
were generally successful in decreasing the number of acres burned. In 
some parts of the country, however, rather than eliminating severe 
wildland fires, decades of suppression contributed to the disruption of 
ecological cycles and began to change the structure and composition of 
forests and rangelands, thereby making lands more susceptible to fire.
    Increasingly, the agencies have recognized the role that fire plays 
in many ecosystems and the role that it could play in the agencies' 
management of forests and watersheds. The agencies worked together to 
develop a federal wildland fire management policy in 1995, which for 
the first time formally recognized the essential role of fire in 
sustaining natural systems; this policy was subsequently reaffirmed and 
updated in 2001. The agencies, in conjunction with Congress, also began 
developing the National Fire Plan in 2000.\4\ To align their policies 
and to ensure a consistent and coordinated effort to implement the 
federal wildland fire policy and National Fire Plan, Agriculture and 
Interior established the Wildland Fire Leadership Council in 2002.\5\ 
In addition to noting the negative effects of past successes in 
suppressing wildland fires, the policy and plan also recognized that 
continued development in the wildland-urban interface has placed more 
structures at risk from wildland fire at the same time that it has 
increased the complexity and cost of wildland fire suppression. Forest 
Service and university researchers estimated in 2005 that about 44 
million homes in the lower 48 states are located in the wildland-urban 
interface.
---------------------------------------------------------------------------
    \4\ The National Fire Plan is a joint interagency effort to respond 
to wildland fires. Its core comprises several strategic documents, 
including (1) a September 2000 report from the Secretaries of 
Agriculture and the Interior to the President in response to the 
wildland fires of 2000, (2) congressional direction accompanying 
substantial new appropriations in fiscal year 2001, and (3) several 
approved and draft strategies to implement all or parts of the plan.
    \5\ The Wildland Fire Leadership Council is composed of senior 
Agriculture and Interior officials, including the Agriculture 
Undersecretary for Natural Resources and Environment; the Interior 
Assistant Secretary for Policy, Management, and Budget; the Interior 
Deputy Assistant Secretary for Business Management and Wildland Fire; 
and the heads of the five federal firefighting agencies. Other members 
include representatives of the Intertribal Timber Council, the National 
Association of State Foresters, and the Western Governors' Association.
---------------------------------------------------------------------------
    To help address these trends, current federal policy directs 
agencies to consider land management objectives--identified in land and 
fire management plans developed by each local unit, such as a national 
forest or a Bureau of Land Management district--and the structures and 
resources at risk when determining whether or how to suppress a 
wildland fire. When a fire starts, the land manager at the affected 
local unit is responsible for determining the strategy that will be 
used to respond to the fire. A wide spectrum of strategies is available 
to choose from, some of which can be significantly more costly than 
others. For example, the agencies may fight fires ignited close to 
communities or other high-value areas more aggressively than fires on 
remote lands or at sites where fire may provide ecological or fuel-
reduction benefits. In some cases, the agencies may simply monitor a 
fire, or take only limited suppression actions, to ensure that the fire 
continues to pose little threat to important resources, a practice 
known as ``wildland fire use.''
federal agencies are taking some steps to contain wildland fire costs, 
                        but results are unknown
    The Forest Service and Interior agencies have initiated a number of 
steps to address issues that we and others have identified as needing 
improvement to help federal agencies contain wildland fire costs, but 
the effects of these steps on containing costs are unknown, in part 
because many of the steps are not yet complete. Dozens of studies by 
federal agencies and other organizations examining federal agencies' 
management of wildland fire have repeatedly identified a number of 
similar issues needing improvement to help contain wildland fire costs. 
These issues generally fall into one of three operational areas--
reducing accumulated fuels, acquiring and using firefighting assets, 
and selecting firefighting strategies. Recent studies have also raised 
concerns about the framework used to share the cost of fighting fires 
between federal and nonfederal entities.
    First, federal firefighting agencies have made progress in 
developing a system to help them better identify and set priorities for 
lands needing treatment to reduce accumulated fuels. Many past studies 
have identified fuel reduction as important for containing wildland 
fire costs because accumulated fuels can contribute to more-severe and 
more costly fires. The agencies are developing a geospatial data and 
modeling system, called LANDFIRE, intended to produce consistent and 
comprehensive maps and data describing vegetation, wildland fuels, and 
fire regimes across the United States.\6\ The agencies will be able to 
use this information to help identify fuel accumulations and fire 
hazards across the nation, help set nationwide priorities for fuel-
reduction projects, and assist in determining an appropriate response 
when wildland fires do occur. According to Forest Service and Interior 
officials, the agencies completed mapping the western United States in 
April 2007; mapping of the eastern states is scheduled to be completed 
by 2008 and of Alaska and Hawaii by 2009. The agencies, however, have 
not yet finalized their plan for ensuring that collected data are 
routinely updated to reflect changes to fuels, including those from 
landscape-altering events, such as hurricanes, disease, or wildland 
fires themselves. Forest Service and Interior officials told us that 
they recognize the importance of ensuring that data are periodically 
updated and are developing a plan to operate and maintain the system, 
including determining how often data will be updated. The agencies 
expect to submit this plan to the Wildland Fire Leadership Council for 
approval in June 2007.
---------------------------------------------------------------------------
    \6\ A fire regime generally classifies the role that wildland fire 
plays in a particular ecosystem on the basis of certain 
characteristics, such as the average number of years between fires and 
the typical severity of fire under historic conditions.
---------------------------------------------------------------------------
    Second, the agencies have also taken some steps to improve how they 
acquire and use firefighting personnel, aviation resources, and 
equipment--assets that constitute a major cost of responding to 
wildland fires--but much remains to be done. The agencies have improved 
their systems for dispatching and monitoring firefighting assets and 
for gathering and analyzing cost data. However, they have yet to 
complete the more fundamental step of determining the appropriate type 
and quantity of firefighting assets needed for the fire season. Over 
the past several years, the agencies have been developing a Fire 
Program Analysis (FPA) system, which was proposed and funded to help 
the agencies:

  <bullet> determine national budget needs by analyzing budget 
        alternatives at the local level--using a common, interagency 
        process for fire management planning and budgeting--and 
        aggregating the results;
  <bullet> determine the relative costs and benefits for the full scope 
        of fire management activities, including potential trade-offs 
        among investments in fuel reduction, fire preparedness, and 
        fire suppression activities; and:
  <bullet> identify, for a given budget level, the most cost-effective 
        mix of personnel and equipment to carry out these activities.

    We have said for several years--and the agencies have concurred--
that FPA is critical to helping the agencies contain wildland fire 
costs and plan and budget effectively. Recent design modifications to 
the system, however, raise questions about the agencies' ability to 
fully achieve these key goals. A midcourse review of the developing 
system resulted in the Wildland Fire Leadership Council's approving in 
December 2006 modifications to the system's design. FPA and senior 
Forest Service and Interior officials told us in April 2007 they 
believed the modifications will allow the agencies to meet the key 
goals. The officials said they expected to have a prototype developed 
for the council's review in June 2007 and to substantially complete the 
system by June 2008. We have yet to systematically review the 
modifications, but after reviewing agency reports on the modifications 
and interviewing knowledgeable officials, we have concerns that the 
modifications may not allow the agencies to meet FPA's key goals. For 
example, under the redesigned system, local land managers will use a 
different method to analyze and select various budget alternatives, and 
it is unclear whether this method will identify the most cost-effective 
allocation of resources. In addition, it is unclear how the budget 
alternatives for local units will be meaningfully aggregated on a 
nationwide basis, a key FPA goal.
    Third, the agencies have clarified certain policies and are 
improving analytical tools to assist agency officials in identifying 
and implementing an appropriate response to a given fire. Officials 
have a wide spectrum of strategies available to them when responding to 
wildland fires, some of which can be significantly more costly than 
others. For individual fires, past studies have found that officials 
may not always consider the full range of available strategies and may 
not select the most appropriate one, which would consider the cost of 
suppression; value of structures and other resources threatened by the 
fire; and, where appropriate, any benefits the fire may provide to 
natural resources. The agencies call a strategy that considers these 
factors the ``appropriate management response.'' The agencies updated 
their policies in 2004 to require officials to consider the full 
spectrum of available strategies when selecting one to use. 
Nevertheless, other policies limit the agencies' use of less aggressive 
strategies, which typically cost less. The Forest Service and Interior 
agencies are working together to revise these policies--revisions that 
could, for example, allow different areas of the same fire to be 
managed for suppression and wildland fire use concurrently or allow a 
fire that was previously being suppressed to be managed instead for 
wildland fire use. The agencies are also continuing to refine existing 
tools, and to develop new ones, for analyzing both fuel and predicted 
weather conditions to model expected fire behavior, information that 
officials can use to identify appropriate suppression strategies; these 
tools are still being designed and tested. It is still too early to 
tell, however, to what extent the policy changes being considered or 
the new tools being developed will help to contain costs.
    Finally, we and others have also reported that the existing 
framework for sharing firefighting costs between federal and nonfederal 
entities insulates state and local governments from the cost of 
protecting homes and communities in or near wildlands, which may reduce 
those governments' incentive to adopt building codes and land use 
requirements that could help reduce the cost of suppressing wildland 
fires.\7\ Federal agencies, working with nonfederal entities, have 
recently taken steps to clarify guidance and better ensure that 
firefighting costs are shared consistently for fires that threaten both 
federal and nonfederal lands and resources. In early 2007, the Forest 
Service and Interior agencies approved an updated template that land 
managers can use when developing master agreements--which establish the 
framework for sharing costs between federal and nonfederal entities--as 
well as agreements on how to share costs for a specific fire. Because 
master agreements are normally updated every 5 years, however, it may 
take several years to fully incorporate this new guidance. Although the 
new guidance states that managers must document their rationale for 
selecting a particular cost-sharing method, officials told us that the 
agencies have no clear plan for how they will provide oversight to 
ensure that appropriate cost-sharing methods are used.
---------------------------------------------------------------------------
    \7\ GAO, Wildland Fire Suppression: Lack of Clear Guidance Raises 
Concerns about Cost Sharing between Federal and Nonfederal Entities, 
GAO-06-570 (Washington, D.C.: May 30, 2006).
---------------------------------------------------------------------------
lack of clear goals or a strategy hinders federal agencies' management 
               of wildland fire cost-containment efforts
    Despite steps taken to strengthen their management of cost-
containment efforts, the agencies have neither clearly defined their 
cost-containment goals and objectives nor developed a strategy for 
achieving them--steps that are fundamental to sound program management. 
To manage their cost-containment efforts effectively, the Forest 
Service and Interior agencies should, at a minimum, have (1) clearly 
defined goals and measurable objectives, (2) a strategy to achieve the 
goals and objectives, (3) performance measures to track their progress, 
and (4) a framework for holding appropriate agency officials 
accountable for achieving the goals.\8\
---------------------------------------------------------------------------
    \8\ Principles of sound program management for federal agencies are 
established in, among other sources, the Government Performance and 
Results Act of 1993 and GAO, Standards for Internal Control in the 
Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.: November 
1999).
---------------------------------------------------------------------------
    First, although the agencies have established a broad goal of 
suppressing wildland fires at minimum cost considering firefighter and 
public safety and the resources and structures to be protected, they 
have established neither clear criteria by which to weigh the relative 
importance of these often-competing priorities nor measurable 
objectives by which to determine if they are meeting their goal. 
Without such criteria and objectives, according to agency officials we 
interviewed and reports we reviewed, officials in the field lack a 
clear understanding of the relative importance that the agencies' 
leadership places on containing costs and, therefore, are likely to 
select firefighting strategies without due consideration of costs.
    Second, the agencies have yet to establish an overall cost-
containment strategy. Without a strategy designed to achieve clear 
cost-containment goals, the agencies (1) have no assurance that the 
variety of steps they are taking to help contain wildland fire costs 
are prioritized so that the most important steps are undertaken first 
and (2) are unable to determine to what extent these steps will help 
contain costs and if a different approach may therefore be needed.
    Third, the agencies recently adopted a new performance measure--
known as the stratified cost index--that may improve the agencies' 
ability to evaluate their progress in containing costs, but the measure 
may take a number of years to fully refine. Also, although the agencies 
have in recent years improved their data on suppression costs and fire 
characteristics, additional improvement is needed. In particular, cost 
data for ``fire complexes''--that is, two or more fires burning in 
proximity that are managed as a single incident--are particularly 
difficult to identify. Thus, the costs of many of the largest fires are 
not included in the index, limiting its effectiveness. Further, to 
date, the index is based solely on fires managed by the Forest Service. 
Forest Service researchers are currently developing, at Interior's 
request, a similar index for fires managed by the Interior agencies, 
but it will be several years, at the earliest, before enough data have 
been collected for the index to be useful. In addition, because the 
stratified cost index is based on costs from previous fires--and 
because the agencies have only recently begun to emphasize the 
importance of using less aggressive suppression strategies--we are 
concerned that the index does not include data from many fires where 
less costly firefighting strategies were used. As a result, the index 
may not accurately identify fires where more, or more-expensive, 
resources were used than needed. According to Forest Service officials, 
data from recent fires will be added annually; over time, the index 
should therefore include more fires where less aggressive firefighting 
strategies were used.
    Finally, the agencies have also taken, or are beginning to take, 
steps to improve their oversight and accountability framework, although 
the extent to which these steps will assist the agencies in containing 
costs is unknown. For example, the agencies have issued guidance 
clarifying that land managers, not fire managers, have primary 
responsibility for containing wildland fire costs, but they have not 
yet determined how the land managers are to be held accountable for 
doing so. Rather, the agencies have taken several incremental steps 
intended to assist land managers in carrying out this responsibility--
such as assigning ``incident business advisors'' to observe 
firefighting operations and work with fire managers to identify ways 
those operations could be more cost-effective, and requiring land 
managers to evaluate fire managers for how well they achieve cost-
containment goals. The utility of these steps, however, may be limited 
because the agencies have yet to establish a clear measure to evaluate 
the benefits and costs of alternative firefighting strategies. Some 
past studies have concluded that the absence of such a measure 
fundamentally weakens the agencies' ability to provide effective 
oversight.
                              conclusions
    Continuing concerns about the cost of preparing for and responding 
to wildland fires have spurred numerous studies and actions by federal 
wildland fire agencies, but little in the way of a coordinated and 
focused effort to rein in these costs. Although the agencies have 
taken--and continue to take--steps intended to contain wildland fire 
costs, the effect of these steps on containing costs is unknown, in 
part because the agencies lack a clear vision for what they want to 
achieve. Without clearly defined cost-containment goals and objectives, 
federal land and fire managers in the field are more likely to select 
strategies and tactics that favor suppressing fires quickly over those 
that seek to balance the benefits of protecting the resources at risk 
and the costs of protecting them. Further, without clear goals, the 
agencies will be unable to develop consistent standards by which to 
measure their performance. Perhaps most important, without a clear 
vision of what they are trying to achieve and a systematic approach for 
achieving it, the agencies--and Congress and the American people--have 
little assurance that cost-containment efforts will lead to substantial 
improvement.
    Thus, to help the agencies manage their ongoing efforts to contain 
wildland fire costs effectively and efficiently, and to assist Congress 
in its oversight role, we recommended in our report that the 
Secretaries of Agriculture and the Interior work together to direct 
their respective agencies to (1) establish clearly defined goals and 
measurable objectives for containing wildland fire costs, (2) develop a 
strategy to achieve these goals and objectives, (3) establish 
performance measures that are aligned with these goals and objectives, 
and (4) establish a framework to ensure that officials are held 
accountable for achieving the goals and objectives. Because of the 
importance of these actions and continuing concerns about the agencies' 
response to the increasing cost of wildland fires--and so that the 
agencies can use the results of these actions to prepare for the 2008 
fire season--the agencies should provide Congress with this information 
no later than November 2007.
    In commenting on a draft of our report, the Forest Service and 
Interior generally disagreed with the characterization of many of our 
findings; they neither agreed nor disagreed with our recommendations. 
In particular, the Forest Service and Interior stated that they did not 
believe we had accurately portrayed some of the significant actions 
they had taken to contain wildland fire costs, and they identified 
several agency documents that they believe provide clearly defined 
goals and objectives that make up their strategy to contain costs. 
Although documents cited by the agencies provide overarching goals and 
objectives, we believe that they lack the clarity and specificity 
needed by their land management and firefighting officials in the field 
to help manage and contain wildland fire costs. Therefore, we believe 
that our recommendations, if effectively implemented, would help the 
agencies better manage their cost-containment efforts and improve their 
ability to contain wildland fire costs.
    Mr. Chairman, this concludes my prepared statement. I would be 
please to answer any questions that you or other Members of the 
Committee may have at this time.

    The Chairman. Thank you very much.
    I believe Senator Domenici has another hearing he's going 
to have to go to, so let me defer to him for his questions 
first.
    Senator Domenici. Thank you very much. I'll try to be 
brief.
    I want to go over first with you, Under Secretary Rey--2 
years ago, I worried that the Lincoln National Forest was ripe 
for an insect and disease outbreak that would put a number of 
communities, and also the Mescalaro Apache Land at risk. Now we 
are seeing 15,000 to 20,000 acres of de-foliated forest around 
the community of Cloudcroft, which I think you're familiar 
with. Which, if nature takes its normal course, will lead to 
outbreaks of spruce bud worm, and mountain pine needle, 
followed by--what we're talking about here today--catastrophic 
fires.
    What has the Forest Service done, or what are they doing to 
salvage dead and dying forests to provide that this community 
some chance of surviving a firestorm, if one should occur in 
this season?
    Mr. Rey. What's happening in that forest is an outbreak of 
a complex of insects, including spruce bud worm, hemlock 
looper, and probably mountain pine beetle, as well. Over the 
course of 2006, we tried to evaluate whether what we were 
seeing was a cyclical phenomenon, because all three of these 
insects are endemic to the mountains around Cloudcroft. But 
whether we're seeing a true epidemic--and that became clear 
last fall.
    The two questions we've been asked are, what are you doing 
about the trees that have experienced mortality--and some 
haven't--the defoliators have just worked them over, and 
they're going to sprout new growth as it cycles into the next 
season, but some have died. So, the first question is ``what 
are you doing about the trees that have died?''. The second 
question is, ``are you going to spray for any of the 
defoliators?''. You can't spray for mountain pine beetle, 
because it exists under the bark.
    As for the first question, we have two exercises underway. 
One, an analysis under a series of categorical exclusions to 
remove trees close in to the communities, that analysis will be 
complete this summer, and trees will start to be removed this 
fall.
    Then the larger term effort, further away from the 
communities, is being analyzed under an environmental 
assessment which will be completed next spring in time for 
harvesting to begin during the next operating season.
    As far as the use of insecticides, we're evaluating that. 
The two defoliators are defoliators that are not effectively 
contained through insecticides until the early fall, 
particularly the looper, is a fall defoliator. So, if we're 
going to use pesticides, they're ineffective, until we get to 
about the September timeframe, and we're still evaluating 
whether we're going to use some limited insecticides this fall. 
As I said earlier, you don't really get much benefit out of 
trying to use insecticides with mountain pine beetle.
    Senator Domenici. Well, it seems like--with no aspersion on 
you, but you know, your answer sounds just about right. It's 
full of words about the future, like ``we're studying,'' 
``we're evaluating,'' ``we don't know what to do yet.'' I've 
come to the conclusion that you can't do what is logical and 
reasonable, and I wish you'd tell me why. Is it----
    Mr. Rey. Well, I--you know, I--maybe I wasn't clear enough. 
We're done evaluating, we're going to start cutting this 
summer.
    Senator Domenici [continuing]. Wait a minute, let me just 
talk to you a minute.
    All of us here know that if we took time enough to go out 
and tour the National Forests, we would find areas that 
embarrassed us, because they have been full of insects for a 
long time, they're full of rotten trees, you'll find them all 
over, and nothing--it seems like nothing's done, or it takes so 
long that by the time you get around to it, the trees are 
really no good.
    Now, we're entering a little change era, with reference to 
the value of these kind of forests, because this whole idea of 
cellulosic energy, seems to be directed at using forest 
products, as part of the feeding of the cellulosic exercise.
    In some private moment when you weren't burdened by all of 
the legal, legalese, and people biting you all over, have you 
ever thought of what would be a common sense approach to this? 
That you might ask us for? Or have you assumed we would just 
conclude there's nothing we could do?
    I have other questions, but I'm not going to ask them, Mr. 
Chairman. Thank you.
    Go ahead, would you just talk a little?
    Mr. Rey. I think we're on the right path, but the rate of 
progress is less than ideal. You know, in the decade of the 
1990s, we were treating about a million acres of Federal lands 
a year, we're now treating over 4 million acres of Federal 
lands a year, so we've quadrupled the amount of treatment work 
that's being done.
    We've been devoting record amounts of funding to this 
effort. We have developed some expedited procedures, and we're 
using those procedures----
    Senator Domenici. What is one of the procedures?
    Mr. Rey [continuing]. Greater reliance on the use of 
categorical exclusions, the accelerated use of environmental 
assessments under the Healthy Forest Restoration Act, some of 
the other experimental procedures under the HFRA--all of those 
are contributing. We are increasing our rate of treatment.
    At the same time, a couple of other things are increasing, 
and one other thing has probably not changed as much as we'd 
like. The two other things that are increasing are the spread 
of the Wildland Urban Interface and the growth of the new homes 
constructed in those areas, which complicate both cost 
containment and firefighting strategy.
    The second thing that's increasing is the size of some of 
these epidemics--they've moved from smaller epidemics to near-
system wide epidemics, and you know, I would say that 
historically, some of these are comparable to the similar 
epidemics that we saw at the turn of the last century in some 
of these systems, like the Kenai Peninsula in Alaska, like the 
Colorado Front Range, and these stands of trees are 
susceptible, because they were set up after that first set of 
epidemics over 100 years ago. So, we're probably going to be 
hard-pressed to keep up with that.
    What's changing more slowly, but still changing in a 
positive direction is public attitudes toward the need to get 
this work done. You know, the fire that's burning in Tahoe 
today is a perfect illustration of that. The fire that's 
burning in Tahoe today is the largest fire that's ever occurred 
in Lake Tahoe's history in the Tahoe Basin, at 2,500 acres, 
which is not really a very big fire by inter-mountain State 
standards.
    But, it's indicative of the fact that in the Tahoe Basin, 
with a much lower fire frequency, there's a lot more resistance 
to doing the fuels treatment work that needs to be done to make 
these homes safe. That's changing, I think, it's probably a 
fair bet that it's going to change pretty quickly now that 
people have seen the implications of not doing that work.
    But, heretofore, our fuel treatment costs in the Tahoe 
Basin were the highest in the system, spiking at as much as 
$10,000 an acre. The reason for that was public resistance to 
having the work done, an insistence that if it got done, it got 
done in the most expensive way possible--with hand treatments 
rather than any kind of mechanical treatments--and a very 
strong reticence to removing enough material to actually create 
a fire-resistant forest. Some days in the Tahoe Basin, I used 
to think that we were going to have to name and hug every tree 
before we cut it, in order to make people accept the fact that 
some of these trees needed to be removed.
    So, that's the lay of the land as I see it. I see a lot of 
progress being made, but I also see that we've got a problem 
that we've spent 100 years getting into, and it's probably 
going to take us about 8 to 10 years of the kind of work we've 
been doing to get out of it.
    Senator Domenici. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you very much, Senator Bingaman, for 
holding this hearing on this very important subject.
    Under Secretary Rey, I have a couple of questions for you 
related to our favorite subject, and that's the insect 
infestation in the West, and in Colorado, which I think is 
creating a powder keg, certainly in Colorado, where we 
currently have close to 2 million acres of our forestlands that 
have been infested by the bark beetle problem.
    So, my first question to you is what is it that we are 
doing, from your perspective, to try to address the bark beetle 
infestation problem that will deal with this fire danger in the 
West?
    Mr. Rey. In the Front Range, we're soon going to be 
enjoying the results of some community partnerships that I 
believe will accelerate our rate of treatments, particularly 
close in around the communities. We are starting to write some 
longer-term stewardship contracts, we have run into a couple of 
technical impediments in terms of securing capital for those 
contracts, and I'd be happy to work with the committee to look 
at a few small-dimension fixes to our contracting arrangements 
to facilitate the acceleration of the stewardship contracts.
    But I think the----
    Senator Salazar. Can you in just a paragraph tell us what 
those technical problems are?
    Mr. Rey [continuing]. The biggest technical problem is that 
we've got to allocate a substantial amount of money and hold 
it, if we're going to offer a large--or a long-term--10-year 
contract. If we could have a little bit more opportunity for 
liquidity there, I think we could probably do more work, 
because we wouldn't be putting a lot of money down in 
anticipation of out-year contract work. That's as simple as I 
can explain it, because it's a fairly complicated contract 
issue. But it's one we have a solution for, that we'd be happy 
to work with you on.
    Senator Salazar. Let me ask you this question, in terms of 
the broad issue--you know, obviously for me, I focus on it in 
Colorado, because if I drive I-70 or up to Keystone, I see the 
large areas of forest lands which are now dying, and I do think 
they are creating this tinder box that, in the past, I've 
called the Katrina of the West.
    But, it's not limited to Colorado. You know, obviously, 
Senator Domenici was talking about a beetle problem in the 
State of New Mexico. I know in Idaho, and Wyoming and a whole 
host of other States, it's becoming a huge problem in the West.
    So, is there a comprehensive approach from the Department 
of Agriculture, at least with respect to the Forest Service 
lands, in terms of how you deal with the bark beetle problem, 
which is upon us. Not your fault, not our fault, it's 
happened--how are we dealing with it in a comprehensive manner?
    Mr. Rey. I think the simplest way I can explain what we're 
doing, is we're trying to focus on the near-in areas first, to 
build defensible space, and eliminate the mortality around 
communities, and then working our way back into the back 
country, where we have important ecological values at risk.
    Now, admittedly, what that means is that there's going to 
be some of the area that's infested that we're not going to 
treat. It's (a), too remote, and (b), has no particular 
ecological values at risk. That's going to be more high 
elevation--now I'm speaking about Colorado, rather than other 
places in the West--those places are going to be more high 
elevation and remote areas, typified by lodge pole pine, rather 
than the lower elevations which, parenthetically, tend to be 
the ones where we've got more homes and communities, which are 
ponderosa pine systems.
    Ponderosa pines are responding better to thinning----
    Senator Salazar. Let me just say, I want to ask is that we 
get something from your Department that gives us a description 
overall----
    Mr. Rey [continuing]. Sure, panoramic.
    Senator Salazar [continuing]. On what it is that you're 
doing there.
    Let me, just quickly ask another question. That's with 
respect to the fuel treatment capacity. I know in my State, I 
think the number of acres that have been NEPA-approved for 
fuels treatment is 283,000 acres. Yet in 2006, we treated, I 
think, 74,000 acres under the U.S. Forest Service. So, a big 
gap between what's been approved, and what we actually are 
doing to deal with the treatment. How can we close the gap?
    Mr. Rey. That's an area where, I think, we have a common 
goal that we can pursue. We did allocate additional funding 
into Region Two, to begin to use some of that NEPA-cleared 
acreage during 2007, and that's also something that our 2008 
budget, as it was proposed, and also as it was reported by the 
Appropriations Committee last week, provides some additional 
assistance. That's actually good news. The fact that we've got 
NEPA-cleared projects that are ready to go means that every 
dollar that we now allocate into Colorado, we can put directly 
onto the ground.
    Senator Salazar. I appreciate your answers, and I look 
forward to working with you on these issues. Thank you very 
much.
    The Chairman. Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    Senator Salazar, this picture over here is an interesting 
one in a couple of respects. First of all----
    Senator Salazar. I note Senator Craig, the title of the 
picture, The Red Hand of Death.
    Senator Craig. How about that? What's more important, is 
the difference between the red and the green. Now, while the 
green was a clear-cut 40 years ago, it is a young, vibrant 
stand of trees today. Youthful trees, versus older trees, 
handle stressed environments better. Older trees that are 
stressed, or heavily populated areas, when stressed, become 
vulnerable to bug kill.
    We've left the forests, we've left them heavily populated, 
and they are now dead and dying. The public won't let us back 
in to do reasonable things. I won't argue that clear-cutting 
was a reasonable thing, but it is now a vibrant, youthful stand 
of trees, some 40 years old, or younger.
    Isn't it interesting that that is a living demonstration of 
the argument against the very thing that's happening?
    You know, Mr. Chairman, and all on the committee, when I 
see a picture like this I have two emotions. I had two emotions 
this morning when FOX News said that now these 270-plus 
homeowners are angry and want to do something, because they 
lost their homes, and they are now blaming environmentalists.
    Mark, you served with us on this committee, on the staff, 
at a time when we looked at the Tahoe watershed, a good number 
of years ago. We pronounced it dead and dying. And, as a result 
of that, we put money in the budget to thin and clean, to save 
the watershed, to save the quality of Lake Tahoe, and to save 
the homes. Interests in that area, both local and national, 
said ``No.''
    Homeowners out there--hear us. We tried, we were not 
allowed to, and you lost your homes. So, I don't know whether I 
want to laugh, or I want to cry because I have both emotions at 
the moment of this great tragedy that is largely human caused.
    What do we do about it? Well, we try to get the healthy 
forests and we have a judge in Alaska that says, ``No, you 
can't have categorical exclusions to go in and thin and clean 
the urban watersheds,'' dominantly. We've got a situation in 
North Idaho where we think we'll probably be blocked again. 
It's an urban watershed that needs to be thinned and cleaned to 
save the watershed. Yet, the attitudes out there are what they 
are. Of course, we in the West know in drought environment, or 
stressed environment what happens to a heavily stand forest, if 
you will. That's the reality we're dealing with today.
    I must also say to you, Robin. I don't care how much cost 
containment we do--when you move from 5 to 6 to 7 to 8 to 10 
million acres last year of fire land, of burned acres--the 
reality is you can contain all the costs you want, if you don't 
fight the fires the costs are going to go up, astronomically. 
Because we're not doing--or being allowed to do--the other 
right things to bring those costs down.
    Now Mark, I hope you're right. I hope we are on the right 
course. But in the 8 or 10 years that we will be denied access 
to those lands, we will burn tens of millions of acres of 
phenomenal watershed and wildlife habitat. We will lose 
thousands and thousands of homes all in the name of what? A 
very narrow attitude about the environment expressed by some.
    There are many ironies, and I'm going to ask that this be 
put in the record. The Washington Post, In the Loop the other 
day, I don't know if you saw this Mark--fascinating about Jake, 
I believe it's Gurlick, Earth First environmental activist. He 
went to jail in Idaho a few years ago. He went to jail in 
Malaysia for chaining himself to old growth. He was one of 
those that you said you ought to hug it and name it before you 
cut it. He has lawsuits filed blocking, now, Forest Service 
policies in Idaho for fuel reduction, the clearing of brush and 
smaller trees. His group the Wild West Institute has filed 
those suits.
    Now, while he has done that, on his 25 acres that he owns 
in Montana he's got a chainsaw out and he's thinning it and 
cleaning it. Why? To reduce the number of trees within in the 
area to reduce the fire danger around his home, so quoted by 
the Missoula newspaper. How fascinating. Well, he admits, as 
you are reflecting Secretary Rey, that the world is changing. 
We went from a policy of ``no cut'' on Federal lands, to 
acknowledging the need for some cut, especially near 
communities. We need to get our past polarity, we need to reach 
out to land owners and the Forest Service for common ground, so 
he says.
    Then he was asked if he would drop the lawsuits in Idaho. 
He said, ``No.'' Probably that's his business, that's where he 
makes his money so he can't do that. He'll keep filing his 
lawsuits, but he'll keep thinning the trees around his home to 
save his home. I hope what I've just said gets back to him 
because that's the reality we're into.
    We will struggle here mightily. We'll put a lot of money 
into the budget. I just stuck $107 million in the Interior 
Budget to help you all out. We will spend hundreds of millions 
of dollars, if not billions, on firefighting. Yet, the publics 
will not allow us to make the forests healthier to bring these 
costs down. Of course, on the bottom of this article is a 
marvelous graph of the number of homes that are in or near the 
Wildland Urban Interface that has changed the dynamics.
    Mr. Chairman, as I said when you were out, I don't know 
whether to smile or to cry. No matter what the policy we push 
here that creates any greater flexibility on the land itself to 
allow the right things to be done, it will probably be blocked 
or contested in the courts. That's the reality we're into 
today. So my guess is, we're going to have to do a lot more 
burning before smoke gets enough in somebody's eyes to clear up 
their vision as to the reality that's going on out there.
    Former Congressman from New York, no longer serving, when 
we passed the Healthy Forest Act I asked him why he was at the 
signing at the White House. He supported it. He said, ``Smoke 
got in my eyes and it improved my vision.'' It appears there's 
going to be a lot of smoke out West in the next decade or so. 
We are a very dry and hot place at the moment.
    So, let me ask one question after that rant. I guess I had 
to get it off my chest.
    The Chairman. Why don't you do that in a hurry, here.
    Senator Craig. I'll ask one question, thank you.
    The Chairman. Senator Tester has to preside and I was going 
to give him a chance to ask one question.
    Senator Craig. Well, I was just whacking at one of his 
constituents. He may not want to respond to that.
    But, one question, under current authority, taking into 
account current litigation hurdles and evolving legal 
interpretations, has it been difficult for the agencies to 
employ proper management objectives, such as thinning? And 
would this likely reduce the size and intensity of fires and 
assist in reducing overall fire cost as well as to reduce the 
danger of fires within the current areas? Mark and Steve, if 
you would wish to respond to those comments, or that particular 
question.
    Mr. Rey. I think I would characterize, you know, what is 
happening now as an exercise in two steps forward and one step 
back. I mean, we are making forward progress using the tools 
that Congress has given us and the funds that you've given us 
to use those tools to work with. But, at the same time, you 
know, we still have a democratic dialog going on in a third 
branch of Government. As new legal opinions come down it 
changes what we can do. It causes us in cases to have to stop 
and reassess and reevaluate.
    So, progress is being made, but I think I'd characterize 
the whole area as an exercise in two steps forward and one step 
back. That's still progress, but it's not as rapid of progress 
as many would like.
    Senator Craig. Steve.
    Mr. Allred. It frustrates me when we see so many projects 
that are challenged, primarily on procedural grounds, not on 
the aspects of it that would have to do with treatment. Part of 
that is the agency's problem, but part of it is the innovative 
approach that our opponents take with regard to the courts.
    Another huge problem for our range lands, as you are aware, 
are invasive species. It is much more difficult to treat those, 
the large expanses that we have and yet, they are very hot 
burning, very fast burning areas, particularly the cheet grass. 
Those are expanding at a tremendous rate. That's probably the 
biggest threat, I believe, we have to our range lands. There is 
no real alternative many times as to how we attack those 
stands.
    Senator Craig. Well, thank you all.
    Mr. Chairman, you've been very generous with the time and 
thank you for holding this hearing. It's going to be a long hot 
summer in the West, maybe by fall we'll be able to reassess. I 
hope we can move something before then. Thank you.
    The Chairman. Thank you.
    Senator Tester.
    Senator Tester. I will make this very, very quick. Senator 
Murkowski, thank you.
    That is, just if you answer quick, we can get done with 
these real fast. Do you have a local liaison on the ground for 
each fire that works with the local firefighting units and 
their resources?
    Mr. Rey. Yes.
    Senator Tester. The other one was, has the Healthy Forest 
Initiative done anything to help reduce the energy load out 
there?
    Mr. Rey. Yes.
    Senator Tester. Thank you very much.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Well Senator Tester, that has to be the 
quickest question and answer that we've had in this committee.
    Senator Tester. I have more and they'll be submitted in 
writing. Thank you.
    Senator Murkowski. Well, I thank you Mr. Chairman, for this 
hearing. I don't know that there's ever been a time when we've 
come to hear the status on the fire when we haven't had a fire 
raging in the State of Alaska. We've got a couple going now.
    Secretary Allred, you mentioned the Caribou, the Caribou 
Hills fire, 55,000 acres, 88 cabins gone, over 100 outposts, 
over $1 million, 500 people on the ground. So, we are into the 
fire season. That's in the part of the State where, according 
to your map, we're not even in and above normal fire range. 
This is down on the Kenai Peninsula.
    But, as we have had testimony in this hearing, the 
peninsula is one of those areas that, due to the spruce bark 
beetle infestation over the years, it is, it's just dry tinder 
on the floor. As Senator Craig and others have mentioned, the 
fuels that are sitting on the floor of the forest at present, 
are a huge concern for us. Then we see them manifested in these 
very fast-moving fires, such as we're seeing right now with the 
Caribou Hills fire.
    A very quick question for you, Mr. Rey. In view of what 
we're trying to do with regards to the reduction of the 
hazardous fuels there on the peninsula, are we doing enough? 
What more can we be doing there in the Chugiak to have a 
positive affect on our goals to reduce the cost of fire 
suppression?
    Mr. Rey. I think we're doing about as much as we can to 
reduce the fire risk close into the communities. We have not 
probably done as much as we could to look at utilization of 
much of the beetle killed material that's further away and in 
more remote areas. One of the, sort of, the problems in that 
area is that there's no usable market for that material. It's 
relatively small diameter and very low quality material.
    We had a, for a while a pretty good chip market in the Far 
East. That's rebounded again and we've got a new processing 
facility, which USDA Rural Development helped commercialize. 
Just a near point, I'm drawing a blank on the location, it's 
near Anchorage.
    Senator Murkowski. It was down in Homer, but that one has 
moved.
    Mr. Rey. Yes, it's moved up now to Anchorage. So, that will 
help some. If we can start building cellulosic ethanol plants, 
that's another possibility. But, what we're going to have to 
have if we're going to do any sort of major modifications 
there, moving off of the areas near into the communities, is 
some local markets for that material to reduce the cost of 
removing it.
    Senator Murkowski. We believe that there's some 
opportunities there with the biomass and would look to explore 
those.
    Secretary Allred, I want to ask you about the assets that 
are currently stationed in Alaska or available in Alaska as we 
go into this fire season. Are we, have we lost any of the 
assets that we have relied on previously? Recognizing the 
interagency effort that goes on up there, do we have what we 
need as we go into this fire season?
    Mr. Allred. Senator, I think we have about the same asset 
picture as we had last year. That changes, obviously, as we go 
through the season. We are relying more upon assets that we can 
move strategically this year. For purposes of cost containment, 
probably, we'll do more of that next year. But, I think we have 
the, we have at least the equal assets that we have. We have 
the availability on an as-needed basis to bring more in. 
Whether or not with what's happening so far this year, those 
will be sufficient. We'll have to see as we progress, but we 
believe we are prepared.
    Senator Murkowski. Of course that makes us a little 
anxious, not knowing. We've been pretty responsive in terms of 
getting us the hot shot crews when we need them, but whether 
it's the Scoopers or the fire retardant tankers. Those are 
issues that, of course, are a great concern.
    Secretary Rey, we have also had multiple conversations 
about the ability to utilize the Canadian tankers that are 
currently allowed to provide for the suppression over State 
lands, but not over Federal lands. We've had the discussion, 
you know, when you're fighting a fire who knows what is State, 
who knows what is Federal. Of course, the issue about the 
safety of the Canadian tankers was one that we had discussed at 
some length in past years, but given the safety record of the 
State's federally contracted Canadian air tankers, isn't it 
time that the Agency and the Interior Department let the State 
of Alaska utilize these more fully? Are we at that point that 
you are comfortable with the safety aspects? Because that was 
what was keeping, us from being able to utilize it on Federal 
property, as I understood.
    Mr. Rey. Well, not exactly. There are two models of 
aircraft that the Canadian Government uses and that we contract 
to use in Alaska. The first model is the C, I think a C-130 
Scoopers. We have data that indicate that those are aircraft 
that are, that can be flown safely in the firefighting 
missions. So there's no issue with those.
    There are also some Canadian DC-6s, which we are not 
comfortable can be flown safely in the firefighting mission. As 
long as it's a State-controlled fire, they can contract with 
whomever they want. But, I will tell you that we spent years 
after the air tanker crashes of the early part of this decade 
going through all of the existing aircraft models in all of 
the, in all of the governmental and private fleets to establish 
those models for which we could develop damage tolerance 
limits, and therefore have some confidence that they could be 
flown safely, and those that we couldn't. As far as the DC 
series airplanes, DC's fours, sixes, and sevens, the Boeing 
Corporation, which now having bought McDonald-Douglas, is sort 
of responsible for the history of those aircraft, has informed 
us in very direct terms; No. 1: they were not designed for this 
purpose and No. 2: they want no part of any kind of remedial 
assessment of whether they can flied, flown safely for this 
purpose.
    Senator Murkowski. Well, I want to make sure that I 
understand though. If they're the C-130's and it is a federally 
controlled fire, are you still okay?
    Mr. Rey. We're OK with the Scoopers, whoever is in control 
of the fire, because we have the data on the Scoopers to show 
they can be flown safely.
    Senator Murkowski. All right. So jurisdictionally it's not 
an issue.
    Mr. Rey. Not, an issue.
    Senator Murkowski. It's not a problem.
    Mr. Rey. Right. The DC-6s, on the other hand, we would not 
contract with for a federally controlled fire. If it's a State 
fire, then, you know, that's up to the State to decide whether 
they want to fly them or not.
    Senator Murkowski. Have we had any incidents or crashes 
with the DC-6s in the, you know, past 5 years?
    Mr. Rey. We haven't, but that doesn't mean that we might 
not. What you have on these aircraft are stresses that are not 
stresses that were anticipated when the aircraft were 
originally designed, nor were they stresses that are associated 
with the original mission profile. The DC-6 was a regular 
transport plane that was thereafter modified for firefighting 
use. Flying a load of material from one airport to another 
airport is a lot less stressful mission than flying a load of 
water or retardant at low altitude in high turbulence 
conditions, dropping that all suddenly, and then powering your 
plane out.
    So, what we have to be able to establish for these 
airframes flying for this modified mission is that at what 
point in the life of these aircraft is there a high likelihood 
of catastrophic metal failure and therefore, a prudent 
requirement that we set them down after so many hours.
    So, after the crashes in the early part of this decade, we 
went through as many aircraft models as we could to figure out 
what that point should be. With the help of Lockheed, we were 
able to calculate that for the P2V's and the P3 O'Ryans. With 
the military data, we were able to calculate that for the C-130 
series planes, and that left us in the, sort of the standard 
fleet with just the DC-series planes and there we ran into a 
complete lack of information, one, and a fairly strong 
unwillingness on the part of the manufacturer to even engage in 
speculation, even informed speculation based on available 
engineering data about what the service life limit of a DC-6 or 
a DC-4 being flown in this mission should be.
    On, their view is that these are all high-hour aircraft, 
for the most part, and the probability is that they've already 
flown more hours than they should for this mission. At least 
that's Boeing's view of it. We were happy to continue to forge 
on, but we, essentially, ran up against a lack of any further 
mechanism to try to establish that limit. So, that's why we 
don't fly DC's fours, sixes, and sevens. If the Canadian 
Government wants to do that or the State of Alaska or the State 
of Oregon, you know, that's really their decision to make, but 
I can't tell you today that if we put one of those in the air 
it won't crash tomorrow or next week or next year because I 
don't have any basis for knowing whether that aircraft is still 
safe to use as an air tanker in the kinds of conditions that 
they fly.
    Senator Murkowski. I appreciate the response and certainly 
don't want to compromise safety. I guess we're looking at it 
and saying we want to make sure that we've got the assets 
there. The Canadians have been using them successfully and 
safely and we've been using them on the State-controlled fires 
safely and successfully. So, you can certainly see why the 
confusion exists. When we need another aircraft it's there, but 
because it's a Federal-controlled fire, all of a sudden we 
can't use it.
    Mr. Chairman, my time's expired. I thank you.
    The Chairman. Thank you very much.
    Ms. Nazzaro, one of the points you make in your report is 
that, you say third, the agencies have clarified certain 
policies, and are improving analytical tools that assist 
officials in identifying and implementing an appropriate 
response to a given fire, but several other policies limit the 
agencies' use of less aggressive firefighting, which typically 
cost less. Could you elaborate on that a little bit?
    Ms. Nazzaro. We believe that there's not a transparent 
decisionmaking process. They do have broad goals that tell them 
to fight fires at a minimum cost, considering firefighter and 
public safety and protecting the resources, but what we don't 
see is how do you then weigh these competing demands. What we 
heard on the ground was that the local firefighters don't know 
how to weigh these competing demands and what strategies they 
should select to ensure that cost considerations are given 
their due consideration.
    The Chairman. But, what are these policies that limit the 
agencies' use of less aggressive firefighting strategies? Are 
there some specific policies?
    Ms. Nazzaro. For example, if they make a decision that 
they're going to suppress the fire, they can't change their 
mind and say, ``OK, now, maybe we decided to fire suppression 
in this area, but this area we can let it burn.'' They can't 
make those changes mid-course. So, we believe that does limit 
their capability to effectively contain costs.
    The Chairman. OK.
    Let me, let me just ask Mark Rey a question about, I think 
this issue has come up before, but I'm still very troubled by 
it. We have this letter or statement really by various former 
chiefs of the Forest Service and it's a very distinguished 
group of former chiefs, Max Peterson, Dale Robertson, Jack Ward 
Thomas, Michael Dombeck, Dale Bosworth. As I understand the 
gist of their concern, they talk about, essentially, flat 
budgets for the Forest Service. The fact that while we have 
flat budgets for the Forest Service, each year the amount that 
is going to wildfire suppression is growing. It has been for 
several years and I think they mentioned that even using this 
10-year average cost of fire suppression, it is increasing 
about $80 million per year and with more increases likely in 
the future.
    I think in your statement, you say that wildfire seasons 
have lasted longer, they've been more severe, we've got more of 
this Wildland Urban Interface problem, which is documented in 
that article in the New York Times this morning. So, their 
plea, as I understand it, is that we need to provide 
flexibility to finance emergency firefighting outside the 
Forest Service Discretionary Budget so that you don't continue 
to have more and more cuts in the rest of the Forest Service 
Budget in order to get this done. Is there any serious effort 
going on within the executive branch with OMB to try to do 
that, to try to have separate requests for the other Forest 
Service activities separated from what is needed for wildfire 
suppression?
    Mr. Rey. There is ongoing discussion and we have tendered 
proposals to Congress for alternative ways to fund 
firefighting. In the 2003 budget request we proposed a 
Government-wide emergency account that would be separate from 
the discretionary budget and cover, not only firefighting 
costs, but some FEMA disaster response costs as well. 
Unfortunately, that wasn't well received. Perhaps in part 
because we proposed to offset some of the costs of that, the 
creation of that account and maybe nobody was interested in 
doing that. But that's a discussion we're willing to continue 
to have with the appropriators.
    The Chairman. It would seem to me that trying to say, let's 
set up an emergency account for all potential, you know, 
whether it's a fire, a tornado, a hurricane, whatever, that's 
defining the problem bigger than we have to define it for 
purposes of this problem. Couldn't we just propose something 
related to fire suppression because that seems to be an issue 
we can almost predict, that the amount we're going to have to 
spend on fire suppression is going to be greater 3 years from 
now, 5 years from now than it is today, given the history of 
the last decade or so?
    Mr. Rey. I think we're open to reengaging on the question 
of an emergency account. I don't know that, you know, fire is 
any different than hurricane response. In some respects, it's a 
predictable situation that's going to generate emergency 
response needs during the course of the season.
    In the firefighting area, we actually have a little more 
predictability in the sense that, you know, we suppress on the 
initial attack somewhere on the average of 98 percent of 
ignitions. That work costs us about 15 percent of our 
firefighting budget and then the balance, the remaining 85 
percent of the firefighting expenditures are consumed by the 2 
percent of the fires that escape initial attack.
    The Chairman. But am I wrong, I mean, my strong impression 
is that we've got a pretty clear trend and you alluded to it in 
your statement as I understood it. The fire season is getting 
longer, has been getting longer, trending longer. The severity 
of the fires is greater. The amount of construction in these 
areas that we call the Wildland Urban Interface is growing. So, 
all of the trends in those areas would indicate we're going to 
have to spend more on fire suppression in the future. As long 
as we just say the Forest Service's job is to take it out of 
their hide, we're going to keep the Forest Service budget 
pretty flat and it's up to them to figure out what to cut in 
order to pay for these growing costs. That's just not a very 
enlightened approach. Am I missing something there?
    Mr. Rey. I think trends are pretty much as you describe 
them for the foreseeable future. As we get more and more fuels 
treatment worked on we'll probably start to round on, at least 
a couple of the trends in fire severity. But, at the same time, 
the Wildland Urban Interface is going to continue to grow and 
that's a creative, I mean, it's not going to wax and wane. It's 
always going to go in one direction. So as I said, I think, you 
know, we're open to talking about alternatives, including those 
which we proposed as well as others that make sense.
    One of the things, you know, that we've been doing is 
emphasizing cost containment to see if we can mitigate some of 
the affects of those trends. We expect this year that as a 
result of the cost containment measures that I described in 
previous hearings before the committee that we'll probably 
shave about $130 to $150 million off of what we would have 
otherwise spent. So, at least that's helping, but it's probably 
not reversing the trend, it's just moderating it.
    The Chairman. Let me see if Senator Craig had more 
questions.
    Senator Craig. Well, Mr. Chairman, thank you for pursuing 
the questioning that you just did because clearly the old model 
that we're operating out of is an old model that had a revenue 
that largely has gone away.
    Especially during the decade of the eighties and now into 
the, or the nineties and now into 2000 and that was, we cut 
trees. We had a very large cash-flow coming off of timber 
sales. That's 90 percent down, 85 percent down. We're 
struggling to bring it up in the right way, in the publicly 
acceptable way. But the reality is, we're operating off of an 
old model. The Forest Service is broke. I think those are terms 
we ought to put it in.
    Now, we either change the model to fit the situation, and 
that's what you're suggesting. I'm very much in favor of that, 
that we ought to look at it differently. Fires, fire has 
changed. The intensity of it has changed dramatically. The 
relationship of fire to dwellings has changed, you've mentioned 
that. We ought to change with it. If we don't and we continue 
the current model, we will stress the Forest Service out and 
they will do damage to the other things they're doing.
    We've got a great debate going on in Idaho and the rest of 
the country now about transportation plans. Well, one of the 
reasons the Forest Service wants to close a bunch of roads, 
while they may argue some environmental reason, the other 
reason, they have no money to maintain them, period, end of 
statement. Why do they not have money to maintain? Because 
they're stressed out in all other accounts. Then, when we play 
the shift game and, we've done that Mr. Chairman, we beg and 
borrow from all the accounts to fight fire, then we don't 
replenish it at the end of the year. That then pushes the whole 
envelope further out.
    Let me approach this from a slightly different area because 
what Secretary Rey just talked about, what Robin has talked 
about as we look at how we're fighting fire today and the cost 
containment of it. Many of us who visited fire scenes have seen 
large urban areas built, temporary urban areas, trailers, 
trucks, tents, supplies, thousands of pieces can come into a 
fire camp in a way that historically never, never existed 
before. But, here is another area that fascinates me and it is 
a problem as it relates to the contemporariness of what we're 
doing.
    In this last year a fire officer was indicted on criminal 
charges. Mark, I want you to hear this because I need both you 
and Steve's response. I think this will send a negative signal 
to many of the fire personnel that are on the ground everyday 
making life and death decisions. Recently in Interior 
Appropriations Subcommittee we added language that would allow 
more firefighters to access liability insurance. Can you 
explain to this committee how this may help alleviate some of 
the concerns from many of our firefighters? That's one 
question.
    Further, post-incident investigations are designed to find 
the truth, however, if a firefighter is to be indicted on 
criminal charges he or she may not be as forthcoming as 
possible, even though a great deal can be learned from the 
truth. Is there any congressional action that needs to be taken 
to, needs to take place to provide firefighters with the 
security to speak out about tragic events without the fear of 
being charged with a crime? So, both you Mark and Steve, do you 
feel as though our firefighters may avoid positions of 
responsibility due to the perception set by this indictment. 
Has that had a chilling affect across the community?
    Mr. Rey. I think that we're, we, we're seeing some 
uneasiness among a specific category of firefighting managers, 
the Type-3 Incident Commanders because they are part of the 
firefighting militia. This isn't, is necessarily a full-time 
job and the question is, do I want to accept the liability 
associated with being in a line decisionmaking position in this 
area. I think what you've proposed in the Interior 
Appropriations Bill, to extend liability insurance to them as 
it's available to other first responders will help 
significantly in that area and give them a mechanism for some 
assurance that if they, you know, do run into a problem here 
that they've got somebody on their side, as it were.
    The other issue you raised goes to internal versus external 
investigations. It's an issue that we face, that the military 
faces, that NASA faces. Both the military and NASA, when they 
do their after-accident investigations, do it for one reason 
and reason only and that's to learn what happened to see if 
there are lessons for the future, to avoid those circumstances 
happening again. If you're going to try to accomplish that, 
it's imperative that the people involved in the incident feel 
free to speak without wondering whether they're putting 
themselves in legal jeopardy.
    So, both the military and NASA have adopted a concept of 
privilege for their investigative reports, sort of insulating 
them from use in any subsequent investigation to determine 
negligence or any form of criminal liability. What we're 
looking at is doing that ourselves. We're not certain yet 
whether we have the authority to do it administratively, if we 
don't we'll probably be coming and asking Congress for 
assistance.
    Senator Craig. OK, thank you.
    Steve.
    Mr. Allred. I think what Mark described is similar to the 
situation within Interior. One thing that is frustrating that 
we need to take care of ourselves is that we have, within the 
agencies, identified guidelines that our firefighters are 
supposed to look at when they're involved in a fire. Not all of 
those guidelines apply in any particular fire. However, some 
prosecutors have tended to look at those as a duty rather than 
as a guideline. One of the things that we need to make very 
clear is that those are not duties and that they are not a 
standard of conduct to be assumed in every situation, but 
rather a set of guidelines to be applied in a specific 
situation. So, we can do some of that ourselves, as well.
    Senator Craig. Well, this is one member of the Senate that 
stands willing to help, if you find it necessary to provide 
that. Because clearly to know what goes on and we know the fire 
scenarios out there are changing, the hotness, the intensity, 
the need to think well ahead of yourself is a reality today 
that may not have been a decade ago and we want to make sure 
that our professionals have that flexibility and have a 
reasonable degree of protection against the liability issues.
    Mr. Chairman, thank you very much.
    The Chairman. Senator Murkowski, do you have other 
questions?
    Senator Murkowski. No, I'm fine.
    The Chairman. Well, thank you all very much. I think it's 
been a useful hearing and we appreciate your testimony.
    The hearing is adjourned.
    [Whereupon, at 11:26 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Response of Robin Nazzaro to Question From Chairman Bingaman
    Question 1. The agencies and GAO apparently both agree that the 
Fire Program Analysis system (FPA) is critical to improving the 
agencies' budgeting and planning processes. Yet the GAO and others have 
raised serious questions about recent design modifications that the 
agencies have made to the FPA system. Do you think that an independent 
technical analysis of FPA and the recent design changes would be 
helpful in illuminating the concerns GAO and others have raised?
    Answer. Yes. Given the agencies' planned use of the FPA system in 
allocating tens of billion of dollars in future wildland fire 
management funding, we believe it is very important that the Congress 
and the public have (1) a comprehensive, clear, and detailed 
understanding of the capabilities and uses of the FPA system and (2) 
confidence that these capabilities and uses have been objectively 
assessed.
     Responses of Robin Nazzaro to Questions From Senator Domenici
    Question 2. Ms. Nazzaro, this is the third or fourth time that GAO 
has suggested the Forest Service doesn't have a cohesive strategy to 
reduce its cost of fire fighting.
    It is obvious that the GAO doesn't believe it is seeing a cohesive 
plan, so what in your estimation would such a plan encompass?
    Answer. Unlike any other document issued by the agencies to date, a 
cohesive strategy would delineate alternative long-term investment 
paths for fuel reductions and identify their varying likely consequent 
effects on long-term suppression and related costs. The purpose of this 
would be to provide the Congress and the public with a better 
understanding of what alternative schedules are feasible for 
accomplishing the long-term objectives of reducing wildland fire risks 
to communities and ecosystems, and the tradeoffs involved with these 
different levels of funding. Pivotal to such a strategy is identifying 
more precisely the relationship between fuel reductions expenditures 
occurring now and reduced future suppression costs.
    Question 3. In GAO's estimation, would shifting funding to 
hazardous fuels treatments, even it if meant providing sufficiency from 
some environmental laws, help reduce the cost of federal wildland fire 
fighting?
    Answer. The extent to which increased fuel reductions would reduce 
future fire fighting costs is a technical question that we have not 
analyzed. Any judgments on this would have to be based on substantial, 
highly context-specific empirical analysis. The cohesive strategy that 
we recommended the agencies develop could shed some light on the 
potential tradeoffs. The decision concerning the proper balance between 
fuels treatment activities and environmental protection is a policy 
decision for the Congress to make.
    Question 4. If GAO had it in its power, what one step would you 
have the Forest Service take to significantly reduce its cost of fire 
suppression?
    Answer. Given the cost savings in both suppression and fuel 
management that can occur as a result of increased wildland fire use, 
one action that the agencies should consider is accelerating the 
completion and supplementation of their fire management plans to ensure 
that they are aggressively focused on identifying opportunities and 
circumstances under which wildland fire use is permitted and 
encouraged.
                                 ______
                                 
    Response of C. Stephen Allred to Question From Chairman Bingaman
    Question 1. In the agencies' comments on the GAO's report, Mr. 
Cason and Chief Kimball asserted that ``we do have objectives and 
clearly defined goals that make up our strategy for better managing 
large fire suppression costs.'' Can you tell me, specifically, what the 
agencies' ``clearly defined goals'' are for containing costs?
    Answer. The principal wildland fire management doctrine provides 
interagency goals and objectives. The doctrine includes ``The Federal 
Wildland Fire Policy,'' the ``Healthy Forests Initiative,'' ``Healthy 
Forests Restoration Act,'' ``Protecting People and Natural Resources--A 
Cohesive Fuels Treatment Strategy,'' and the ``10-Year Strategy 
Implementation Plan.'' We have adjusted major components of the program 
to allow for better management of large fire suppression costs. For 
example, we have changed our policies on land use plans to require the 
consideration of cost. We have changed our training plans to provide 
greater training opportunities for volunteer and local fire units. 
Increasing the number of first responders who are available to suppress 
unwanted fires decrease the potential that the fire will become a large 
and costly fire.
    We are also broadening implementation of the Appropriate Management 
Response (AMR) strategy. This approach provides risk-informed fire 
protection by introducing the concept of managing wildland fire in 
relationship to the risk that the incident poses. A risk-informed, 
performance-based strategy increases flexibility in wildland fire 
decisions, and in some cases may reduce costs relative to a full-
suppression strategy and secures desirable environmental outcomes 
without compromising cost containment objectives. Combined with using 
new rapid-assessment tools, this will enable a more efficient and cost-
effective use of available firefighter numbers and capacity.
    The mission of the Cohesive Fuels Treatment Strategy ``is to lessen 
risks from catastrophic wildfires by reducing fuels build-up in the 
forests and woodlands and by reducing threats from flammable invasive 
species on rangelands in the most efficient and cost effective manner 
possible.'' The strategy embraces cost containment through its four 
guiding principals:

  <bullet> Prioritization
  <bullet> Coordination
  <bullet> Collaboration
  <bullet> Accountability

    The 10-Year Strategy Implementation Plan specifically details four 
implementation goals, implementation outcomes, performance measures, 
and priority tasks. The performance measures enable all parties to 
assess and track progress toward the desired implementation outcomes 
envisioned by each goal. The implementation tasks identify specific 
actions needed to realize measurable progress.

  <bullet> Goal 1--Improve Fire Prevention and Suppression
  <bullet> Goal 2--Reduce Hazardous Fuels
  <bullet> Goal 3--Restoration and Post-Fire Recovery of Fire-Adapted 
        Ecosystems
  <bullet> Goal 4--Promote Community Assistance

    This strategy seeks to create landscape conditions that improve our 
effectiveness in suppressing unwanted fires and reducing risks to 
firefighters, communities, and the environment, and to use desirable 
fires to help achieve natural resource management objectives--acting in 
the most economical and effectual means possible.
    Both the Department and USFS also continue to report on the five 
common performance measures outlined in the National Fire Plan related 
to reducing fire risk, such as the performance measure that captures 
the number of acres in fire regimes 1, 2, or 3 that moved to a better 
condition class. Additionally, the Administration is measuring the 
percentage of total National Forest System land for which fire risk is 
reduced through movement to a better condition. Fuels reduction and 
restoration treatments are designed to reduce the risks of catastrophic 
wildland fire to people, communities and natural resources.
    In addition, responsible Federal and state agencies are working to 
share costs and determine up front how costs will be distributed. 
Sharing responsibility enhances financial accountability and decreases 
costly duplicative efforts.
    Responses of C. Stephen Allred to Questions From Senator Salazar
    Question 2. I am concerned about reports of fire positions being 
abolished in Colorado. Specifically, my office is aware of position 
cuts out of the San Juan Public Lands Center in Southwest Colorado. 
Will you provide me with documentation of the Federal fire preparedness 
resources currently located/available in Colorado by district, forest, 
or other administrative region and how those levels compare to past 
years?
    Answer. BLM is part of an interagency firefighting organization in 
Colorado that combines federal and state resources to most effectively 
manage a response to wildland fires. In addition, at any given time, 
Colorado has access to resources located throughout the country that 
are capable of responding within 48 hours. Current firefighting 
resources in Colorado, by management unit, include the following:
    NW Colorado Fire Management Unit--Within this unit, BLM, National 
Park Service (NPS), and U.S. Fish and Wildlife Service resources are 
administratively combined under ``Service First'' authority, which is 
designed to achieve the most effective organization. Fire Management 
Officers are located at Craig, Meeker, Dinosaur National Park, and 
Browns Park Wildlife Refuge. These managers supervise a total of seven 
fire engines and host the Craig Hotshot crew, a national resource.
    Upper Colorado River Fire Management Unit--Within this unit, BLM, 
U.S. Forest Service (USFS), and NPS units are administratively combined 
under ``Service First'' authority. Fire Management Officers and 
Assistants are located at Grand Junction, Rifle, and Eagle. They manage 
a total of nine engines; two 3-person Initial Attack squads; a 
helicopter and 6-person helitack crew at Rifle. They also manage the 
Grand Junction Air Tanker Base, which also hosts national resources 
that include 10-15 smokejumpers and the 6-person Unaweep Fire Use 
Module.
    Montrose Interagency Fire Management Unit--Within this unit BLM, 
USFS, and NPS units are administratively combined under ``Service 
First'' authority. Fire Management Officers and Assistants are located 
at Montrose and Gunnison. Eight engines are located throughout the area 
in Montrose, Gunnison, Norwood, and Paonia.
    San Juan Public Lands Center--USFS and BLM units are 
administratively combined under ``Service First'' authority. Fire 
Management Officers are located at Durango, Dolores, and Pagosa 
Springs. They manage seven engines and the Durango Air Tanker Base, 
which also hosts a helicopter and helitack crew. Both the helicopter 
and crew are national resources.
    San Luis Valley Public Lands Center--USFS, BLM, and NPS units are 
administratively combined under ``Service First'' authority. Fire 
Management Officers are located at Monte Vista, Del Norte, Saguache, La 
Jara, and Great Sand Dunes National Park. Three engines are managed 
within this unit.
    Front Range Fire Management Unit--This is a BLM and USFS unit 
managed at Canon City. They currently have three engines. The BLM Fire 
Management officer coordinates his activities as a part of the larger 
Pike and San Isabel National Forest management.
    Dispatch Centers--In Colorado, there are six federally operated 
zone dispatch centers, one each in Craig, Grand Junction, Montrose, 
Durango, Pueblo, and Fort Collins. The Rocky Mountain Area Coordination 
Center (RMACC) located in Lakewood is one of 11 regional centers across 
the country that coordinates the mobilization of firefighting 
resources. RMACC is responsible for wildfire activity in the five-state 
region of Colorado, Wyoming, South Dakota, Nebraska, and Kansas.
    Aviation--There are three Air Tanker bases in Colorado available to 
support heavy air tankers in Grand Junction, Durango, and at the 
Jefferson County Airport. BLM has also created six secondary Single 
Engine Air Tanker (SEATs) bases at Craig, Rifle, Montrose, Cortez, 
Kremmling, and Canon City. The Colorado State Office also has a shared 
BLM/NPS Aviation position.
    The numbers and locations of these resources have not significantly 
changed in recent years, although management practices have changed 
slightly to improve efficiency and cost-effectiveness.
    Question 3. Are you able, at this time, to tell me what that 
documentation will show?
    Answer. The documentation is outlined above.
    Question 4. Will you also provide a justification for these 
resource levels?
    Answer. Currently, the numbers and locations of firefighting 
resources in Colorado, as in other states, are based on fire history 
and historic organizational needs. In Colorado, the BLM firefighting 
resources are blended with other agencies to minimize resource 
duplication and to achieve the most efficient and cost-effective fire 
organization possible.
    Question 5. In the eyes of the Forest Service and BLM have cuts to 
other National Fire Plan programs such as Volunteer and State Fire 
Assistance negatively impacted local and state resources available to 
respond to fires in Colorado?
    Answer. Local fire departments are an integral and important 
component of the nation's wildland fire community. Their first-response 
capabilities are crucial to the success of land management agencies in 
protecting lives and values at risk.
    Funding through the National Fire Plan has provided significant 
assistance to support and enhance the capabilities of these partners. 
Although the Department's Rural Fire Assistance program was highly 
successful, it achieved the primary goal of updating equipment and 
prevention programs in rural fire departments across the country. This 
program was also duplicative of other Federal fire assistance grant 
programs. DOI is now focusing efforts and funding on the Ready Reserve 
program.
    The Ready Reserve program, which is focused on the same rural and 
local departments as RFA, is designed to provide wildland fire training 
to enhance the safety, effectiveness, and capability of local 
firefighters who respond to wildland fires near their communities. The 
program includes providing the training in a format and on a schedule 
that meets the needs of the local departments; as well as providing 
some training on-line for greater accessibility. This training includes 
traditional wildland firefighting courses, simulation exercises, local 
engine academies, and more.
    Through the Ready Reserve fire training and assistance with grants 
from other sources, the Department continues to support the safety, 
effectiveness and the role of these units in the nation's wildfire 
response community.
    Question 6. Last week in Garfield County, Colorado a small fire 
that threatened over 100 homes was quickly suppressed sparing all but 3 
homes which were lost. Local first responders benefited from the quick 
response by the BLM helicopter crew stationed in the county. It is 
reported that this resource is slated to be transferred from its 
current base of operations in the future. Can you tell me how your 
agencies make these decisions?
    Answer. BLM is part of a national interagency firefighting team 
that combines federal, state, and local resources to mobilize resources 
to effectively manage wildland fires. The Type 3 helicopter currently 
stationed at Rifle is considered a national resource, similar to the 
Single Engine Air Tanker stationed in Grand Junction. National 
resources may be relocated temporarily or permanently based on national 
fire activity and resource needs.
    For now, the home base for this helicopter will remain in Rifle. 
The helicopter's location may be re-visited at sometime in the future, 
depending on several factors including the level of fire activity, both 
regionally and nationally; fire potential; and risks to communities. 
The Department focuses its firefighting resources in areas with the 
greatest fire activity and resource needs. The Interstate-70 corridor 
has valuable natural resources, urban development, and complex 
topography, all of which are considered in the location of the 
helicopter and other fire resources.
    Question 7. It is reported that this resource is slated to be 
transferred from its current base of operations in the future. Can you 
tell me how your agencies make these decisions?
    Answer. National resources can be transferred to any location in 
the country where they are most needed. The Type 3 helicopter in Rifle 
is regarded as a national resource. The transfer of it would be based 
upon the factors mentioned above: level of fire activity on both a 
regional and national basis; potential for new fire activity; and risks 
to communities and important natural resources. It's important to note 
that the system works both ways. If Colorado experiences a difficult 
season, then national assets from other parts of the country would be 
sent there. The decision to move national resources is made by the 
National Multi-Agency Coordinating Group (NMAC) in Boise, Idaho, which 
is composed of senior fire managers representing federal and state fire 
agencies.
    Question 8. Will you also provide my office with notices and 
justification for any resource transfers that affect Colorado in the 
future?
    Answer. Yes, BLM Colorado can brief your staff on fire resource 
status, locations, and fire activity on public land in the state.
    Question 9. Have your agencies done everything in their power to 
insure that the resources needed to protect life, property, and other 
important resources are in place for this fire season?
    Answer. Yes. BLM, along with our interagency partners, is part of a 
national interagency firefighting team that combines federal, state, 
and local resources in order to mobilize necessary resources to 
effectively manage wildland fires based upon fire activity, fuel 
conditions, and fire activity potential.
    Question 10. Are there unfunded needs to be addressed in terms of 
preparedness?
    Answer. The Department supports the funding levels proposed in the 
President's Budget. The Department is continually working to adapt to 
the challenges we face and plans to implement a number of strategies to 
maintain the most efficient on-the-ground firefighting force possible.
    Question 11. Are there other legislative authorities that federal 
agencies require to respond to fire incidents effectively and 
efficiently?
    Answer. Title IV, Section 428 of S. 1696, the Department of the 
Interior, Environment, and Related Agencies Appropriations Act, 2008, 
authorizes the Departments to pay for up to one-half of the cost of 
personal liability insurance for an expanded number of agency wildland 
firefighters. This provision would allow the agencies to provide 
assistance to many of the firefighters who risk their lives to protect 
public resources.
    Question 12. What action will the Forest Service and Department of 
Interior take in response to the GAO report unveiled today?
    Answer. We are currently reviewing the report and will present a 
formal response to GAO in the future.
   Responses of C. Stephen Allred to Questions From Senator Domenici
    Question 13. What did the BLM do with the emergency fire funding 
that it got in September of 2006? Was it utilized to pay back the fire 
borrowing it did in FY 2006?
    Answer. Of the $100 million emergency funding received in September 
2006, $96 million was used to repay all Section 102 emergency transfers 
from the fire bureaus' construction and land acquisition accounts. One 
million of the carry-over was used to partially repay the Burned Area 
Rehabilitation account. The remaining three million helps allow the 
program to fund suppression at the ten-year average.
    Question 14. Are the BLM and Park Service fully prepared for this 
fire season?
    Answer. For the 2007 fire season, we have secured firefighting 
forces--firefighters, equipment, and aircraft--comparable to those 
available in 2006. Our fire managers assign local, regional and 
national firefighting personnel and equipment based on anticipated fire 
starts, actual fire occurrence, fire spread, and severity with the help 
of information from Predictive Services.
    Question 15. If there were one thing you would have this Congress 
do to reduce your agencies' cost of fire fighting, what would that be?
    Answer. We believe it would be helpful to provide more information 
to the public about wildland firefighting roles and responsibilities. 
Managing the expectations of our partners, continuing a national 
education strategy, maintaining community assistance, and relying on a 
risk-based approach to suppression operations will help reduce the cost 
of firefighting in the long-term.
    Our educational outreach includes, but is not limited to:
  <bullet> Community Wildfire Protection Plans (CWPPs)--an essential 
        element for reducing the risk to communities from wildland 
        fire.

    --A CWPP Handbook was developed and sponsored by the Society of 
            American Foresters, the National Association of Counties, 
            the National Association of State Foresters, and the 
            Western Governor's Association.
    --Communities with CWPPs in place are given priority for funding of 
            hazardous fuels reduction projects carried out under the 
            auspices of the Healthy Forest Restoration Act.

  <bullet> The Forest Service's Volunteer Fire Assistance (VFA) program 
        provides Federal financial, technical, and other assistance 
        through State Foresters or similar officials to organize, 
        train, and equip fire departments in rural areas and rural 
        communities of 10,000 or less, to prevent and suppress fires. 
        The VFA program is sponsored and funded by the Forest Service 
        and administered by the State Foresters through the state and 
        private forestry system.
  <bullet> The Department's agencies and their state partners initiated 
        the Ready Reserve program in 2006. This program focuses on 
        training rural and volunteer firefighters. Training for rural 
        fire departments through Ready Reserve focuses on enhancement 
        of firefighter safety, building wildland suppression skills, 
        and improving overall cooperator effectiveness, particularly in 
        WUI firefighting operations.
  <bullet> The Forest Service State Fire Assistance program supports 
        critical preparedness needs for firefighter safety, increased 
        initial attack capability and training. Base levels of funding 
        are distributed to the State Foresters based on recognition of 
        the need for states to maintain and enhance coordination and 
        communication with federal agencies.
                                 ______
                                 
       Responses of Mark Rey to Questions From Chairman Bingaman
    [Responses to the following questions were not received at the time 
the hearing went to press:]

    Question 1. In the agencies' comments on the GAO's report, Mr. 
Cason and Chief Kimball asserted that ``we do have objectives and 
clearly defined goals that make up our strategy for better managing 
large fire suppression costs.'' Can you tell me, specifically, what the 
agencies' ``clearly defined goals'' are for containing costs?
    Question 2. The Management Efficiencies document you submitted in 
January indicates that 25-75% of large fire costs could potentially be 
saved by changing agency policy to ``allow movement between suppression 
and wildland fire use as needed.'' Has the agency changed policy 
accordingly, and, if not, when will that policy be revised?
    Question 3a. At a hearing before the House Natural Resources 
Committee last week, you testified that there are about 80 million 
acres of high-priority acres in need of fuel treatments.
    How did you arrive at that number?
    Question 3b. Can the agency identify where exactly those acres are?
    Question 3c. Does the agency have an estimate of the cost of 
treating those acres?
    Question 3d. How long do you think it will take for the agencies to 
treat those acres?
    Question 4. The Independent Panel's review of the quality of some 
of the Forest Service's Fire Management Plans indicated that none of 
them even approached an adequate discussion of all of the key issues 
for wildfire management. As a result, the study recommends that Fire 
Management Plans should be dynamic, integrative, and collaborative 
strategic assessments of fire management planning and policies that:
          a. assess in-depth and continually-update fire history since 
        2000 in terms of expected fire behavior, intensity, and risk 
        (p.17);
          b. organize the forest into zones or areas that clearly 
        identify both forest resource management and fire protection 
        goals (p.13);
          c. monitor the growth of the WUI and compare fire management 
        priorities and protection policies with state, local, tribal 
        neighbors--and private and public interests in a highly 
        collaborative process that includes enough detail to define 
        protection roles (p.17);
          d. provide guidance on the appropriate response to wildfires 
        (p.13);
          e. refine and explain cost-management expectations for fire 
        management programs (Prevention, Fuels Reduction, Suppression, 
        and Restoration) (p.17);
          f. include up-to-date information on size, location, and 
        maintenance of fuels reduction projects (p.14);
          g. create a strong linkage from the FMP to the WFSA process 
        (p.17); and
          h. include information on all other forest activities that 
        affect fire planning (p.14).

    In an agency press release in May, you stated that ``the 
recommendations of the panel will be acted upon immediately.'' Can you 
tell me how you have acted on the specific recommendations listed above 
to-date and when we can expect the Fire Management Plans to comply with 
these criteria?
        Responses of Mark Rey to Questions From Senator Salazar
    Question 5. I am concerned about reports of fire positions being 
abolished in Colorado. Specifically, my office is aware of position 
cuts out of the San Juan Public Lands Center in Southwest Colorado.
    Will you provide me with documentation of the Federal fire 
preparedness resources currently located/available in Colorado by 
district, forest, or other administrative region and how those levels 
compare to past years?
    Question 6. Are you able, at this time, to tell me what that 
documentation will show?
    Question 7. Will you also provide a justification for these 
resource levels?
    Question 8. In the eyes of the Forest Service and BLM have cuts to 
other National Fire Plan programs such as Volunteer and State Fire 
Assistance negatively impacted local and state resources available to 
respond to fires in Colorado?
    Question 9. Last week in Garfield County, Colorado a small fire 
that threatened over 100 homes was quickly suppressed sparing all but 3 
homes which were lost. Local first responders benefited from the quick 
response by the BLM helicopter crew stationed in the county.
    It is reported that this resource is slated to be transferred from 
its current base of operations in the future. Can you tell me how your 
agencies make these decisions?
    Question 10. Will you also provide my office with notices and 
justification for any resource transfers that affect Colorado in the 
future?
    Question 11. Have your agencies done everything in their power to 
insure that the resources needed to protect life, property, and other 
important resources are in place for this fire season?
    Question 12. Are there unfunded needs to be addressed in terms of 
preparedness?
    Question 13. Are there other legislative authorities that federal 
agencies require to respond to fire incidents effectively and 
efficiently?
    Question 14. What action will the Forest Service and Department of 
Interior take in response to the GAO report unveiled today?
        Responses of Mark Rey to Questions From Senator Cantwell
    Question 15a. Secretary Rey, we are observing serious wildland fire 
conditions such as an increasing number of large and severe wildfires, 
lengthened wildfire seasons, increased areas burned, and increasing 
numbers of large wildfires in fire-sensitive ecosystems. The annual 
number of acres burned on public lands has been increasing over the 
last couple of decades. Recent research suggests that these trends are, 
in part, related to shifts in climate. For example, a warming climate 
is contributing to longer wildland fire seasons with more extreme 
wildland fire events, which greatly increase the risk to human lives 
and infrastructures, particularly within the wildland urban interface. 
The Forest Service is still managing forests mainly for commodity 
outputs, but managing forests for carbon sequestration may be the most 
valuable role for our nation's future generations. Without taking 
action to manage fire-dependant ecosystems today and in the absence of 
thoughtful preparation and planning for the future, wildland fires are 
likely to become increasingly difficult to manage. Last November, the 
Association for Fire Ecology in the ``San Diego Declaration on Climate 
Change and Fire Management'' issued specific actions that federal land 
managers can take to better prepare for and mitigate future impacts of 
climate change on wildland fire management.
    Secretary Rey, are you familiar with the ``San Diego Declaration on 
Climate Change and Fire Management''? Does the Administration endorse 
the policy principles laid out in the Declaration?
    Question 15b. What is the Forest Service doing to implement the 
recommendations in the Declaration to ensure that the federal 
government is prepared to address the impacts of climate change on 
wildland fire management?
    Question 15c. How, if at all, are you integrating climate change 
scenarios into long-range forest and fire management planning?
    Question 15d. How are you integrating impacts of climate change, 
like changes in temperature, precipitation, and storm frequency, into 
post-fire management proposals?
    Question 15e. What kinds of monitoring programs have been 
established to track changes in vegetation, fuels, and fire regime over 
time, especially in areas undergoing rapid change due to global 
warming?
    Question 15f. What kinds of information and education systems has 
the agency established to inform the public about the potential impacts 
of climate change on natural resources and fire disturbance regimes?
                      wildland firefighter safety
    Question 16. Earlier this year, I introduced and this committee 
unanimously recommended the Wildland Firefighter Safety and 
Transparency Act of 2007, S. 1152. This bill directs the Secretary of 
the Interior to submit annual reports to Congress on the wildland 
firefighter safety practices of the Secretaries of wildland 
firefighting agencies, including training programs and activities for 
wildland fire suppression, prescribed burning, and wildland fire use. A 
report by the Department of Agriculture's Office of Inspector General 
(Report No. 08601-42-SF, March 2006) identified significant problems 
with oversight and administration of the Forest Service contracts and 
agreements for private wildland fire crews. These and other reports 
highlight the need for Congress and the Federal agencies to improve 
oversight in the area of wildfire safety. The agencies indicated at the 
January 30, 2007 Committee oversight hearing on wildfire that they are 
working on making some major changes to their training and other safety 
programs, which further highlights the need for Congress to keep 
abreast of the agencies' wildfire safety program. The annual report to 
Congress required by S. 1152 will help Congress do so.
    Will the Administration commit to supporting this common sense and 
necessary legislation that will allow Congress and the Federal agencies 
to improve oversight in the area of wildfire safety?
    Question 17. Because of the inherent risks and growing complexity 
of managing wildland fire, I understand some wildland fire managers in 
the Forest Service and Department of the Interior purchase personal 
liability insurance. The interest in personal liability insurance by 
these managers has increased since the Department of Justice recently 
decided to pursue criminal charges against a Federal wildland 
firefighter relating to a number of fatalities during a 2001 wildfire. 
Along with Chairman Bingaman and Ranking Member Domenici, I recently 
introduced legislation that would expand access to professional 
liability insurance for our brave wildland fire managers. Provisions of 
this legislation were included in the Senate Appropriations Committee 
Fiscal Year 2008 Interior, Environment, and Related Agencies 
Appropriations Act.
    Secretary Rey, in your testimony you indicated that, as a result of 
the criminal charges stemming from the 2001 wildfire, there is some 
uneasiness among some wildland firefighters. You also indicated that 
the legislation I introduced along with Chairman Bingaman and Ranking 
Member Domenici would help significantly in that area and improve 
morale among federal wildland firefighters. Can you elaborate on your 
support this legislation, and how it can help ensure thorough 
investigations in the aftermath of wildland fire fighter fatalities?
                       recreation and environment
    Question 18. Earlier this year, Senator John Warner and I, along 
with 17 other Senate Colleagues, introduced bipartisan legislation that 
would codify the 2001 Roadless Rule. The Forest Service's failure to 
address the more than $8.4 billion road maintenance backlog, while 
advancing an agenda that promotes new road construction and increased 
commercial logging compounds the Forest Service's fiscal problems. 
Moreover, Americans have expressed their strong desire to see the last 
30 percent of pristine land on National Forests protected. In drafting 
the Roadless Rule, the Forest Service held more than 600 meetings and 
hearings in 37 states, the majority in communities near National 
Forests. More than 25,000 people participated. Of the more than 1.6 
million comments submitted on the then proposed Roadless Rule, an 
overwhelming 95 percent favored the strongest possible protection for 
roadless areas. As well, in 18 separate opinion polls, conducted by 
both Republicans and Democrats, Americans demonstrated robust support 
for roadless area protection. Clearly the American people understand 
the need for strong roadless forest protection. Representing less than 
two percent of our country's landscape, these pristine lands are 
sources of clean drinking water for millions of Americans and wonderful 
backcountry recreation, including hiking, hunting and fishing. They 
offer safe harbor for vanishing and imperiled wildlife and fish 
species. They also provide a wide range of economic values and improve 
the overall quality of life in communities adjacent to National 
Forests.
    Secretary Rey, the Bush Administration has spent six years trying 
to overturn the 2001 Clinton Administration Roadless Rule. As you know, 
the most recent ruling in this costly legal saga reinstated the 2001 
Rule. Will the Bush Administration finally end its divisive efforts to 
overturn this broadly popular Rule?
    Question 19a. Mount St. Helens in southwest Washington is currently 
a National Volcanic Monument managed by the Forest Service. Thousands 
of Americans each year visit the Mt. St. Helens National Volcanic 
Monument to see the stunning effects of the 1980 eruption. This unique 
destination showcases the eruption's dramatic aftermath, and lets 
visitors see returning plants and animals firsthand. Unfortunately, in 
the face of maintenance backlogs and budget constraints, the Forest 
Service has recently announced plans to scale back visitor center 
operations at the monument, including plans to close the Coldwater 
Ridge Visitor Center during 2008. Yet, Administration budget requests 
for Region 6 programs that support the Monument have seen steady 
decreases since FY 2001. Recreation, Wilderness and Heritage in Region 
6 has decreased from $28.5 million for FY 2003 to under $19 million for 
FY 2008, a 35% decrease. Capital Improvements for Trails in Region 6 
has decreased from $10 million in FY 2004 to $7 million in FY 2008, a 
30% decrease. More than $13 million in deferred maintenance has been 
identified for the Monument, which apparently precipitated the Forest 
Service's plans to scale back visitor center operations at the 
monument. Yet, the Administration's Forest Service FY 2008 budget 
request for Deferred Maintenance is a 25% decrease from FY 2006 funding 
levels, and the Administration requested no money for Deferred 
Maintenance in FY 2004.
    In light of the Administration's steady trend of reduced budget 
requests for programs that support the Mt. St. Helens National Volcanic 
Monument, what is the Forest Service's plan to protect natural 
resources while also expanding recreational and visitor opportunities 
at Mt. St. Helens?
    Question 19b. Please provide the Administration's budget requests, 
and final appropriation, for all Region 6 accounts for FY 2001--FY 2008 
that support programs at the Monument, including the Capital 
Improvement and Maintenance accounts for Deferred Maintenance, 
Facilities, and Trails, and also the Region 6 Recreation, Wilderness 
and Heritage account.
    Question 20a. The Forest Service estimates that it needs several 
billion dollars nationwide to maintain existing roads, replace 
culverts, and decommission old roads, including over $300 million in 
Washington. However, the Forest Service is spending just $3 million 
annually on road maintenance in Washington's national forests, while 
the backlog of deferred maintenance grows by $8 million each year. 
Unfortunately, the Administration's budget request for FY 2008 will 
significantly worsen the problem of Forest Service roads. Nationally, 
the budget proposes a 31 percent cut in Forest Service road 
maintenance, while road decommissioning will decline from 682 miles in 
2006 to 375 miles in 2008--a 55 percent reduction.
    What are the current estimated costs of deferred road maintenance, 
culvert replacement and repairs, and road decommissioning?
    Question 20b. How have those estimated costs changed since 2000, 
when the Forest Service FY 2000 Proposed Budget estimated $8.4 billion 
in road needs?
    Question 20c. To what extent are those changes due to better road 
information versus reduced maintenance standards?
    Question 20d. How much money has the Forest Service spent in each 
of the last five fiscal years to address the road maintenance backlog?
    Question 21a. The Forest Service was sued by Forest Service 
Employees for Environmental Ethics (FSEEE) for its use of toxic fire 
retardant chemicals. In response to a court order, the Forest Service 
conducted an Environmental Assessment and was supposed to have issued a 
decision in March 2007. According to the agency's official website for 
the Environmental Assessment process, it has yet to announce any 
decision or provide an update. Aviation costs to apply fire retardants 
are one of the highest cost centers in suppression operations. 
Taxpayers are paying twice: first, the economic costs of using 
aircraft, and second, the ecological costs of polluted water and killed 
fish, including endangered species.
    What is the status of the Environmental Assessment for the aerial 
application of fire retardants?
    Question 21b. When will a Decision Notice or Environmental Impact 
Statement be issued?
    Question 21c. How does the agency intend to monitor and track the 
effects of fire retardants to be used this season?
             fire management strategy and cost containment
    Question 22a. Fire costs threaten to consume the majority of the 
Forest Service's discretionary budget, leaving them very little money 
to do anything else. The Forest Service's wildland fire costs increased 
from 13% of their budget in Fiscal Year 1991 to a staggering 45% 
projected in Fiscal Year 2008, and experts are predicting that global 
climate change will only lengthen the fire season. Funding for non-fire 
Forest Service programs decreased 14% between Fiscal Year 2002 and 
Fiscal Year 2006 (adjusted for inflation). It's clear that something 
needs to change. In a recent report the USDA IG recommended that the 
Forest Service expand its Wildland Fire Use (WFU) program to help 
reduce suppression costs. Moreover, from the outset, one of the primary 
goals of the federal Wildland Fire Policy, Ten-Year Comprehensive 
Strategy, and National Fire Plan was to restore fire-adapted 
ecosystems, including using wildland fires to help make landscapes more 
fire-resilient and help protect communities. However, in 2006 only 
165,000 acres were managed as Wildland Fire Use out of the almost 10 
million acres that burned.
    Would you agree that the Department of Interior and Forest Service 
should allocate more funding for WFU training and implement policy 
changes that better incentivize WFU?
    Question 22b. What policy incentives do you believe would be the 
most effective in achieving an expanded WFU program?
    Question 22c. What current policies, as noted by the USDA-OIG and 
GAO, that constrain the implementation of wildland fire use are you 
revising in order to expand WFU?
    Question 22d. What assurance can you provide the committee that 
these policies changes will be pursued?
    Question 23a. The Forest Service is proposing a new fire 
suppression approach (``risk-based'' or ``risk-informed'' suppression) 
that recognizes that not all wildland fires need to be managed in the 
same way that they will be implementing during this fire season. Under 
this approach, WFU should be a more readily available alternative for 
managing wildland fire. This is an important step in the right 
direction, because the agency has acknowledged that full suppression 
attack is not always the right tactic in every situation.
    Do you think that this change in suppression response, i.e. not 
actively suppressing all fires or all portions fires but instead 
determining the appropriate management response based on a set of risk 
factors, will help contain suppression costs?
    Question 23b. What results do you expect to see in the 2007 fire 
season? Within the next five years?
    Question 23c. How is the agency working to ensure that this 
approach is adopted throughout the agency--district, forest, regional 
levels?
    Question 23d. The new suppression performance measures proposed in 
the budget do not seem to be designed to capture accomplishments that 
would result from using this new approach. How will the Forest Service 
measure success in this new fire management approach?
    Question 24a. The GAO has recommended numerous times that the land 
management agencies need a cohesive strategy for managing wildland fire 
that explicitly identifies the long-term options and related funding 
needed to reduce fuels in national forests and rangelands and to 
respond to wildland fire to allow the agencies and Congress to 
determine the most effective and affordable long-term approach for 
addressing wildland fire problems.
    What actions have the Forest Service and DOI taken to incorporate 
GAO's Wildland Fire Management recommendations?
    Question 24b. Please describe in detail what elements the agencies' 
cohesive strategy should contain and how the agencies will use this 
type of strategy to better implement wildland fire management.
    Question 24c. GAO has stated that the agencies' fuels strategy does 
not address their recommendation. Why is this the case?
    Question 25a. The 1995 and 2001 Federal Fire Policy clearly states 
that, ``Every area with burnable vegetation must have an approved Fire 
Management Plan (FMP).'' FMPs are one of the foundational elements of 
Fire Preparedness, and they help make fire management safer, more 
economically efficient, and more effective. Failure to have a current 
approved FMP means land managers have only one option in response to 
wildland fires: total aggressive suppression. The Forest Service has 
been successfully sued twice for failure to develop FMPs in compliance 
with NEPA. In response, the agency has withdrawn the FMPs from the Six 
Rivers and Sequoia National Forests in California, and has threatened 
to withdraw them from the National Forests in Region 3 if additional 
lawsuits are filed there.
    What is the status of FMPs in our National Forests?
    Question 25b. Given that it has been twelve years since the Federal 
Wildland Fire Policy mandated FMPs, what number and percentage of all 
National Forests have current, approved FMPs?
    Question 25c. What role, if any, will the public have in developing 
FMPs?
    Question 25d. How will the Forest Service ensure that FMPs utilize 
the best available science, include public input, and fully comply with 
NEPA?
    Question 26a. According to the Federal Wildland Fire Policy, a 
current, approved FMP is required in order to implement WFU. The Forest 
Service is currently revising its Manual in order to remove any 
requirement for completing FMPs. If FMPs are abolished, this may 
prevent the option of WFU which is a safer and cheaper method for 
managing wildland fires than full suppression.
    Why is the Forest Service removing requirements for FMPs from its 
Manual?
    Question 26b. If FMPs are no longer required on National Forests, 
how can land managers implement WFU?
    Question 26c. How will the Forest Service be in compliance with the 
Federal Wildland Fire Policy if it implements WFU without FMPs?
    Question 26d. What effect will withdrawing FMPs have on the 
planning efforts of interagency partners?
    Question 27a. here are approximately 40 million acres of Fire 
Regime I and III (short-interval or high fire frequency with low 
severity) that have been identified in Condition Class II or III 
(moderate to high fire danger due to missed fire cycles). These 
ecosystems benefit from prescribed burning or WFU, and rapidly degrade 
to a high wildfire danger without regular, repeated burning.
    How many acres of forests and grasslands in Fire Regimes I and III 
have been prescribed burned in the last year? In the last five years?
    Question 27b. What percentage of the total acreage of land in Fire 
Regimes I and III is this amount?
    Question 27c. What is the reason for failing to increase amount of 
prescribed burning or WFU on these lands?
    Question 28a. Of the 1.1 million acre Colville National Forest, 
approximately 300,000 acres are in immediate need of thinning and fuels 
reduction activities--in the short-term 20,000 acres could be treated 
there annually. At least one-third of this 300,000 acres is inside the 
wildland urban interface and consists of dense timberlands that must be 
mechanically thinned. Local counties have prepared community wildfire 
protection plans that support this need and a collaborative group of 
stakeholders, including the conservation community, have been in 
support of large-scale thinning projects for nearly two years. 
Unfortunately, the Forest Service has been unable to move anywhere near 
fast enough to prepare these large-scale projects and the local mills 
are struggling to survive. We will lose the ability to do this work 
economically if we lose more mills.
    Can you explain the reasons for the delays on the Colville?
    Question 28b. Can you please provide me a list of the planned 
future projects on the Colville and the number of acres to be treated, 
as well as funding available to that forest in FY 2005 to FY 2007?
    Question 29a. The Administration's 2008 budget request continues a 
downward trend in funding for community fire protection programs. 
Programs such as State and Volunteer Fire Assistance are critical in 
helping communities prepare for wildland fire--through firefighter 
training, hazardous fuels reduction on non-federal lands and Community 
Wildfire Protection Planning. These proactive steps are also key in 
reducing federal suppression costs. However, under the President's 
Budget these programs continue to struggle to simply keep up with 
inflation. This budget proposes, for example, that the State Fire 
Assistance program be reduced to $68.1 million, a 14 percent cut from 
the FY2007 level of $78.7 million.
    How will the Forest Service help ensure that at-risk communities 
are adequately prepared for the inevitable wildland fire when community 
assistance programs are under-funded and funding for them continues to 
decline?
    Question 29b. How do State Fire Assistance funds help meet 
Congress' goals as stated in the 10-year Strategy Plan and the Healthy 
Forests Restoration Act?
    Question 29c. Are State Fire Assistance funds matched or leveraged 
at the state and local level? If so, what sort of leverage do State 
Fire Assistance funds provide and to what benefit?
        Responses of Mark Rey to Questions From Senator Domenici
    Question 30. If the Forest Service did not have to fulfill the 
requirements of NEPA and if it were insulated from legal challenges, 
how many acres of mechanical treatment could it accomplish a year with 
$1.5 billion dedicated to treating the forest stands that are 
considered to be at high risk in Stand Condition Class II and III 
areas?
    Question 31. In September of 2006, Congress provided the Forest 
Service $100 million to repay the fire borrowing that occurred during 
that fiscal year.
    Have those funds been used to repay the fire borrowing that 
occurred that fiscal year? If not, why have they not been repaid?
    Question 32. Just a couple of weeks ago, Congress provided the 
Forest Service another $400 million in emergency fire fighting funding.
    Can you tell me how much of that $400 million will be withheld from 
the field in the form of National and Regional Office overhead and 
other national assessments? Please give me your answer as a percent of 
the total $400 million.
    Question 33. Are the Forest Service's fire fighters fully prepared 
for this fire season?
    Question 34. I saw a letter from five former chiefs of the Forest 
Service about the cost of fire. I am wondering what each of the five 
Chiefs did to control the cost of fire.
    Question 35. Chief R. Max Peterson served between about 1978 and 
1987. In terms of percent of the discretionary budget, how much did the 
fire programs cost annually on average during his tenure? Please 
include fire preparedness, fire suppression, and hazardous fuels in 
your cost estimate.
    Question 36. Chief Dale Robertson served between 1987 and 1994.
    In terms of percent of the discretionary budget, how much did the 
fire programs cost annually on average during his tenure? Please 
include fire preparedness, fire suppression, and hazardous fuels in 
your cost estimate.
    Question 37. Jack Ward Thomas served between 1994 and 1997 and he 
convinced Congress to provide the agency an additional $2 billion for 
the national fire plan. Most of that funding went into the fire 
fighting accounts.
    What steps did he take during is tenure to control the cost of fire 
fighting?
    Question 38. Michael Dombeck served from 1997 to 2001 and costs 
continued to escalate.
    What steps did Chief Dombeck take to decrease the cost of fire 
fighting?
    Question 39. Dale Bosworth served from 2001 to 2007.
    What steps did he take to reduce the cost of fire fighting in the 
agency?
    Question 40. Have you taken the time to look back at how the 
program was run during the Max Peterson and Dale Robertson era to see 
if perhaps some of the practices and policies adopted during those eras 
might need to be reconsidered?
    Question 41. I saw a February 21st Yakima Herald-Republic news 
article that said 23 percent of 3,300 fire fighters who participated in 
a survey would decline to serve as an incident commander, and 36 
percent of those surveyed indicated they would decline fire fighting 
assignments this next summer as a result of the recent involuntary 
manslaughter charges resulting from the Thirtymile Fire case.
    Are you familiar with this survey which was done by the 
International Association of Wildland Fire Fighters?
    Question 42. How much credence do you put into this survey?
    Question 43. What percent of your Level I and Level II Incident 
Commanders and key members of those teams have opted to forego working 
on those teams this fire season?
    Question 44a. Could you provide the Committee with the following:
    An estimate of how much of the discretionary budget is consumed by 
salaries, benefits, and travel for each of the following work areas: 
Research, State and Private, National Forest Systems; and the national 
fire plan.
    Question 44b. An estimate of how much of the discretionary budget 
is expended at the following line levels: the Washington Office; the 
Regional Offices; the Forest Supervisors Offices; the District Offices; 
and the Research Stations.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

       Statement of the Federal Wildland Fire Service Association
                                preface
    The FWFSA recognizes the significant time constraints placed on the 
Committee members. Much of our commentary pertaining to preparedness 
levels is based upon information submitted to this Committee in our 
January 30, 2007 written testimony concerning Wildland Fire Suppression 
Cost Containment.
    That being said, we will attempt to keep the instances of 
redundancy to a minimum in this testimony and ask the Committee members 
and all other interested parties to refer to our January 30, 2007 
testimony as entered into the record.
                  the agency spin on fire preparedness
    Year after year representatives from the USDA and the Forest 
Service appear before this and other committees of jurisdiction and 
recite the same refrain: ``. . . we are fully prepared for the fire 
season.'' In March of 2006 as a fire season that will live in the minds 
of many firefighters who lost too many colleagues; to others who saw 
record-breaking acreage burned as well as record-breaking expenditures 
in suppression, USDA Undersecretary for Natural Resources and the 
Environment Mark Rey once again repeated the all too often heard phrase 
``. . . the Agency is fully prepared for this season.'' He went on to 
report that ``We think what we've allocated (for fires) is going to be 
appropriate and adequate for the task.'' How wrong he was!
    These rhetorical claims of preparedness echo those of previous 
testimony from the ONLY voice Congress has heard from on such matters, 
Agency representatives. Additionally, despite stunning expenditures in 
suppression, losses of firefighter lives and all that is a wildfire 
season, the Agency continues to suggest each year that it has achieved 
a 98-99% initial attack (IA) capability without providing any hard data 
to validate such claims.
    The FWFSA, whose members fill every conceivable fire position in 
each land-management agency from entry-level firefighter to Fire Chief 
simply must refute such statements as misleading and inaccurate.
                         the national fire plan
    A key component of the National Fire Plan is fire preparedness. The 
concept is fundamental in that being properly prepared will lead to 
reduced suppression costs. The text of the NFP states, pertaining to 
preparedness ``Assuring that necessary firefighting resources & 
personnel are available to respond to wildland fires that threaten 
lives & property.''
    Despite this component, the Administration continues to reduce 
preparedness funding & increase suppression funding. Furthermore, the 
Agency has refused to educate the Administration via OMB that the 
priority should in fact be preparedness & not suppression. 
Undersecretary Rey stated categorically before the record-breaking 2006 
season that ``while money for fire preparation has been cut, the Agency 
has increased funding for fighting fires once they have started.'' Thus 
the Administration and the Agency have embarked on wildland fire 
preparedness policies that contradict the National Fire Plan. These 
policies needlessly lead to significantly inflated suppression costs.
                      the 2006 preparedness truth
    At the same time Mr. Rey was providing the aforementioned testimony 
to Congress & the Press, federal wildland firefighters across the 
country employed by the Forest Service were being informed by their 
Regional Forest Service offices of significant cuts to preparedness 
resources. Although Mr. Rey was candid about the reductions in 
preparedness allocations, no one in Congress bothers to ask why.
    Although our previous testimony refers to this issue it bears 
repeating. Hundreds of millions of dollars in fire preparedness & fuels 
funding appropriated by Congress continued to be systematically 
diverted by the Washington Office (WO) and a host of line officers from 
Regional Foresters to Forest Supervisors & District Rangers to fund a 
variety of non-fire projects. The most visible illustration of this is 
the HR Service Center in New Mexico, part of the Forest Service' 
Business Operations Transformation Program. Despite the Forest Service 
patting itself on the back and testifying that the service center 
became operational in 2005, it most certainly is not. At one point, Mr. 
Hank Kashdan, Deputy Chief of Business Operations explained why the 
move to Albuquerque had been so costly. The WO had no idea that ``T-1 
data lines'' were not available to most field stations and that the 
entire internal field level dependent customers were left to travel in 
excess of 25 miles to perform basic transactions. In just one Forest 
Service region, unfunded preparedness resources included: 48 engines, 
7-Type 1 Hand crews, 1 Type 2 Hand Crew, 12 water tenders and misc. 
resources such as prevention personnel, dozers, dispatchers and 
approximately 515 firefighter positions not being staffed.
    In fact, a Forest Supervisor in California sent a memo to Forest 
employees dated 3-30-06 which stated in part:

  <bullet> We are having great difficulties financing our current 
        organization as structured with our current funding level & 
        possibility of facing a RIF.
  <bullet> Unable to fill critical positions currently vacant due to 
        funding limits.
  <bullet> Centralization of many administration functions (HR move to 
        New Mexico) has left us unable to meet the additional residual 
        workload in these areas.
  <bullet> Further analysis shows that the number of employees we need 
        on this Forest exceeds the amount of money we receive (from the 
        Washington Office).
  <bullet> Anytime an effort such as this is announced, there will be 
        stressed. Employees become concerned about whether or not they 
        will have a job in the end.

    Until the 2006 fire season, such unfunded preparedness resources 
were not an issue because the Forest Service allowed Forests to operate 
with a deficit budget. For the 2006 season, former Forest Service Chief 
Dale Bosworth indicated that deficit spending would no longer be 
allowed.
    Suddenly as the 2006 Season commenced, Fire Management Officers 
were dealing with unfunded preparedness resources; a staggering 
retention problem and having to figure out how to best prepare for the 
season. Many engines were staffed with only 3 personnel instead of 
five. Many engines operated only five days a week instead of 7.
    Still, before the season truly took off, the FWFSA implored 
Congress to recognize the consequences of a fire season disaster of 
unfunded preparedness resources and uncontrolled retention problems.
                evidence of lack of preparedness in 2006
    There is no question in our mind that the lack of federal 
preparedness resources in 2006, caused primarily by the systematic 
diversion of such funds to non-fire projects, cost pools, admin costs 
etc., needlessly increased suppression costs and increased the risk to 
our firefighter's safety.
    There are many incidents that occurred during the 2006 season, (one 
in which Mr. Rey claimed to be adequately prepared for) that 
illustrated the lack of preparedness. As we have previously testified 
to, lists referred to as ``Unable to fill lists'' compiled by The 
National Interagency Fire Center (NIFC) in Boise, Idaho which 
traditionally were sentences long, were now pages long. These lists 
note the resources requested and the incident requesting it. Simply 
put, requested federal resources were unavailable.
    Federal fire preparedness resources that Congress appropriated 
money for simply were not in place during the 2006 season. As a result, 
fires that should have been handled on initial attack instead grew in 
size, intensity, danger and of course cost while either awaiting 
federal resources from much greater distances or because significantly 
higher-priced non-federal resources were summoned.
    We informed Congress as early as February 2006 that without these 
preparedness resources being funded, the Agency would exhaust its 
suppression budget, exhaust the reserve $500 million and by the fall, 
seek an emergency supplemental appropriation for suppression. All came 
true.
                            budget transfers
    As long ago as March 2004 before this very same committee, Mr. Rey 
stated that the Agency would ``support a solution to the fire transfer 
issue.'' This was in response to a comment from Senator Bingaman that 
he ``was concerned about the chronic failure to address the chaos of 
fire transfers to meet fire suppression needs.''
    Yet as recently as August of 2006, former Forest Service Chief Dale 
Bosworth was notifying his Regional Foresters of his ``concern about 
the seriousness of this year's fire season and the mounting costs and 
threat of fire funding transfers.'' As the FWFSA predicted to Congress, 
the suppression funds were wiped out within weeks of this memo from 
Chief Bosworth and additional funding sought. Apparently as of August 
2006, there is no solution to the budget transfer problem.
                         history repeats itself
    In the fall of 1995, nearly 12 years ago, a Fire Management Officer 
from the Angeles National Forest in California was interviewed and 
quoted in the Los Angeles Times about temporary firefighters being laid 
off at the height of the season as the Forest was facing a budget cut 
of $2 million. The FMO indicated that on the ANF, 130 temporary 
firefighters (those paid for through preparedness funding) were being 
laid off. Additionally, the San Bernardino National Forest (location of 
last year's Esperanza Fire tragedy) was laying off 120 temporary 
firefighters and similar layoffs were reported on the other two 
Southern California Forests, the Cleveland & Los Padres. The FMO went 
on to say that engine companies ``will respond with three person crews 
instead of five'' and that fire stations would no longer operate seven 
days a week. He went on to say that Forest Service firefighters would 
need to rely more heavily on municipal & county firefighters (already 
costing 4-5 times that of their federal counterparts).
    The FMO went on to say that the staffing reductions carry ``an 
inherent increase in risk.'' He was quoted further as saying:

          The key in wildland forest management is `Hit them hard & 
        keep them small.' If you hit a fire hard at the beginning, it 
        won't become a danger to anyone but the firefighters. Its when 
        a fire escapes that it causes problems . . . And as far as 
        what's going to happen with fires escaping, well, that's going 
        to be a crapshoot now.*
---------------------------------------------------------------------------
    * The FMO on the Angeles National Forest in 1995: Tom Harbour, now 
Fire & Aviation Management Director for the Forest Service.

    In response, to the cuts, Harry Croft, Asst. Director for Planning 
in the Fire & Aviation Dept. of the WO blamed ``a lack of planning at 
the national forest level.''
    How prophetic the comments of the ANF FMO would be in 2006. These 
same comments were echoed throughout last year and have already been 
spoken this year.

                    2007 preparedness: are we ready?
    Despite the annual assurances from the Agency that it is adequately 
prepared for the 2007 fire season, our firefighters, the true experts 
on the matter, say otherwise and the facts support their concerns.
    On the San Juan National Forest in Colorado, the Forest's Workforce 
Planning Group incredulously chose to cut 17 fire positions. The losses 
of the highly trained and experienced firefighters are set to commence 
this year. We have implored the offices of Senators Allard & Salazar to 
take action to stop these cuts.
    In California (Forest Service Region 5), the scenarios prove even 
more dire. On just one ranger district on the very same Angeles 
National Forest that Mr. Harbour served on, there is a 46% vacancy rate 
in fire positions. In fact, the former fire chief of the ANF recently 
abruptly retired. Shortly before he did, he confided in the FWFSA's 
Business Manager Casey Judd that the Forest Service' fire program was 
``falling apart at the wheels.'' Subsequent to his loss, the Deputy 
Fire Chief will be forced into retirement within the next month leaving 
no fire leadership on the forest as the season starts.
    To compound California's problems, a significant number of 
firefighters, engineers (fire apparatus operators) & captains have left 
the federal system for CAL-FIRE (formerly California Dept. of Forestry 
& Fire Protection) for better pay & benefits. This, coupled with a 
seriously dysfunctional hiring process and unfunded preparedness 
resources has created serious staffing shortages. In a recent memo to 
ANF employees, Forest Supervisor Jody Noiron pointed out the obvious: 
``As with other forests in the region, the ANF currently has a 
significant number of vacancies.'' Fire Management Officers are having 
to treat employees as chess pieces in an effort to maximize staffing. 
Despite heroic efforts, engines remain completely un-staffed as do 
other support apparatus such as water tenders. This had led to letters 
from the public being sent to Forest Supervisors urging them to re-open 
stations and staff engines.
    To further compound this problem, as a result of the ``exodus'' to 
CAL-FIRE, the number of very limited to no experienced firefighters 
being asked to hit the front lines is enormous. Stunningly, in many 
locations, Forest Supervisors (most with little to no fire experience 
or expertise themselves) are making it clear to the FMOs in charge of 
ensuring these new firefighters are ready & trained for the season, 
that the priority is for these new firefighters to complete their 
AgLearn courses, leaving little time to prepare for the fire season.
    The situation could only get worse as the season wears on. In July, 
it is expected that CAL-FIRE, since getting approval from the Governor, 
will be able to go to outside hiring for chief officer positions and 
has already targeted a number of Forest Service FMOs. Additional losses 
in those ranks will create absolute chaos in the fire program in 
California and there are questions as to whether it will remain viable.
              where's the forest service air tanker plan?
    Last summer, USDA's Mark Rey promised that a new Agency air tanker 
plan would be submitted this Spring. As of the hearing date set for 
June 5, 2007, that will leave approximately 2+ weeks before summer 
officially starts. As of May 28, 2007, no member of Congress has seen 
the promised air tanker plan which obviously plays a key role in 
preparedness for the season.
    It had been hoped that Mr. Rey would have delivered on his promise 
by now or at the very least mention the plan at the recent Senate 
Subcommittee on Interior Appropriations hearing. No comments were 
forthcoming and no questions as to the plan were offered by committee 
members.
                               conclusion
    The commentary provided in this testimony, coupled with that of our 
January 30, 2007 testimony on suppression costs paints a dire picture 
of preparedness & cost containment for this season and suggests that 
unless Congress makes some serious changes, the status quo will 
continue from season to season.
    It stands to reason and common sense would dictate that being 
properly prepared would 1) improve firefighter safety and better ensure 
the safety of citizens 2) significantly reduce the costs of 
suppression. We cannot understand why this basic fundamental principle 
is being ignored by the Administration and the Forest Service.
    As offered in previous testimony, we firmly believe that policy, 
more than climate, urban interface etc., is driving suppression costs 
skyward. Being properly prepared significantly mitigates the impact of 
climate (drought, lightning strikes) and urban interface.
    Preparedness funds appropriated by Congress must not be diverted or 
siphoned off for non-fire projects, cost pools etc. Given that 
temporary firefighters make up nearly 46% of staffing each season, 
these funds are essential and must not be abused.
    Congress must also address the archaic pay & personnel policies 
which are forcing so many of our federal firefighters to waste the 
investment our American taxpayers have made in them and transfer to 
state & municipal fire agencies.
    We categorically disagree with Mr. Rey's position on such losses in 
which he has stated, ``it doesn't matter, we'll see them again on the 
fire line.'' We may in fact see them on the fire line again at 4-5+ 
times the cost to the American taxpayer. That is neither cost-effective 
nor cost-efficient fiscal management
                                 ______
                                 
 Statement of Albert C. Hyde, Senior Consultant, Center for Executive 
                  Education, The Brookings Institution
    Thank you Chairman Bingaman and other distinguished members of this 
committee for the opportunity to appear and present testimony for this 
hearing on the preparedness of the federal land management agencies for 
the 2007 Wildfire season and to review recent reports on agency cost 
containment efforts. This testimony is presented on behalf of the panel 
members of the large wildfire cost review panel which delivered its 
report in May 2007.
    These six panel members (Mr. Richard Clevette, Ms. Lauren Cragg, 
Mr. Gary Morgan, Lieu. Jeffrey Rubini, Mr. Frank Shelley, and Dr. John 
Shelley-along with Dr. Sharon Caudle with GAO who served as a senior 
advisor) were specifically chosen as external reviewers. Two were 
former senior fire management executives from Canada and Australia, two 
Coast Guard experts in incident and risk management, one a private 
sector risk management executive and consultant, and a forest science 
researcher in academia.
    While the Panel's work was managed under a contract with the 
Brookings Institution, the Panel was an independent undertaking and the 
findings and perspectives expressed in the report are solely those of 
panel members.\1\
---------------------------------------------------------------------------
    \1\ As with any study or publicized work, it is important to note 
that the analysis and views expressed in the report are soley those of 
its authors and members, and do not reflect the views of the Brookings 
Institution, its Trustees or its research staff.
---------------------------------------------------------------------------
    I appreciate this opportunity to summarize the findings from the 
panel's work and to present their recommendations on the complex issues 
of large-fire suppression costs management.
                   panel's review of fiscal diligence
    Before delving into the panel's findings, it should be noted that 
this was not the first such fiscal and strategic review report of large 
fire costs on an incident basis. Both in 2004 and 2005, another 
independent panel. chaired by a former deputy regional forest 
supervisor, Mr. Richard Ferraro, assessed five fires in three regions, 
two of which exceeded 100,000 acres in size. This 2006 large fire 
review covered a much larger group of fires: 20 fires in five regions, 
covering 17 National forests in six states. These 20 fires had 
suppression cost approaching $500 million in total, exclusive of burned 
area emergency rehabilitation costs and accounted for over 1.1 million 
burned acres. One fire (Sawtooth) was excluded as a state managed fire.
    Reports by an independent review panel to examine fire suppression 
costs for wildfire incidents are required by appropriation language 
that states for all fires that exceed $10,000,000 in cost, an 
independent review is required to: ``Determine if the Forest Service 
exercised fiscal diligence in managing specific incident suppressing 
activities.'' This was the first task for the Panel and it formally 
voted ``No'' in terms of the forests having exercised inappropriate or 
inadequate fiscal diligence for each of the 19 fires assessed, just as 
the 2004 & 2005 panel reports found.
    This review of fiscal diligence was not taken lightly. A final vote 
was taken at the end of each site visit on the 16 forests where the 
fires occurred (four forests had two fires each exceeding the $10 
million mark). These site visits featured strategic discussions of pre-
fire conditions, extensive discussions of the fire chronology and 
suppression actions and results, and assessments of cost management and 
fire outcomes. The forests were asked to provide extensive 
documentation on all aspects of the wildfire incident--land management 
and fire management plans, fire progression maps and situation reports, 
the wildland fire situational analysis (WFSA) and delegation of 
authority letters, incident management team reviews, cost reports, and 
post fire documents--burned area emergency restoration and fire 
severity reports, among others.
               cost management issues at the forest level
    A second objective of the Panel was to focus on strategic decisions 
and actions, compliance with policy and law, and risk analysis and 
management. The Panel was to address cross-cutting cost management 
issues and potential strategies that could impact fire suppression 
costs at strategic levels. Cost management begins at the Forest level 
but is increasingly a regional and national issue.
    However the dilemma facing national forests over containing 
suppression costs and protecting resource values inside the forest and 
communities at risk outside the forest is both real and difficult. 
Agency administrators, certainly the ones interviewed in this review, 
understand the critical importance of balancing those risks, knowing 
that large wildfires are commanding a greater share of the agency's 
budget. At the same time, their span of control over suppression costs 
is small. The use of incident business advisors (IBAs), daily cost 
reporting, assertive monitoring of requisitions for equipment and 
supplies, and releasing crews and assets at the earliest possible 
moment can and does save money. The Panel recognized and commended the 
efforts made to ensure proper ``fiscal vigilance'' is in place on large 
wildfires. It is essential that national forests and IMTs work 
constantly at eliminating even the appearance of waste, abuse, and 
potential conflict of interest. But such savings, when they happen, are 
marginal at best and not a key to significant cost management.
    The Panel noted that while the ultimate management control and 
fiduciary responsibility rests with these agency administrators, their 
real decision space, especially to affect costs, is very limited. Once 
a wildfire escapes initial attack control efforts, it quickly escalates 
through extended attack to much more than the simple management of an 
incident. Factor in the difficulties of managing multiple fires under 
one management (complexes), long duration fires (campaigns) or cross 
jurisdictional concerns, and fire incidents develop into complex 
situations. And most of the 19 fires reviewed for this report were 
characteristically multiple fires, lasting multiple days, and crossing 
multiple boundaries.
    Adding to the forest supervisors' dilemma is the perception of 
values at risk. In some cases, most notably Southern California, every 
large wildfire is viewed as a high-risk wildland urban interface (WUI) 
fire potentially threatening thousands of homes and millions of dollars 
of commercial and property interests. In remote locations, forests 
would consider watersheds, species habitat, recreational and grazing 
interests, and the recognition that there are few wilderness areas left 
that are big and isolated enough to simply let a large wildfire ``run 
around uncontrolled''.
    The business case of the values being protected from large 
wildfires may sometimes be overstated, but every forest's assessment of 
values has its own merits. Additionally critical species habitat and 
watersheds, while often identified, were difficult to place a tangible 
value on. This can in part be attributed to the lack of a decision 
strategy model that can factor in non-monetary values at risk. But in 
terms of socio-economic factors (commercial interests, large employers, 
elected officials' priorities, historical landmarks, etc.) there are 
always values around which a compelling case for suppression action can 
be made. The real problem is that while every forest has a rationale 
for assessing the values at risk that is useful in defining a fire 
specific suppression strategy; when viewed from the cost management 
perspective it is difficult to see how this approach helps the forest 
to convey forward the information needed to assign suppression 
priorities on a regional or national level in an era of limited 
suppression resources.
    Agency administrators hoping to confine and possibly fight fire 
less aggressively to contain cost, increasingly confront situations 
where the best place to fight and contain large wildfires that start 
inside the forest is outside the forest boundaries and often in 
conflict with neighboring priorities. Considering the apparent increase 
in large, complicated fires and the competing demands of protecting 
natural resources, protecting the desires of the forest's neighbors, 
and containing costs, agency administrators will increasingly need to 
develop strategies that do not stop at the forest boundary.
                    strategic cost management issues
    The Panel chose to focus much of its inquiry into cost management 
strategies that could potentially impact fire suppression costs at 
larger levels. The panel adapted as its analogy A business sector 
example that for fire cost management, forest and IMT strategic 
decisions should be focused on understanding why and where fire costs 
tended to increase, rather than why administrators and incident 
commanders were unable to reduce costs. Such an analogy may be even 
more apt if future predictions about the probability of average fire 
years in the range of 8 to 12 million acres a year prove true.
    Four issue areas were addressed that could, in the view of the 
Panel, potentially help impact suppression costs and future increases 
in wildfire costs at much higher levels. Recommendations were developed 
(they are included at the end of this statement) for the following:
   1. land management and resource plans and fire management plans as 
     strategic frameworks for managing fire suppression investment
    The Land Management (and Resource) Plans (hereafter referred to as 
simply LMP) and the Fire Management Plans (FMP) are the two main 
documents that provide direction and guidance for all the activities 
undertaken by a national forest in managing all the resources of the 
forest. The FMP is in a sense an extension of the LMP that specifically 
addresses all management issues related to fire, whether they are 
wildfires, wildland fire use fires, or prescribed fires. If these two 
documents are not aligned and linked and the FMP does not directly 
reference the guidance of the LMP, conflicts or confusion may arise. 
Previous reviews of large fires have mentioned this potential confusion 
as a source of concern. The Panel examined the two documents relevant 
to each fire and evaluated how well the documents work together as 
tools for guiding wildfire suppression strategy.
    The Panel concluded that much could be done to improve these two 
critical documents. While the current legal situation of the LMPs is 
problematic, there is perhaps now a ``strategic opportunity'' for 
future revisions of the plans to address the impacts of climate change 
and forest health, including recent fire history as a core element. 
Fire management plans are largely static documents that are used as 
internal program reference sources by design. The panel strongly 
recommended refocusing Fire management plans to:

  <bullet> assess in depth and continually update fire history since 
        2000 in terms of expected fire behavior, intensity, and risk;
  <bullet> monitor growth of the WUI and compare fire management 
        priorities and protection policies with state, local, tribal 
        neighbors--and private and public interests in a highly 
        collaborative process;
  <bullet> refine and explain cost management expectations for fire 
        management programs (Prevention, Fuels Reduction, Suppression, 
        and Restoration);
  <bullet> create a strong linkage from the FMP to the WFSA process.
 2. the wildland fire situational analysis and delegation of authority 
            as fire suppression management and cost factors
    At the outset of a potential large escaped fire, forests are 
required to complete a situational assessment and complexity analysis 
to both determine what type of incident management team to request and 
to scope the proposed fire effort. These assessments are completed by 
the forest fire staff, resource planners and district rangers for 
review by the forest supervisor. Once the agency administrator has 
approved and signed the WFSA, it along with a delegation of authority 
letter, is passed to the incoming IMT commander. Both documents are 
included in the briefing package for the newly arriving IMT.
    As might be expected, the WFSA is most problematic on large 
wildfires. The Panel heard mixed messages about WFSAs. It seems many 
administrators agree with the premise that the process can help focus 
thinking, encourage collaboration, and assist in formulating 
suppression strategies. But, as it is currently implemented the WFSA 
process falls short in effectively reaching any of these goals. All 19 
of the initial WFSAs selected target in terms of predicting the size of 
the fire (acres burned) and choosing suppression strategy were exceeded 
by the actual final size of the fire. WFSAs also include a worst case 
scenario, and even that estimated size was below the fire size 
approximately half the time. The panel concluded that the current WFSA 
process on these fires was inadequate in helping forests determine 
their suppression strategy, concurring with the comments of several 
forest supervisors that the WFSA failed in ``forcing us to think big 
enough.''
    The Panel also reviewed the delegation of authority letter. This 
document is vital because it provides the IMT commander legal authority 
to operate and make decisions on behalf of the line officer. This 
review revealed that in the vast majority of cases (16 out of 19 fires) 
it was a standard form letter with little detail specific to the 
wildfire. It referenced the WFSA and included text reaffirming public 
and firefighter safety. In only two or three instances did the 
delegation of authority letter include a specific cost containment 
objective.
    Several recommendations were made on WFSAs and Delegation of 
authority letters to change the content, timing, and levels of 
collaboration. The panel urged that WFSAs develop and contain scale-
down triggers for resource management, especially with regard to the 
length of time Type I and Type II teams remain on fires. Likewise, on 
campaign or longer duration fires, there should be mechanisms for 
switching procurement and resource ordering strategies from short term 
to long term.
      3. incident management team structure & transitions as fire 
                        suppression cost factors
    Large fire management is a complex interaction between local forces 
on the national forest where the fire breaks out and the various 
nationally and regionally assigned incident management teams who come 
to the forest to lead the suppression effort. Current policy limits 
assignments to 14 days for national teams, although some teams depart 
early and occasionally a team will extend past the 14 day deadline. 
National Type I and Type II teams are essentially franchise assets with 
their assignments being carefully monitored with an expectation that 
they will be assigned to the most complex and highest priority 
situations.
    The panel saw several significant issues with the assignment and 
use of incident management teams and found transition costs due to IMT 
deployment time limits and rotations were rising. The panel also found:

  <bullet> Flexibility and agility of IMTs are not currently core 
        strengths. IMTs are founded on consistency and reliability 
        which is ingrained in their structure, team member selection, 
        and training and development. Understanding the need to staff 
        fully supported IMTs, some of the core ICS tenants must change 
        to have scalable and flexible IMT organizations. Lack of 
        management flexibility adds to cost.
  <bullet> Type III IMT in-house capabilities for handling the end 
        stages of incidents are often regarded as insufficient. The 
        Panel's review looked especially hard at the last 20% of the 
        fire cycle-namely, how long it took the forest to get the fire 
        turned over to a local type III team and hence a lower cost 
        expenditure level. Many Type I and II IMTs remained on scene 
        after the fire exhibited other than Type I incident 
        characteristics. Comments during the site visits were 
        repeatedly made that additional time on scene generated costs 
        that would not have been incurred if the Type III IMT had the 
        needed capacity to take over.
       4. formulating a new collaborative cost management strategy
    There is general recognition and acceptance from IMTs and field 
personnel to agency administrators of the importance of keeping fire 
suppression costs in check. However, no one is exactly sure what cost 
management means or how to achieve it other than exercising various 
forms of fiscal vigilance on resource ordering and usage. Asked about 
the escalating costs for the full range of assets used on large 
wildfires, fire staff would generally reply that people had to 
understand fire fighting is expensive, but still cost-effective 
considering the potential losses averted. Similarly, in the panel's 
interviews with Forest Supervisors, line officers would note that when 
wildfires reach large sizes, there is enormous social and political 
pressure to use every available resource, regardless of cost, to 
control the fire.
    In this last issue area, the Panel attempted to address some of the 
political and economic factors that must be confronted if cost 
management strategies are to have any chance of keeping fire costs from 
growing even larger. These factors included understanding the complete 
cost cycle on large wildfires. Costs are large on wildfires in part 
because different actions are being taken and then lumped into one 
incident cost. Initial Attack costs are not reported. Likewise, 
demobilization, rehabilitation and restoration efforts towards the end 
of the fire are not broken out. Burn-out operations, often taken at the 
end of the incident are not accounted for separately and actually add 
acres to the final fire size. Each of these components has cost 
implications and should be tracked from fire origin to completion of 
the burned area emergency restoration work.
    While some of these components are covered by different budget 
funding codes, at the forest (and regional level) there is not an 
accounting of the separate phases, core activities, and cost 
implications within each large wildfire.
    The panel's final main point remains that collaborative cost 
management must be both strategic and innovative. It should focus on 
national and regional costs and contracts and not induce forests to try 
to contain costs by searching for the cheapest resources. However, it 
should also draw IMTs and forests and contract suppliers into a 
productive search for ``constraints-driven'' solutions and cost 
innovations. Finally, collaboration should include clarifying 
protection priorities, suppression objectives and cost between the 
national forests and neighboring jurisdictions beyond current practice 
of agreeing on protection boundaries and responsibilities.
                       Summary of Recommendations
           the complete list of panel recommendations follows
Land Management & Fire Management Plans
          1A. Develop guidance for future revisions of land management 
        plans. Future land management plans would incorporate elements 
        on fuels reduction activities, changes in the Wildland Urban 
        Interface, the impacts of climate change and forest health, 
        including fire history as an integral component.
          1B. Transform the fire management plan from a static, program 
        reference document to a strategic assessment of fire management 
        planning and policies. The fire management plan would factor in 
        fire protection policies with state, local, tribal neighbors, 
        cost management expectations, and establishes a strong linkage 
        from the fire management plan to the wildland fire situational 
        analysis process.
          1C. Expand appropriate management response guidance beyond 
        the model and textual boilerplate currently found in most fire 
        management plans.
Wildland Fire Situational Analysis (WFSA) and Delegation of Authority
          2A. Encourage more collaboration in the WFSA process while 
        rethinking the WFSA process to allow incident management teams 
        and line staff to jointly develop wildfire strategies through 
        (WFSA or replacement process for the WFSA), within 36 hours 
        from the time of assignment.
          2B. Address options for short term and long term management 
        of suppression resources. WFSAs should develop and contain 
        scale-down triggers for resource management, especially with 
        regard to the length of time Type I and Type II incident 
        management teams remain on fires.
          2C. Make delegation of authority letters strategic documents. 
        They should contain specific statements outlining larger 
        suppression objectives, resource values and final restoration 
        concerns, and expectations about containing fire cost growth.
Incident Management Team Structure and Transitions
          3A. Tailor more agile incident management teams to the needs 
        of the incident, as opposed to a standard incident management 
        team formula. Make teams more adaptable towards selective 
        deployment capability.
          3B. Enhance local Type III incident management teams to 
        provide for a more robust capability during incident close out 
        while capitalizing on state and local resources to provide 
        additional protection resources or to supplement the incident 
        management team.
          3C. Instill more flexibility when committing incident 
        management teams to prolonged large fire operations. By pre-
        setting trigger points (up/down/maintain) based on incident 
        complexity and tactical resource commitments that indicate a 
        need to rescale incident operations, particularly during the 
        closing phases of fire fighting operations.
Formulating a New Collaborative Cost Management Strategy
          4. Formulate a collaborative cost management strategy that 
        provides a better picture of fire suppression costs over the 
        incident span, establishes short term and longer term cost 
        plans for fire resource ordering and procurement, and reaffirms 
        the regional and national role in pricing fire resources 
        (federal, state & local, private contractor and military).

                                         TABLE 1--FY 2006 FIRES THAT EXCEED $10 MILLION (REVIEWED BY LFC PANEL)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                          Size     Cost
                Fire                           Dates                    State               Region/Forest              County           (acres)    ($MM)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Derby...............................  Aug 22--Oct 3..........  MT....................  1/Gallatin and Custer.  Sweet Grass,              223,570    22.5
                                                                                                                Stillwater, Park.
Potato..............................  Jul 27--Aug 25.........  ID....................  4/Salmon-Challis......  Custer................     18,236    14.1
Red Mountain........................  Aug 14--Sep 24.........  ID....................  4/Boise...............  Boise.................     35,482    13.7
Rattle-snake........................  Aug 21--Oct 3..........  ID....................  4/Boise...............  Valley................     45,500    13.2
Bar Complex.........................  Jul 23--Oct 15.........  CA....................  5N/Shasta-Trinity.....  Trinity...............    100,024    66.0
Pigeon (pt of Bar)..................  Aug 2--Sep 7...........  CA....................  5N Shasta-Trinity.....  Trinity...............     in Bar    22.0
Orleans Complex.....................  Jul 24--Aug 31.........  CA....................  5N/Six Rivers.........  Humboldt, Siskiyou....     15,710    16.9
Uncle Complex.......................  Jul 23--Oct 15.........  CA....................  5N/Klamath............  Siskiyou..............     30,425    14.7
Happy Camp..........................  Jul 23--Sep 24.........  CA....................  5N/Klamath............  Siskiyou..............      6,134    12.5
Ralston.............................  Sep 5--Sep 19..........  CA....................  5N/Tahoe..............  Placer................      8,423    13.0
Hunter..............................  Jul 24--Aug 7..........  CA....................  5N/Mendocino..........  Mendocino.............     16,297    12.1
Day.................................  Aug 4--Oct 5...........  CA....................  5S/Los Padres.........  Ventura, Los Angeles..    162,702    73.5
Horse...............................  Jul 23--Aug 1..........  CA....................  Cleveland.............  San Diego.............     16,681    13.7
Sawtooth............................  Jul 9--Jul 26..........  CA....................  5S/San Bernardino.....  San Bernardino........     61,700    17.9
Heart/Millard Complex...............  Jul 9--Jul 25..........  CA....................  5S/San Bernardino.....  San Bernardino........     23,917    13.0
Tripod Complex......................  Jul 24--Oct 5..........  WA....................  6/Okanogan............  Okanogan..............    175,184    74.2
Columbia Complex....................  Aug 21--Sep 2..........  WA....................  6/Umatilla............  Columbia, Garfield....    109,402    35.9
Shake Table Complex.................  Aug 22--Sep 15.........  OR....................  6/Malheur.............  Grant.................     14,453    16.1
Maxwell.............................  Jul 24--Aug 13.........  OR....................  6/ Ochoco.............  Wheeler...............      7,157    11.3
Cavity Lake.........................  Jul 14--Aug 20.........  MN....................  9/Superior............  Cook..................     31,380    11.4
--------------------------------------------------------------------------------------------------------------------------------------------------------
Data Source: Final ICS 209's submitted for each incident, provided by NIFC.

       Firefighters United for Safety, Ethics, and Ecology,
                                         Eugene, OR, June 21, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Pete Domenici,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Bingaman and Senator Domenici: Thank you for this 
opportunity for Firefighters United for Safety, Ethics, and Ecology 
(FUSEE) to provide input on issues related to the preparedness of 
federal land management agencies for the 2007 wildfire season and 
suppression cost containment issues.
    FUSEE is a nonprofit organization whose members include current, 
former, and retired wildland firefighters; fire ecologists and 
managers; fire scientists and educators; forest conservationists; and 
other citizens who promote safe, ethical, ecological wildland fire 
management. We support a new, emerging paradigm that seeks to 
holistically manage wildland fire for its multiple social and 
ecological benefits instead of endlessly ``fighting'' it across the 
landscape. Our ultimate vision is the creation of fire-compatible human 
communities able to live safely and sustainably within fire-adapted 
ecosystems and fire-permeable landscapes.
    In our view, preparing for wildland fires and containing the costs 
of emergency wildfire suppression is both a practical and an ethical 
issue for two important reasons. First, every taxpayer dollar that goes 
to suppressing wildfires represents less money available for other 
valued public services, including ecological restoration of public 
lands. Federal lands are degraded by decades of inappropriate fire 
suppression, commercial logging, livestock grazing, and road-building--
all of which contribute to increased wildfire hazards and suppression 
costs. These public lands are in desperate need of restoration 
treatments not only to repair the damage of the past but also to 
prepare for the changes in the future due to global warming.
    Second, for those times and places where wildfire suppression is 
necessary and desirable, every taxpayer dollar that is spent on 
inefficient or ineffective suppression actions represents waste and 
abuse not only in terms of misspent money, but also degraded natural 
resources, destroyed homes, and increasingly, lost firefighter lives. 
Thus, in our view, lack of preparedness for wildland fires leads to 
lack of cost constraints for emergency wildfire suppression. Thus, 
requiring federal land management agencies to be fully prepared for 
wildland fire is fundamentally an ethical issue interrelated with 
issues involved firefighter and community safety, environmental 
protection, and ecological restoration.
    In this spirit, FUSEE would like to offer the following 
constructive criticisms and policy recommendations:
1) Fire management planning is vital for wildfire preparedness.
    The 1995 Federal Wildland Fire Management Policy (Fire Policy) was 
developed in the wake of the terrible 1994 fire season in which 34 of 
the nation's most elite trained firefighters died in the line of duty. 
The 1995 Fire Policy called for a fundamental shift in agency 
philosophy and cultural attitudes toward fire, the integration of fire 
management with forest and resource management objectives, and the full 
involvement of interagency partners and the public in fire management. 
This effectively expanded the mission of fire managers beyond their 
traditional duties of preventing or suppressing wildfires to include 
reducing hazardous fuels and restoring fire-adapted ecosystems.
    The 1995 Fire Policy clearly stated that,

          Every area with burnable vegetation must have an approved 
        Fire Management Plan (FMP) . . . Fire Management Plans must 
        also address all potential wildland fire occurrences and 
        include the full range of fire management actions.

    Essentially, the entire federally-managed landbase should undergo 
fire planning wherever wildland fires might start or spread.
    Proactive fire management planning was so important that it was 
discussed in four of the Fire Policy's nine Guiding Principles, and was 
put at the top of the list of 83 Action Items in the Fire Policy's 1996 
Implementation Action Plan.
    Following the ``millennial fire season'' of 2000, the Fire Policy 
was formally reviewed and updated, further emphasizing the importance 
of developing current, approved FMPs in six of the 17 Policy 
Statements, and four of the 11 Implementation Actions. Noting that 
federal land management agencies had not been developing FMPs, the Fire 
Policy Update stated that,

          Fire Management Plans that implement Federal Fire Policy must 
        be completed as soon as possible. All land management agencies 
        should place a high priority on completion of these plans. If 
        necessary, land management plans should be updated, revised, or 
        amended to allow full implementation of Federal Fire Policy.

    This call to action to develop FMPs was also echoed in reviews 
conducted by the National Academy of Public Administration, and the 
Government Accountability Office.
    In 2000 the Western Governors' Association (WGA) also developed an 
important policy document, ``A Collaborative Approach for Reducing 
Wildland Fire Risks to Communities and the Environment: 10-Year 
Comprehensive Strategy,'' (Comprehensive Strategy) that later became a 
formal part of the National Fire Plan. The WGA's Comprehensive Strategy 
emphasized the importance of FMPs in two of its Implementation Tasks 
and two of its Performance Measures; for example, ``Percent of burnable 
acres covered in federal FMPs in compliance with Federal Wildland Fire 
Policy'' was a performance measure for federal fire managers.
    In sum, the 1995 and 2001 Federal Wildland Fire Policy provides the 
philosophical and policy foundation for all federal wildland fire 
management activities. The WGA's Comprehensive Strategy and the 
National Fire Plan also guide fire management programs. Each of these 
policy documents clearly state the critical need to develop science-
based collaborate FMPs. We emphasize this history of policy development 
of FMPs because FMPs are one of the essential elements of Fire 
Preparedness that helps make fire management safer, more efficient, 
more effective, and less costly.
    Unfortunately, Forest Service officials and some members of 
Congress dismiss fire planning as nothing more than ``bureaucratic 
paperwork'' that needlessly takes time, energy, or money away from 
``actions on the ground.'' On the contrary, FMPs represent wise, 
strategic investments essential to wildfire preparedness. Indeed, it 
begs the question, what does it mean to be ``prepared'' if one does not 
have an adequate plan?
2) FMPs can help contain wildfire suppression costs
    FMPs can contain suppression costs by helping to focus firefighting 
actions to the times and places and methods it is most safe, effective, 
and necessary. FMPs can also reduce suppression costs by setting 
priorities for hazardous fuels reduction, and designing ecosystem 
restoration programs and projects that in the long run will reduce 
uncharacteristic wildfire severity and improve forest ecosystem health. 
One fire management method that effectively accomplishes both hazardous 
fuels reduction and ecosystem restoration is Wildland Fire Use (WFU). 
WFU has the added economic benefit of avoiding damaging suppression 
actions that then require costly post-fire rehabilitation treatments.
    In fact, the U.S.D.A. Inspector General's recent ``Audit Report on 
Forest Service Large Fire Suppression Costs'' noted the potential cost 
savings related to WFU, and strongly recommended its increased 
application. According to current Forest Service policy, though, FMPs 
are required in order to implement WFU. Without a current, approved FMP 
in place that authorizes WFU, the agency has only one option in 
response to wildland fires: total aggressive suppression. It must be 
emphasized that each and every time the agencies engage in emergency 
wildfire suppression, it involves risks to firefighter safety, costs 
taxpayers lots of money, and inflicts damages on the natural 
environment. WFU is a proven means of reducing those risks, costs, and 
impacts.
    In comparing costs of wildfire suppression versus WFU, acre for 
acre WFU is far cheaper. For example, in the Environmental Assessment 
for the Sequoia/Kings Canyon National Park's FMP, it was disclosed that 
for large fires, wildfire suppression cost an average $1,300 per acre, 
while WFU on large fires cost only $87 per acre! On small fires, 
wildfire suppression cost $5,900 per acre while WFU cost $2,600 per 
acre (the difference in costs between large and small fires are due to 
the economies of scale). Increasing the use of WFU would have multiple 
positive impacts on reducing fire management costs, especially wildfire 
suppression and hazardous fuels reduction programs, however, WFU is not 
an option if there is no FMP in place. We support the Inspector 
General's call for increasing the use of WFU, and removing all 
institutional and policy obstacles that constrain WFU opportunities.
3) Existing Forest Service FMPs have serious flaws
    The U.S.D.A. Secretary chartered an Independent Large Wildfire Cost 
Panel to explore suppression cost containment issues. Their report, 
``Towards a Collaborative Cost Management Strategy: 2006 U.S. Forest 
Service Large Wildfire Cost Review Recommendations'' (The Brookings 
Report), discusses in detail the shortcomings of Forest Service FMPs, 
and recommends the use of FMPs as ``strategic frameworks for managing 
fire suppression investment.'' In the Brookings Report's examination of 
the FMPs for the National Forests that experienced the largest, most 
expensive wildfires in 2006, the majority of FMPs:

  <bullet> Lacked information on recent fire history that could have 
        guided suppression strategies and tactics.
  <bullet> Defined fire management units according to management 
        objectives rather than geographic boundaries that made sense 
        for managing fire.
  <bullet> Lacked information on the Wildland/Urban Interface and 
        Intermix or adjacent non-Forest Service lands.
  <bullet> Did not define management techniques for the implementing 
        the Appropriate Management Response (AMR), and defined AMR only 
        from a suppression point of view.
  <bullet> Authorized WFU on less than half of available lands; nearly 
        half of the National Forests in the sample did not authorize 
        WFU at all.
  <bullet> Lacked up-to-date information on recent fuels reduction 
        treatments.
  <bullet> Did not provide any substantive guidance for managing the 
        costs of wildfire suppression.

    The Brookings Report concludes that existing Forest Service FMPs 
were static documents poorly linked to underlying Land and Resource 
Management Plans, and have minimal to no value in developing the actual 
strategies and tactics used to respond to wildfires. Clearly, the 
agency's whole approach to pre-fire planning-the essence of wildfire 
preparedness-needs to be fully examined and fundamentally changed.
4) The U.S. Forest Service is shirking its responsibility to develop 
        FMPs that comply with the Nation's environmental laws, best 
        available science, and democratic principles
    Existing Forest Service FMPs are not only insufficient for meeting 
the challenges of modern fire management, but they are also illegal 
since they do not comply with the National Environmental Policy Act 
(NEPA). For example, almost all Forest Service FMPs lack a foundation 
in sound fire ecology science. Thus, when FMPs mandate aggressive fire 
suppression and fire exclusion in remote areas located in fire-
dependent ecosystems, this causes forest health problems that 
ultimately increase wildfire hazards, thereby increasing suppression 
costs. All FMPs are devoid of analysis and discussion of a range of 
alternative management strategies. This analysis is essential for 
implementing AMR and developing successful cost containment strategies. 
All FMPs fail to include public processes for informed citizen review 
and comment. FMPs developed by a few Forest Service staff thus lack the 
benefit of local community knowledge of the values-at-risk, and this 
leads to the agency engaging in suppression actions where the costs of 
suppression outweigh the benefits. Moreover, the agency lacks the 
ability to prioritize both fuels reduction treatments and protection 
actions that matter most to the public.
    In response to litigation by environmental organizations and the 
California Attorney General's Office, two separate federal court 
decisions ordered the Forest Service to develop FMPs that comply with 
the NEPA. The Forest Service reacted to these court orders in 2006 by 
withdrawing the FMPs from the Six Rivers and Sequoia National Forests 
at the onset of wildfire season. The agency is threatening to withdraw 
more FMPs if additional lawsuits are filed. Furthermore, it is in the 
process of eliminating requirements for FMPs in the Forest Service 
Manual. It took over a decade since the adoption of the Federal Fire 
Policy for the Forest Service to develop FMPs for every National 
Forest, and now the agency is beginning to remove them. In essence, the 
Forest Service is going in reverse in terms of implementing the Fire 
Policy, and in so doing, is becoming dangerously less prepared for 
wildland fire.
    Imagine if a federal court ordered the city of New Orleans to 
involve the public and scientists in hurricane response planning, and 
the response of local government officials was to withdraw its plan and 
eliminate hurricane planning altogether! The Forest Service's attitude 
and response to FMP litigation is analogous, and is a recipe for future 
wildfire disasters at huge taxpayer costs.
    We have belabored the issue of FMPs in the Forest Service because 
we feel that it is the very foundation of preparedness for all aspects 
of wildland fire management. Beyond planning for wildfire suppression, 
FMPs should also provide analysis and strategic guidance for prescribed 
burning and ecological restoration projects, fuels management and 
vegetation monitoring, fire communication and prevention education 
programs, wildland fire use objectives, Appropriate Management Response 
methods, analysis of the environmental effects of fire suppression and 
fire exclusion, and especially cost containment factors for fire 
management activities. After numerous internal reviews and external 
studies on this subject, the Forest Service continues to approach 
suppression cost containment from a reactive perspective-how to cut 
costs during wildfire emergencies-rather than from a proactive and 
strategic perspective-how to prevent the need for costly emergency 
wildfire suppression in the first place.
    FUSEE believes that the solution to efficient and effective 
wildfire preparedness and cost reductions in fire management programs 
is not to ``cheapen'' suppression operations, but rather, to invest in 
more robust pre-fire planning, public fire education, fire ecology 
research, community fire preparedness, and ecological fire restoration. 
The goal really should be to make emergency wildfire suppression the 
exception, rather than the norm.
    Again, without strategic FMPs in place before wildfires ignite, the 
Forest Service is basically choosing to blindly fight wildfires, with 
all the risks to firefighters, costs to taxpayers, and impacts to 
natural resources and ecosystems inherent in reactive, emergency 
wildfire suppression. There is one additional value and need for 
strategic, long-term fire planning--perhaps the most important one of 
all: the need to prepare for the coming changes in vegetation, fuels, 
and fire regimes caused by global warming and climate change. We 
strongly urge that members of the Committee examine the ``San Diego 
Declaration on Climate Change and Fire Management,'' drafted by the 
Association for Fire Ecology and ratified at the Third International 
Fire Ecology and Management Congress, for advice on policies helping to 
developing long-range fire and land management plans to prepare for 
climate change.
    Thank you for this opportunity to provide input to the Senate 
Energy and Natural Resources Committee for your June 26, 2007 Oversight 
Hearing on wildfire preparedness and suppression cost containment 
issues.
            Sincerely,
                                         Timothy Ingalsbee,
                                                Executive Director.

                                    

      

</pre></body></html>
